<html>
<title> - NOMINATION OF HON. KELLY CRAFT, OF KENTUCKY, TO BE UNITED STATES AMBASSADOR TO THE UNITED NATIONS</title>
<body><pre>[Senate Hearing 116-158]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-158
 
                    NOMINATION OF HON. KELLY CRAFT,
                    OF KENTUCKY, TO BE UNITED STATES
                    AMBASSADOR TO THE UNITED NATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              JUNE 19, 2019

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
               U.S. GOVERNMENT PUBLISHING OFFICE 
 39-942 PDF              WASHINGTON : 2020                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD YOUNG, Indiana                  CORY A. BOOKER, New Jersey
TED CRUZ, Texas
                  Christopher M. Socha, Staff Director        
               Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk     
                    

                               (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

McConnell, Hon. Mitch, U.S. Senator from Kentucky................     1


Risch, Hon. James E., U.S. Senator from Idaho....................     3


Menendez, Hon. Robert, U.S. Senator from New Jersey..............     4


Craft, Hon. Kelly, of Kentucky, United States Ambassador to 
  Canada, Nominated to be United States Representative to the 
  United Nations.................................................     6

    Prepared statement...........................................     9

             Additional Matertial Submitted for the Record

Responses to Additional Questions for the Record Submitted to 
  Hon. Kelly Craft by Members of the Committee

    Questions from Senator Robert Menendez.......................    47

    Questions from Senator Benjamin L. Cardin....................    97

    Questions from Senator Jeanne Shaheen........................   107

    Questions from Senator Christopher A. Coons..................   109

    Questions from Senator Tom Udall.............................   109

    Questions from Senator Tim Kaine.............................   115

    Questions from Senator Edward J. Markey......................   118

    Questions from Senator Jeff Merkley..........................   122

    Questions from Senator Cory A. Booker........................   123


Correspondence Received in Support of Ambassador Craft's 
  Nomination

    Letter supporting Amb. Craft's nomination, from J.D. Irving, 
      Co-Chief Executive Officer, J.D. Irving, Limited, Saint 
      John, New Brunswick, Canada................................   126

    Letter supporting Amb. Craft's nomination, from Gordon D. 
      Griffin, Global Vice Chair, Denton's, U.S. LLP, Atlanta, GA   127


Letter to Amb. Craft, regarding the U.S. withdrawal from the 
  Paris Agreement, sent by Senators Edward J. Markey, Jeff 
  Merkley, and Sheldon Whitehouse................................   129



                             (iii)        


                   NOMINATION OF HON. KELLY CRAFT, OF

                     KENTUCKY, TO BE UNITED STATES

                    AMBASSADOR TO THE UNITED NATIONS

                              ----------                              


                        WEDNESDAY, JUNE 19, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:18 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Johnson, 
Gardner, Romney, Graham, Isakson, Barrasso, Portman, Paul, 
Young, Cruz, Menendez, Cardin, Shaheen, Coons, Murphy, Kaine, 
Markey, and Merkley.
    The Chairman. The committee will come to order.
    Today, the committee will hold a nomination hearing on a 
very important position. Our nominee today is the Honorable 
Kelly Craft, currently the Ambassador for Canada, and nominated 
to be the United States Ambassador to the United Nations.
    First, we have two distinguished guests, distinguished and 
celebrity guests I might add, today. And they are going to 
introduce our nominee. So we are going to allow them to proceed 
with their introductions. Usually Senator Menendez and I do our 
opening statements first, but we are going to postpone because 
I know that our guest introducers have important business to 
do.
    We are privileged to be joined by Ambassador Craft's home 
State Senators today, Majority Leader Mitch McConnell. Senator 
Rand Paul will be here soon to also introduce the nominee.
    Senator McConnell, welcome to the United States Foreign 
Relations Committee, long known for its kindness to its 
witnesses and for civility. Your steady and thoughtful 
leadership inspire us all as you sail this ship through the 
heavy seas we encounter daily here, and we welcome hearing your 
considered judgment regarding the matter before us today. So, 
Senator McConnell, the floor is yours.

              STATEMENT OF HON. MITCH MCCONNELL, 
                   U.S. SENATOR FROM KENTUCKY

    Senator McConnell. Thank you, Mr. Chairman, Senator 
Menendez, members of the committee. I am really pleased to be 
here this morning to introduce a distinguished stateswoman and 
leader and, of course, a proud Kentuckian. The Blue Grass is 
proud of its daughter of our commonwealth. I am confident our 
entire nation will be proud of the fine service she will render 
as our Ambassador to the United Nations.
    Of course, most of you are already familiar with Kelly 
Knight Craft because almost 2 years ago, I came here to 
introduce her nomination to be Ambassador to Canada. I noted 
her impressive record of public service. I talked about her 
unanimous Senate confirmation back in 2007 to serve as an 
Alternate Representative for our delegation to the U.N. General 
Assembly. I described how her performance in that role, 
including her work on the new partnership for Africa's 
development showed that Ms. Craft is a talented consensus 
builder, and I predicted that, if confirmed, she would 
skillfully manage America's relationship with our neighbor to 
the north.
    A week later, her nomination was reported favorably out of 
this committee on a voice vote, and 1 week after that, she was 
confirmed by the full Senate, again by a voice vote.
    So let us talk about the past 2 years and the impressive 
record of this first-ever woman to serve as our Ambassador to 
Canada.
    Historically that post is not one that is typically viewed 
as one of the tougher assignments in the diplomatic corps. But 
as it would turn out, Ambassador Craft's tenure brought a host 
of tough issues and thorny questions to the fore, everything 
from rethinking NAFTA to navigating real differences between 
Canada's leadership and our administration. The relationship 
was tested, and by all accounts, our Ambassador rose to the 
occasion and did an outstanding job.
    On economics, she helped achieve the successful trade 
negotiations that culminated in the USMCA, helped secure a new 
chapter for the Regulatory Cooperation Council between the two 
countries, and defended access for U.S. businesses.
    On the diplomatic front, her time as Ambassador has seen 
greater cooperation and coordination on numerous critical 
fronts. Canada joined the front lines of the new U.S.-led 
international sanctions on Russia over its actions against 
Ukraine. Canada has played an important role with the Lima 
Group, the international coalition committed to a peaceful and 
democratic transition for Venezuela. And just recently, 
Ambassador Craft spoke out forcefully when China unlawfully 
detained Canadian citizens.
    This is a record of significant achievement. It reflects 
hard work, careful study, and great skill. And she has won 
respect both at home and abroad. The current Premier of Ontario 
has reflected, quote, every premier I know thinks the world of 
her. She really proved herself over some tough times. That is 
the Premier of Ontario.
    And watching Ambassador Craft's tenure, a former Canadian 
to the U.S. has concluded she has done the job very well.
    As it happens, I am actually meeting with Prime Minister 
Trudeau tomorrow to discuss the USMCA. I know that our 
conversations will only be building on a huge amount of 
successful work by Ambassador Craft to forge the path.
    So, Mr. Chairman, following the successful tenure from 
Ambassador Nikki Haley, it is vital that our next U.N. 
Ambassador possess the knowledge, talent, and experience to 
continue skillfully advancing our nation's interests and 
values.
    So that is why I am proud to say Ambassador Craft is a 
phenomenal selection by the President. I am proud to support 
her nomination, and I am really proud to be here this morning 
to introduce her to all of you.
    Thank you very much.
    The Chairman. Thank you, Senator McConnell. We sincerely 
appreciate that. And we know how busy you are, so we will 
certainly excuse you.
    We are still waiting for Senator Paul, and when he gets 
here, we will hear from Senator Paul. But until he does, I will 
make an opening statement. Then will turn it over to Senator 
Menendez to make his opening statement.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Today, we will consider the nomination of the Honorable 
Kelly Craft to be the Representative of the United States to 
the United Nations and to be the Representative of the United 
States to the U.N. Security Council and the U.N. General 
Assembly.
    We welcome all of you and thank you, Ms. Craft, for your 
willingness to serve.
    As Senator McConnell has already given an introduction, I 
will speak for just a few minutes about the importance of this 
position.
    Of the approximate 200 countries the United States is by 
far the largest donor to the United Nations, providing 22 
percent of the U.N. regular budget and 25 percent of the U.N. 
peacekeeping budget. Compare that to the second largest 
contributor, China, which pays only 12 percent of the regular 
budget and 15 percent of the peacekeeping budget. Clearly, the 
U.S. taxpayer has been extremely generous to the United Nations 
since its founding in 1945.
    Due to the United States' significant support and 
leadership, we have been some, but not universally successful 
in pursuing policies which support the interests and values 
which are shared by many, though not all of the countries 
around the world.
    For example, in the Security Council under President 
Trump's leadership, the U.S. has been successful at passing the 
toughest sanctions ever against North Korea and an arms embargo 
in South Sudan, actions that are in the interest of all human 
beings and our allies, not just the United States.
    However, the Security Council, largely due to Russian and 
Chinese misbehavior, has failed to make significant progress on 
some of the most pressing international crises. The United 
Nations exists to ensure international peace and security, but 
two of its members are the instigators of insecurity around the 
globe.
    For example, Russia has repeatedly used its veto at the 
Security Council to shield its brutal ally, the Assad regime, 
from investigations into war crimes committed in this 8-year 
long atrocity.
    And China blocks consensus on issues related to Burmese 
complicity in the violence against the Rohingya population.
    Because of this impasse at the U.N. Security Council, the 
humanitarian crises have only increased and become more 
prolonged.
    The U.N. plays a vital role in responding to humanitarian 
crises. This is where we see and urge burden sharing. While the 
U.S. remains the largest donor to humanitarian crises across 
the globe, the U.N. system pushes other countries to contribute 
and uses our money as a force multiplier in places such as 
Yemen and Venezuela.
    It is important that the U.S. continue to pressure the 
United Nations to spend its money efficiently and effectively. 
The current U.N. Secretary-General has been focused on U.N. 
reform, and I applaud this effort. It is long overdue and much 
needed. There needs to be a robust push to eliminate waste, 
fraud, and abuse in the U.N. system. And, Ms. Craft, we will be 
looking forward to you pursuing that, which is important to 
many of us on this committee.
    In particular, we should continue to press for peacekeeping 
reform. While the U.N. has recognized and created a new 
Department of Peace Operations, we remain concerned about the 
increase in resources requested in light of the downsizing of 
some key missions such as Darfur, DRC, and Haiti. While the 
United States benefits from being a member of the U.N., the 
United Nations benefits more, much, much more from the United 
States being a member.
    Ms. Craft, I look forward to hearing from you how you can 
support U.S. leadership at the U.N. to ensure that it promotes 
the interests and values, especially values, of the United 
States and of our allies.
    I have received some materials in advance of this hearing. 
I am going to include them in the record.


    [The information referred to above is located at the end of 
this hearing transcript, beginning on page 126.]


    The Chairman. I want to point to just one in particular. I 
have a letter of support from Gordon B. Giffin, who was the 
United States Ambassador to Canada under President Clinton. Mr. 
Giffin states, ``I have no doubt that the experience gained 
over 2 years as Ambassador to Canada has prepared Kelly Craft 
well for the next assignment. ''
    With that, I will turn this over to the ranking member, 
Senator Menendez, for his opening statement.

               STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Ambassador Craft, welcome to your second confirmation for a 
deeply consequential position.
    The United States was instrumental in creating the United 
Nations in the post-war era, built on founding American values 
of democracy and human rights. Multilateral institutions like 
the United Nations and NATO have underpinned the peace, 
prosperity, and stability that the American people have enjoyed 
for decades. These fundamental values and international 
institutions, however, are under assault today from actors who 
seek to exploit them for their own agendas, as well as those 
who threaten to abandon and undermine them completely.
    If confirmed, you will represent the United States at an 
exceedingly complex time, with China's growing influence at the 
U.N., Russian adventurism and obstruction on the Security 
Council, and President Trump's relentless attacks on 
multilateralism, undermining and withdrawing from numerous 
international agreements and agencies, defunding critical U.N. 
agencies like the U.N. Population Fund, and cutting 
contributions to our peacekeeping obligations.
    The American people need someone with tenacity, experience, 
and a deep understanding of the complexities of global affairs 
and international institutions, who is committed to 
multilateralism and reforming and strengthening the United 
Nations, not irreparably damaging it.
    So, Madam Ambassador, let me be frank. I have deep 
reservations about your lack of qualifications for such a 
complex and challenging role. Historically, U.S. ambassadors to 
the U.N. have brought significant executive experience or 
experience working directly in foreign policy.
    Before your short stint as Ambassador to Canada, I 
understand you were active in Kentucky and national party 
politics, and in 2007, you were an alternate observer delegate 
to the General Assembly.
    Furthermore, during your 1 and a half years as Ambassador, 
you spent an excessive amount of time absent from Ottawa, 
leaving your duties to deputies. Madam Ambassador, the most 
fundamental role of an ambassador is to actively, presently, 
and wholeheartedly represent and advocate for American 
interests, American values, and American foreign policy. I find 
this staggering amount of time away from post very troubling 
and an abdication of leadership. If confirmed, you would be 
serving alongside some of the most experienced, seasoned, and 
sometimes ruthless diplomats from all over the world.
    We are confronting myriad challenges in the world today, 
including multiplying conflicts, climate change, nuclear 
proliferation, that cut across borders which the United States 
cannot meet alone. While the U.N. and its subsidiary bodies are 
far from perfect institutions, they have the power to 
facilitate remarkable achievements and leverage partnerships.
    If you are confirmed, I hope you will address the following 
priorities:
    First, we must actively seek to balance China's influence. 
This administration's pullback from the U.N. risks enabling 
China to fill the vacuum by ceding diplomatic ground. China is 
eager to undermine U.N. human rights mechanisms and impose 
China's authoritarian world view.
    Second, the U.N. must be fair and appropriately condemn 
human rights abuses and atrocities and stop politically 
motivated resolutions. One of the persistent weaknesses of the 
United Nations system has been the biased and ugly approach 
towards Israel. You must use your voice to end and combat these 
efforts.
    Third, the United States must pay our arrears. The U.N. is 
in a financial crisis, in part due to U.S. shortfalls. For 
peacekeeping alone, we are $776 million in arrears. These 
arrears have accrued in just the last 3 years, from the U.S. 
paying only 25 percent of peacekeeping costs instead of what we 
actually owed, 28 percent. Last week, the State Department 
issued its own report detailing that the U.S. refusal to pay 
its arrears has, quote--this is the State Department speaking--
diminished our ability to pursue U.S. priorities, reduced U.S. 
ability to promote oversight and accountability at the U.N., 
reduced standing to promote the candidacy of qualified U.S. 
citizens to assume senior management roles at the U.N., and 
impaired the ability of peacekeeping missions to operate. Close 
quote.
    Fourth, the United States must stop seeking to restrict 
access to sexual and reproductive health and human rights that 
improve the lives of women, girls, and communities around the 
world. Most recently, the U.S. egregiously threatened to veto a 
U.N. Security Council resolution for survivors of gender-based 
violence over reference to survivors' access to sexual and 
reproductive health care. That is appalling.
    And finally, the U.S. must work to shore up the U.N.'s 
humanitarian response system, which is under extraordinary 
stress. We must do so not merely because it is the right thing 
to do, but because it is profoundly in our national interest to 
do so. The United States shares the burden with less risk when 
we address devastating humanitarian crises through the United 
Nations.
    Our national security is strengthened when we are at the 
table at the U.N., and the U.N. is more effective with American 
leadership and values on display.
    So, Ambassador, I look forward to your testimony today on 
these pressing issues.
    The Chairman. Thank you, Senator.
    Now we will turn to Ambassador Craft. Welcome. Thank you 
for being willing to undertake this important engagement on 
behalf of the people of the United States. The floor is yours.

     STATEMENT OF HON. KELLY CRAFT, OF KENTUCKY, TO BE THE 
 REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE UNITED 
        NATIONS, WITH THE RANK AND STATUS OF AMBASSADOR

    Ambassador Craft. Thank you, Chairman Risch, Ranking Member 
Menendez, and all members of the committee. Thank you for the 
opportunity to appear here today.
    It is a singular honor to sit before you as President 
Trump's nominee to serve as U.S. Ambassador to the United 
Nations.
    A special word of thanks, of course, to my Kentucky 
Senators, Leader McConnell and Senator Paul, for their kind 
words, as well as their encouragement, wisdom, and support 
throughout my tenure in Ottawa.
    I would like to express my gratitude to President Trump, 
Vice President Pence, Secretary Pompeo, Ambassador Lighthizer, 
and Mission Canada for the trust they have shown me as we have 
worked together to strengthen our bonds with Canada and the 
Canadian people.
    I appear before you today excited at the prospect of 
representing the United States at the U.N., but also saddened 
at the thought of leaving my many superb colleagues and 
counterparts across the northern border.
    Mr. Chairman, I am blessed with the most loving and 
supportive family imaginable. My husband Joe, our family, Ron, 
Elliott, JW, Mollie, Ryan, Lauren, Kyle, Mia, Stu, Jane, and 
Wyatt. My siblings Marc and their spouses; Elisabeth, my 
sister; Micah and her husband Bruce. And five of the shining 
stars--five out of 11 in our life--we have Jake, Kingsley, 
Holland, Lachlan, Windsor, and our friend Fifi.
    When the President asked me to consider moving to New York 
to serve as our nation's Permanent Representative to the United 
Nations, I turned to the people behind me to ask for their 
guidance and to God for his. If confirmed, I would assume this 
position knowing that just like the Toronto Raptors and the 
Kentucky Wildcats, I will have a very deep bench.
    I would also assume this position with clear-eyed humility. 
I have much to learn about the United Nations, a fact I first 
encountered in 2007 when I served as the Alternate Delegate to 
the U.N. General Assembly and saw firsthand the complexity of 
multilateral diplomacy at this unique institution.
    I learned then that making progress at the U.N. requires 
constant attention to relationships, a knack for knowing the 
bottom line, and a belief in incremental but determined steps 
forward.
    Ultimately, I would have not accepted the President's 
nomination for this position if I was not certain I was ready 
for the task at hand. Like the President I have had the honor 
to serve, I believe the United Nations is a vital institution 
that is at its best when free nations jointly contribute to its 
missions around the world.
    I was born and raised on a working farm where all living 
things were valued and treated with kindness. We were that 
family with a few one-eyed cats and three-legged dogs. We 
treasured and we protected the land and all those who worked it 
and walked it. My parents instilled in me a respect for people 
of all means, occupations, origins, and circumstances. If 
confirmed, those are the values that will animate my work at 
the U.N., as they have throughout my personal and my 
professional life.
    And, if confirmed, I will carry with me the respect as I 
engage all of my 192 counterparts. I will also carry with me 
several key priorities I have already had the opportunity to 
discuss with many of you on the committee.
    Most notably, the United States must continue the drum beat 
of reform at the U.N. Of course, the issue of reform has been 
something of a mantra for members of both parties on this 
committee and for good reason.
    The U.N. system has grown quickly. Its activities have 
expanded, and its ambitions at times have gotten ahead of 
accountability. Waste and overlap remain problems. Conduct 
issues, including sexual exploitation, continue to surface.
    Hiring practices are often too opaque, and backroom deals 
for appointments and contracts continue. None of that is 
acceptable, and my voice on these matters will be heard 
whenever and wherever these issues arise. The United Nations 
needs greater transparency, and U.S. taxpayers deserve it. 
Reform makes the United Nations stronger, not weaker.
    The second priority I will take to New York is a focus on 
expanding the pool of resources available to the U.N.'s 
humanitarian network and pushing its agencies to maximize the 
impact of those resources on the ground where needs are the 
greatest. There are numerous, massive, and protracted crises 
from Sudan to Yemen to Syria, and there are new crises that we 
did not foresee a few years ago, such as the 4 million 
Venezuelans that have fled their country in search of safety 
and sustenance.
    The United States has long been the world leader in 
supporting humanitarian aid, spending more than $8 billion a 
year through USAID and international organizations such as 
UNICEF and the World Food Program. But I also believe other 
responsible nations can and must do more to contribute their 
fair share, and I will make this point very firm and 
frequently. Again, the U.N. is stronger, not weaker, when more 
of its members are invested in the success of its most 
important work.
    Finally, I am a believer in the power of public-private 
partnerships to unlock opportunity and spur development. If 
confirmed, I will take to New York a broad network of 
relationships I believe can fuel new partnerships and expand 
those with proven track records. Among my areas of strong 
interest for displaced populations are strengthening prenatal 
care services for women, improving the quality of early 
childhood education, and increasing the attention to challenges 
to elder care. The numbers are colossal. The needs are urgent, 
and we have a moral and practical obligation to work with other 
countries to address these crises.
    While bolstering humanitarian efforts will be a top 
priority for me, there is another issue of a global nature that 
I would like to briefly address. I understand that some members 
of this committee have raised questions about where I stand on 
climate change, and though I have spoken to many of you 
individually about this issue, I would like to repeat my 
thoughts here publicly.
    Climate change needs to be addressed as it poses real risks 
to our planet. Human behavior has contributed to the changing 
climate. Let there be no doubt. I will take this matter 
seriously, and if confirmed, I will be an advocate for all 
countries to do their part in addressing climate change.
    This does not mean, in my view, that the United States 
should imperil American jobs or our economy as a whole by 
assuming an outsized burden on behalf of the rest of the world. 
However, it does mean that we should promote the creativity and 
innovation that have made the United States a leader in 
tackling the challenges of our environment and while 
safeguarding our nation's economic wellbeing.
    Mr. Chairman, members of the committee, I believe that the 
United States must maintain its central leadership role at the 
United Nations, as it should, and I say this for several 
reasons.
    First, when the U.N. performs, it advances key American 
objectives, including the promotion of peace and security.
    Second, without U.S. leadership, our partners and allies 
would be vulnerable to bad actors at the U.N. This is 
particularly true in the case of Israel, which is the subject 
of unrelenting bias and hostility in U.N. venues. The United 
States will never accept such bias, and if confirmed, I commit 
to seizing every opportunity to shine a light on this conduct, 
call it what it is, and demand that these outrageous practices 
finally come to an end.
    Finally, I believe the United States must remain vigilant 
in constraining efforts by our strategic competitors to gain 
influence at our expense. I speak in particular about Russia 
and China, two nations with cynical approaches to the United 
Nations.
    If confirmed, I will miss no opportunity to draw attention 
to malign influence at the U.N.; to distinguish American 
leadership from the corrosive, underhanded conduct of those 
nations; and to reinforce the values, our values, that were 
central to the U.N.'s founding.
    Mr. Chairman, the United States has been met with many 
recent successes at the U.N. from historic sanctions against 
North Korea to a renewed boldness in speaking out against rogue 
actors. There are successes that I am eager to build upon, and 
I look forward to working with this committee and benefiting 
from its collective wisdom and experience.
    If given the honor to sit behind the nameplate that reads 
``United States,'' you have my word that I will do everything 
in my power to advance policy that benefits the American 
people, that contributes to a safer, more prosperous world, and 
that is grounded in an unwavering commitment to universal human 
rights and human freedom.
    Thank you to all of you for welcoming me here today, and I 
look forward to your questions.
    [The prepared statement of Ambassador Craft follows:]


                   Prepared Statement of Kelly Craft

    Chairman Risch, Ranking Member Menendez, and all members of the 
committee, thank you for the opportunity to appear here today.
    It is a singular honor to sit before you as President Trump's 
nominee to serve asU.S. Ambassador to the United Nations.
    A special word of thanks, of course, to my Kentucky Senators, 
Leader McConnell and Senator Paul, for their kind words as well as 
their encouragement, wisdom, and support throughout my tenure in 
Ottawa.
    I would also like to express gratitude to President Trump, Vice 
President Pence, Secretary Pompeo, Ambassador Lighthizer and Mission 
Canada for the trust they have shown me as we have worked together to 
strengthen our bonds with Canada and the Canadian people.
    I appear before you today excited at the prospect of representing 
the United States at the U.N., but also saddened at the thought of 
leaving my many superb colleagues and counterparts across our northern 
border.
    Mr. Chairman, I am blessed with the most loving and supportive 
family imaginable. My husband Joe, our family Ron, Elliott, JW, Mollie, 
Ryan, Lauren, Kyle, Mia, Stu, Jane and Wyatt.My siblings Marc and 
Elisabeth, Micah and Bruce. And the 5 of 11 stars in our lives Jake, 
Kingsley, Holland, Lachlan, and Windsor.
    When the President asked me to consider moving to New York to serve 
as our nation's Permanent Representative to the U.N., I turned to the 
people you see behind me to ask for their guidance, and to God for His. 
If confirmed, I would assume this position knowing that, like the 
Toronto Raptors and Kentucky Wildcats, I will have a very deep bench.
    I would also assume this position with clear-eyed humility. I have 
much to learn about the United Nations, a fact I first encountered in 
2007 when I served as an Alternate Delegate to the U.N. General 
Assembly and saw firsthand the complexity of multilateral diplomacy at 
this unique institution.
    I learned then that making progress at the U.N. requires constant 
attention to relationships, a knack for knowing the bottom line, and a 
belief in incremental, but determined, steps forward.
    Ultimately, I would not have accepted the President's nomination 
for this position if I was not certain I was ready for the task at 
hand. Like the President I have had the honor to serve, I believe that 
the United Nations is a vital institution that is at its best when free 
nations jointly contribute to its missions around the world.
    I was born and raised on a working farm where all living things 
were valued and treated with kindness. We were that family with more 
than a few one-eyed cats and three-legged dogs. We treasured and 
protected the land, and all those who worked it and walked it. My 
parents instilled in me a respect for people of all means, occupations, 
origins, and circumstances. If confirmed, those are the values that 
will animate my work at the U.N., as they have throughout my personal 
and professional life.
    And, if confirmed, I will carry that respect with me as I engage 
with all 192 of my counterparts. I will also carry with me several key 
priorities that I've already had the opportunity to discuss with many 
of you on the committee.
    Most notably, the United States must continue the drum beat of 
reform at the U.N. Of course, the issue of reform has been something of 
a mantra for members of both parties on this committee, and for good 
reason.
    The U.N. system has grown quickly, its activities have expanded, 
and its ambitions have at times gotten ahead of accountability. Waste 
and overlap remain problems. Conduct issues, including sexual 
exploitation, continue to surface.
    Hiring practices are too often opaque, and backroom deals for 
appointments and contracts continue. None of that is acceptable, and my 
voice on these matters will be heard whenever and wherever these issues 
arise. The United Nations needs greater transparency, and U.S. 
taxpayers deserve it. Reform makes the U.N. stronger, not weaker.
    The second priority I would take to New York is a focus on 
expanding the pool of resources available to the U.N.'s humanitarian 
network, and pushing its agencies to maximize the impact of those 
resources on the ground, where needs are the greatest. There are 
numerous, massive, and protracted crises, from Sudan to Yemen to Syria. 
And there are new crises that we did not foresee a few years ago, such 
as the four million Venezuelans who have fled their country in search 
of safety and sustenance.
    The United States has long been the world leader in supporting 
humanitarian aid, spending more than eight billion dollars a year 
through USAID and international organizations such as UNICEF and the 
World Food Program. But I also believe other responsible nations can 
and must do more to contribute their fair share, and I will make that 
point firmly and frequently. Again, the U.N. is stronger, not weaker, 
when more of its members are invested in the success of its most 
important work.
    Finally, I am a believer in the power of public-private 
partnerships to unlock opportunity and spur development. If confirmed, 
I will take to New York a broad network of relationships that I believe 
can fuel new partnerships and expand those with proven track records. 
Among my areas of strong interest for displaced populations are 
strengthening pre-natal care services for women, improving the quality 
of early childhood education, and increasing attention to elder care 
challenges. The numbers are colossal, the needs urgent, and we have a 
moral and practical obligation to work with other countries to address 
these crises.
    While bolstering humanitarian efforts will be a top priority for 
me, there is one other issue of a global nature that I would like to 
briefly address. I understand that some members of this committee have 
raised questions about where I stand on climate change, and though I 
have spoken to many of you individually about this issue, I want to 
repeat my thoughts here publicly.
    Climate change needs to be addressed, as it poses real risks to our 
planet. Human behavior has contributed to the changing climate. Let 
there be no doubt: I take this matter seriously, and if confirmed, I 
will be an advocate for all countries to do their part in addressing 
climate change.
    This does not mean, in my view, that the United States should 
imperil American jobs-or our economy as a whole-by assuming an outsized 
burden on behalf of the rest of the world. However, it does mean that 
we should promote the creativity and innovation that have made the 
United States a leader in tackling the challenges of our environment-
all while safeguarding our nation's economic wellbeing.
    Mr. Chairman, members of the committee, I believe that the United 
States must maintain its central leadership role at the United Nations. 
I say that for several reasons. First, when the U.N. performs as it 
should, it advances key American objectives, including the promotion of 
peace and security.
    Second, without U.S. leadership, our partners and allies would be 
vulnerable to bad actors at the U.N. This is particularly true in the 
case of Israel, which is the subject of unrelenting bias and hostility 
in U.N. venues. The United States will never accept such bias, and if 
confirmed I commit to seizing every opportunity to shine a light on 
this conduct, call it what it is, and demand that these outrageous 
practices finally come to an end.
    Finally, I believe the United States must remain vigilant in 
constraining efforts by our strategic competitors to gain influence at 
our expense. I speak in particular about Russia and China--two nations 
with cynical approaches to the United Nations.
    If confirmed, I will miss no opportunity to draw attention malign 
influence at the U.N.; to distinguish American leadership from the 
corrosive, underhanded conduct of those nations; and to reinforce the 
values-our values-that were central to the U.N.'s founding.
    Mr. Chairman, the United States has been met with many recent 
successes at the U.N., from historic sanctions against North Korea to a 
renewed boldness in speaking out against rogue actors. These are 
successes I am eager to build upon, and I look forward to working with 
this committee and benefiting from its collective wisdom and 
experience.
    If given the honor to sit behind the nameplate that reads ``United 
States,'' you have my word that I will do everything in my power to 
advance policy that benefits the American people; that contributes to a 
safer, more prosperous world; and that is grounded in an unwavering 
commitment to universal human rights and human freedom.
    Thank you for welcoming me here today, and I look forward to your 
questions.


    The Chairman. Thank you, Ambassador. Certainly good words, 
well received. We hope that as you take this position, that you 
will particularly follow through on the reform and cost-cutting 
that is needed there. Many, many people have talked about it 
but little gets done, and I have confidence that you are up to 
the job. So when you go there, I hope you will take that 
message from this committee.
    With that, we are going to go to a round of 5-minute 
questions based upon the arrival and going back and forth 
between the minority and the majority party.
    With that, will turn it over to Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you for your testimony, Ambassador.
    As I said to you in private and I have raised here in 
public, I have a concern about excessive absences from post. 
You gave me your commitment in private, but for the record 
here, do you commit to providing complete records of all of the 
time you spent away from post, including the cables approving 
your leave and your official calendars?
    Ambassador Craft. Yes, Senator, I do commit to providing 
you with all the information necessary.
    Senator Menendez. Thank you very much.
    And I appreciate the information you have provided, but 
there are a number of discrepancies. From October 23rd of 2017 
to June 19th of 2019, we have that you were away more than 300 
days away from the post. It is an extraordinary number of 
absences. The red describes each day that you were away from 
post.
    From March 21st to May 13th, in that short period of time, 
you were out 45 of 54 days from the post.
    Now, there are trips listed as official travel, but some of 
those trips that you listed as official travel you treated 
while being home in Kentucky.
    And there is additional travel that you appear to have 
taken that is not reflected in the information you provided. 
For example, there are several instances where you posted 
social media messages from places other than Canada, although 
there is no record of you traveling.
    Did you ever travel away from post without requesting 
approval?
    Ambassador Craft. No, sir. We requested approval in advance 
of my travel and were in full compliance with my travel.
    Senator Menendez. So you always requested and always 
received approval for your travel.
    Ambassador Craft. Yes, sir.
    Senator Menendez. Okay. So there may be explanations for 
all of these, but the bottom line is without the full records, 
we can evaluate it. So I would urge you, as well as the State 
Department, to provide these records so that we can move 
forward with your nomination.
    Let me ask you this. Lay out briefly for me the most 
pressing issues the United Nations faces, as well as areas 
where you believe the United States should leverage the United 
Nations in pursuit of our foreign policy priorities.
    Ambassador Craft. Thank you, Senator, for that question, 
and thank you for this conversation that we were able to have 
yesterday afternoon.
    I see pressing issues as any issue that involves innocent 
people throughout the U.N. system throughout the world that are 
being abused, that are having human rights abuses. I think it 
is very important that who would have ever thought that today 
we have so many crises in Venezuela, in Yemen, in Syria, and it 
is so important that we look after our human rights issues 
because then that, in turn, is going to be humanitarian issues. 
So in my opinion, I look at every issue when it involves an 
innocent civilian as a crisis.
    Senator Menendez. Well, I appreciate your response in terms 
of humanitarian issues, and I would share those with you. But I 
would expect someone who is the nominee to be the U.N. 
Ambassador in response to that question to talk about, for 
example, the challenges of North Korea aggression and nuclear 
proliferation, the challenges in Libya, a destabilized Libya, 
the challenges of China's growing influence and ongoing threats 
from Iran, the challenges of Venezuela. Those are minimally 
some of the hotspots in the world right now. So when I ask 
about the most pressing issues--and I certainly embrace the 
humanitarian issues, but these are the types of issues you will 
be called upon as the United States Ambassador at the U.N. to 
be dealing with.
    Let me ask you this. What U.N. functions would you describe 
as being of the greatest value to the United States?
    Ambassador Craft. Senator, thank you.
    I believe that the Security Council is going to be 
providing the greatest assistance to the U.S. in calling out 
bad actors and in highlighting anyone that demonstrates anti-
Israel bias or anti-Semitism and also reiterate that the 
Security Council is going to be an area that China and Russia 
can actually call themselves out by allowing the world to see 
how they do not assist us in human rights abuses and especially 
in calling out corrosive behavior, as we have in Iran. It is a 
moment that we can use to highlight bad actors, whether it be 
Iran, the Houthi rebels in Yemen, Russia, China, the way they 
treat the Uighurs. I mean, we have so many crises that the 
Security Council--it is very important that we be able to use 
them in establishing sanctions and also in making certain that 
we tackle human rights abuses every day.
    Senator Menendez. One follow-up question. You mentioned the 
Security Council. It certainly is an essential element of the 
U.N. There is a whole host of other functions the U.N. has that 
I would commend to your attention.
    But Russia. The President seeks to develop a greater 
personal relationship with Mr. Putin and Russia. How will seek 
to avail yourself of that as it relates to Russia at the 
Security Council?
    Ambassador Craft. Thank you, Senator.
    You know, I am not going there to be Russia's friend. They 
are not our friend. They undermine us at every opportunity that 
they have, and you better believe I will keep a clear eye on 
them and understanding where we can work together, whether it 
is North Korea or other areas that we need to call them out on. 
I mean, we have to be very protective of Ukraine. We have to 
understand that they are propping up the Assad regime. And also 
their human rights abuses. Our country has applied more 
sanctions in this administration than have ever been applied on 
Russia, and I will continue to hold them accountable. We will 
continue to apply maximum pressure, and if confirmed, I will 
promise you that we would be shining a light on Russia.
    Senator Menendez. Thank you very much.
    The Chairman. Thank you.
    Senator Paul, we have been anxiously awaiting your arrival. 
You see we did not wait for you.
    Senator Paul. Being the ever courteous Senator from 
Kentucky, I will just wait till my turn, and I will just make 
my remarks with my questions. I am sorry I am late. I was 
voting in another committee.
    The Chairman. We understand that. Thank you.
    Senator Isakson, you are up.
    Senator Isakson. Thank you very much, Chairman Risch. I 
appreciate the opportunity.
    And welcome, Kelly. We are glad to have you. I say Kelly. I 
should not say that. I should be very formal, but I know this 
lady very well and she is a great nominee. She is a great 
individual and I cherish my relationship with her very much.
    First of all, Mr. Chairman, to you and the ranking member, 
she has been very good in her job as Ambassador to Canada. But 
she has also been very good, always looking out for the best 
interest of the United States of America and the best things 
that the United States of America stands for.
    If you listened to her testimony a few minutes ago--and I 
was listening from a phone booth because I have got a little 
emergency going on back home. That is why I am running back and 
forth. She is very much aware of the anti- Semitism problem we 
have in Europe and around the world. She was forceful in the 
remarks she made about that, and she knows how to use her voice 
and her position as an advocate for the right thing to do. And 
she is someone who, when asked what to do, will always do the 
right thing. And I think that is the kind of person you are 
looking for in this job.
    I was one of the two people that nominated Samantha Power 
when Barack Obama appointed her U.N. Ambassador, and I did it 
in this room right here. I did it because Samantha Power had 
and I think exhibited in her term there the same type of 
qualities this lady has. And if you got that kind of a 
continuation of representation in the United Nations, which is 
a unique organization to start with, then you need to take 
advantage of that experience and that ability.
    I did not hear. I am probably doing something wrong in the 
testimony, and I apologize for this. There is a chart over 
there with a lot of red squares on it. Would you tell me what 
that is behind Mr. Cardin?
    Senator Menendez. Those are absences from post.
    Senator Isakson. What kind of absences?
    Senator Menendez. That is what we are trying to determine.
    Senator Isakson. Okay. Well, I do not know where she was, 
but wherever it was it was in the best interest of the United 
States of America. I can tell you that.
    And I think you were doing trade negotiations a lot during 
that period of time. Is that not right?
    Ambassador Craft. Yes, sir, Senator. When President Trump 
first asked me to be the Ambassador to Canada, he made it very 
clear, as we discussed in your office yesterday, that this was 
a real job, that we were going to be renegotiating the most 
important trade partnership in the world with our number one 
trading partner, Canada. Little did I know that I would be 
living out of a suitcase most of the time during the trade 
negotiations, whether it was in Montreal and then moved to 
Washington. I was part of Ambassador Lighthizer's negotiation 
team and went back and forth weekly from D.C. to Ottawa and 
sometimes would be returning to Ottawa on a Wednesday, and then 
on Wednesday evening be called back to D.C.
    You know, I took the oath of office understanding that this 
job was 24/7, and I intended to make certain that I was going 
to be representing the American people at the table for the 
NAFTA negotiations. It was very important to Robert Lighthizer, 
as he is our USTR trade negotiator, that he have a team that 
was looking after the best interest of not only our country, 
but of the relationship that we have with our number one trade 
partner.
    Senator Isakson. And everything I can understand about 
that, you did an outstanding job doing that, and everybody 
appreciates what you did.
    Do you think a U.N. Ambassador is any busier than a United 
States Senator? It is not a trick question.
    Ambassador Craft. I think I am only going to be as 
successful as the relationships I have with all of you busy 
gentlemen and women. I am looking forward to learning more 
about your priorities so that I can just be just as busy.
    Senator Isakson. Well, I just want all the members to think 
about this on the question of absences. If you looked at my 
record the last 3 weeks, I have been in Baghdad. I have been in 
Doha. I have been in Abu Dhabi. I have been in Marietta, 
Georgia. I went to the funeral of Dick Lugar. I forgot the last 
place I went. But I have been traveling. France. That is 
correct with Mr. Cardin. A small little celebration of a great 
war we won. And we won it again this time, the 75th year in a 
row, by the way. We always celebrate that victory.
    But my point is we go a lot of places too. I mean, my job 
is here, and it is my duty station. But my duty to my duty 
station and to my country is to be wherever the job's 
requirements take me. And just because your job requirements 
took you somewhere that was not in your office, it does not 
mean you were not doing your job. In fact, it may mean you were 
doing more of your job than anybody else was. You show me 
somebody who is always sitting in their office, and I will show 
you somebody who is not doing much.
    So I just wanted to bring that up. We did not practice 
that. We did not practice anything, as a matter of fact. I just 
wanted to bring that up.
    Ambassador Craft. And may I add that while I was not in my 
chair in my office, I have a staff of Foreign Service officers 
that are second to none. And I felt very confident with my not 
being in my office because I had people there running the 
mission, as we discussed, every day. And I must brag on the 
Foreign Service officers because without them, the mission, 
even before I arrived, would have not been run so smoothly.
    Senator Isakson. Just two things. I took too much of my own 
time, and I apologize, Mr. Chairman. But I would like unanimous 
consent that the letter from Gordon Giffin, the United States 
Ambassador to Canada, be submitted for the record. I think the 
chairman read from that letter.
    The Chairman. It will be submitted.
    Senator Isakson. And I just want to thank you very much, 
and I am sorry I went off track a little bit. But I think it is 
very important, when we have got somebody representing us in 
the United Nations, they be an engaged person who believes in 
the things we believe as Americans and work hard to get that 
done. I think Samantha Power did that. I know you will do it, 
and I am proud to support you.
    Ambassador Craft. Thank you, Senator Isakson.
    The Chairman. Thank you, Senator Isakson.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    Ambassador Craft, thank you for your willingness to serve 
our country. I also want to thank your family for being willing 
to share you in public service. We very much appreciate that.
    I want to make sure that we have a person as our Ambassador 
at the United Nations that is an advocate for the U.N. We have 
problems with the United Nations. Make no mistake about it. But 
it serves a critically important function for U.S. national 
security. And our Ambassador, our representative to the U.N., 
needs to be an advocate to make the United Nations as effective 
as we possibly can with U.S. influence.
    So I want to talk about one issue first, and that is the 
Human Rights Council. I strongly had disagreed with actions in 
the Human Rights Council. In fact, Senator Portman and I have 
filed legislation dealing with action in the Human Rights 
Council. But the question is whether we participate or do not 
participate as a member of the Human Rights Council, and there 
is a concern that if we are not at the table, countries such as 
China or Russia get a much larger audience than if we were 
there participating.
    So I want to get your view as to whether you think it is 
right for us to walk away from debates in which we cannot win 
or we are better off staying there making our points and doing 
the best that we can.
    Ambassador Craft. Thank you, Senator. And thank you for our 
meeting the other day, especially talking about the goals of 
the U.N.
    Whether or not we are in the room with the Human Rights 
Council or a member is really not as important as the ability 
as the U.S. U.N. Ambassador to use the Security Council as a 
platform to call out these countries on human rights abuses. If 
confirmed, I will use the Security Council as a platform and 
also understanding that it is not acceptable for the Human 
Rights Council to constantly undermine Israel, to constantly 
show anti-Israel bias and anti-Semitism.
    Senator Cardin. I agree with you on that. I am not sure the 
Security Council has the effective way to counter what the 
Human Rights Council does. The actions, of course, there are 
subject to consensus with the P5. So if we do not have the 
permanent council members all in agreement, we cannot get 
action on the Security Council. So I am not sure that is a 
substitute. I think using the Security Council is critically 
important.
    But I would just urge your understanding of recognizing we 
are going to be dealing with nations that do not agree with us 
in forums sometimes that we cannot control the outcome. Should 
we participate or walk away?
    Ambassador Craft. Senator, there are members of the Human 
Rights Council that are the very members that are committing 
these horrible human rights abuses.
    Senator Cardin. No disagreement from me on that.
    Ambassador Craft. I mean, I find it just appalling that we 
have members of a council that are supposed to be holding 
accountable.
    Senator Cardin. Let me move on to a second subject.
    You gave, I thought, views that I strongly agree with in 
regards to climate change. And then you said you do not want to 
assume an outsized burden on behalf of the rest of the world. 
So I want to drill down on that for one moment because the 
United States is party to the 1992 U.N. Framework Convention on 
Climate Change. That is the climate change that is subject 
right now to discussion by the White House. In that convention, 
it is basically a convention to come together as a global 
community to deal with climate issues. There are no specific 
commitments in the convention itself.
    Then 2015 in Paris, there was an agreement reached between 
now 95 signatories that basically provides for voluntary 
compliance. There is no enforcement of that.
    So where do you--are you concerned by the actions of the 
United Nations that the United States is assuming an 
overburdened share, or is this just a concern that you have in 
the work that you will be doing at the United Nations to make 
sure that it is a fair burden shared globally?
    Ambassador Craft. Thank you, Senator.
    Obviously, we both agree that burden sharing is very 
important in the U.N. The U.S. will always be a leader----
    Senator Cardin. I understand. I have a limited amount of 
time. I do not want to be rude. I would just like to get your 
view as to the framework, whether we should be working with the 
global community on climate issues.
    Ambassador Craft. We feel that being a member of the Paris 
climate agreement does not--we do not need to be a member in 
order to show leadership. You know, while we committed very 
robustly in our commitment to the Paris climate agreement from 
a financial standpoint, we expected other countries to step up, 
and while they did commit, they really were not serious. And I 
feel very strongly, if confirmed, that climate change must be 
addressed, that we need to balance the American economy with 
the environment, and we need to really stress to other people 
the innovation in technology to be used as tools to mitigate 
climate change. And if confirmed, I will be an advocate in 
addressing climate change.
    Senator Cardin. We lead by what we do here in America, but 
we also lead by engaging other countries because we cannot deal 
with the issues of climate change without actions globally, 
particularly by the major emitters.
    Do you support engaging the global community to deal with 
climate change? And if Paris was not right, what is right?
    Ambassador Craft. Thank you, Senator.
    Absolutely, I do agree. We need to include and engage 
everyone in this conversation. But if you think about while we 
are committing on a robust manner and other people are not 
serious--we have under-developed countries that are being taken 
advantage of by China with their technology and innovation that 
is not for sustainability. It is for ownership. And while the 
U.S. is committing and other people are out there committing to 
own under-developed nations, we need to be using our technology 
and our innovations to show sustainability in under-developed 
countries. And that is what we do really well.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Rubio?
    Senator Rubio. Thank you.
    Good morning, Ambassador Craft. Thank you for being here.
    I wanted to close the loop on the travel question. The 
State Department has rules for travel. Correct?
    Ambassador Craft. Yes, Senator, they do.
    Senator Rubio. And every trip that you have taken, all the 
little red--I do not know if it is the red or the white. Every 
single one of your trips were approved before you took them by 
the State Department.
    Ambassador Craft. Yes. They were pre-approved before 
travel.
    Senator Rubio. And every one of your trips that you took 
and all of your travel complies with every single guideline the 
State Department has in place for travel.
    Ambassador Craft. Yes, Senator.
    Senator Rubio. Of all the trips that you took, how many did 
you cover from your personal funds?
    Ambassador Craft. We assumed all responsibility for 
expenses and travel-related expenses for all of our trips, 
whether it be diplomatic or personal.
    Senator Rubio. So you personally paid for even official 
business trips?
    Ambassador Craft. Yes, we did. All travel expenses.
    Senator Rubio. So it is fair to say you saved the taxpayers 
money.
    Ambassador Craft. Yes, we did.
    Senator Rubio. I think I know the answer to this question, 
but can you be at two places at once?
    Ambassador Craft. I certainly tried, but that is why we 
have cell phones.
    Senator Rubio. Here is why I ask. The reason why I ask you 
is in your time in post in Canada, is the top issue between 
the--what would you say was the top issue between the U.S. and 
Canada? My guess would be it would be the trade agreement 
negotiations.
    Ambassador Craft. Senator Rubio, renegotiating NAFTA to 
where we have USMCA today--I mean, I am still the current 
Ambassador to Canada and will be working this evening with 
Prime Minister Trudeau who is coming into Washington and will 
be with him tomorrow. It is very important. We had moments of 
doubt, and that is why it was imperative that Ambassador 
McNaughton and myself be present, whether it be in Canada for 
the meetings or in Washington. And I was not going to let this 
country down nor Ambassador Lighthizer and the President.
    Senator Rubio. A significant number of these trips up on 
that board involve negotiations on USMCA that occurred within 
the United States.
    Ambassador Craft. Yes. The majority of the negotiations 
occurred in Washington at USTR.
    Senator Rubio. Did the White House ever deploy you to 
events around the country to promote USMCA?
    Ambassador Craft. The State Department would often suggest, 
whether it be a northern governors and northern premier meeting 
or different meetings with governors, in order to really stress 
the importance of our trade with each state because each 
state--obviously, Canada--I think 33 of them is the number one 
trading partner.
    Senator Rubio. So the point being, the State Department 
asked you and suggested that you attend certain events even 
within the United States to promote a top priority of the 
administration, which is the USMCA negotiations and agreement.
    Ambassador Craft. That is correct. Actually I received a 
lot of invitations, and my office would have to make difficult 
decisions because I could not be two or three places at once. 
And they would have to make the decision. And being in 
Washington was my number one priority, and if that did not 
interfere with a trip that would be promoting NAFTA or USMCA, 
then I would most certainly travel.
    Senator Rubio. So the bottom line being it was not possible 
for you to both be in those negotiations for the USMCA and also 
at some ceremonial event at a third country embassy at the same 
time. You had to make a choice, and you prioritized in those 
cases the top priority of this administration with regards to 
our relationship with Canada.
    Ambassador Craft. Yes, Senator. And just talking about 
attending some of the other events, you know, I think it is 
really important to whether I was present or, obviously, if I 
was not, I could not attend. But it is really important to 
include your team at your mission. I have 400 members, 400 
incredible members, at Mission Ottawa. And it is important for 
them to have that exposure and to be able to attend. So on many 
occasions, they would actually ask if they could attend 
national days or other holiday events throughout Ottawa at the 
different missions.
    Senator Rubio. And I do not mean to diminish the importance 
of these events where people socialize and the diplomatic corps 
gets together. And I cannot speak for the Canadian Government, 
but I have a sneaking suspicion that if forced to choose 
between having you here helping focus and help land a trade 
negotiation with them or having you attend this week's cocktail 
party at some embassy, which is not an unimportant event and 
our diplomats need to do that, they would probably have 
preferred that we prioritize the trade deal is my guess.
    Ambassador Craft. Absolutely. This was not a time to 
socialize. This was really a time to work.
    Senator Rubio. I want to ask you about one more priority 
quickly. What have you done in your capacity as Ambassador to 
Canada to advance the President's policy towards Venezuela?
    Ambassador Craft. Thank you, Senator. I know this is very 
important to you. Who would have ever thought that we have 4 
million refugees in Venezuela? It is of real importance with 
Canada also with the Lima Group, and they were gracious 
enough--I was able to attend the Lima Group plus 1 meeting in 
Ottawa. Their ambassador-designee, Vera Blanco, to Canada did 
not obviously have an embassy because the Maduro government--
their appointees are still at the embassy in Ottawa. So we 
arranged for our meetings to be at my residence so that we 
could best understand the Latin America countries and the 
hardships that are being placed on them in taking in refugees, 
such as Colombia taking in 1 million refugees. And you know, 
they have humanitarian issues within their own country. And I 
thought it was very important to allow a place that the 
ambassador-designee could be heard, and he was very helpful in 
answering questions and taking back to the interim President 
Juan Guaido the concerns of the other countries.
    It is just so important. There is no other option than for 
Maduro to leave. And it is just really important for us as 
Americans to be demonstrating the fact that we do care and that 
we are engaged.
    The Chairman. Senator Coons?
    Senator Coons. Thank you, Mr. Chairman. Ranking Member, 
thank you.
    Madam Ambassador, we do have three hearings going on at the 
same time on three different committees on which I serve. So I 
apologize for being out of breath. I literally ran upstairs 
from an appropriations hearing where we are marking up and 
advancing I think an important bipartisan amendment now. So my 
apologies.
    Thank you for being here. Congratulations on your 
nomination and for the work you have done representing us in 
Ottawa. We had the opportunity to talk about some of the 
concerns other Senators have raised today.
    Our role in the United Nations, both in its founding and 
leading it and in giving it direction as it is a multilateral 
entity that helps the world come together to confront the most 
pressing global challenges, is of significant interest and 
concern to me. The Trump administration has demonstrated 
repeatedly across a number of lines of engagement a strong 
preference for unilateral actions and bilateral relationships 
over multilateralism.
    If confirmed, you would be stepping into the most visible 
and most important role I think our government has in a 
multilateral institution, literally designed, built, and 
largely funded by the United States, and at a time when China 
is asserting its role in multilateral institutions, at least in 
what they say and, to a larger extent, in what they do. As we 
discussed, the first time I ever met a Chinese flag rank 
officer was in a U.N. peacekeeping mission in South Sudan.
    So given that China is seeking to fill the vacancy that I 
would argue our withdrawal from a number of institutions and 
organizations are creating, in your view do decreases in U.S. 
contributions to the U.N. and our withdrawal from U.N. bodies, 
such as Senator Cardin just asked you about, weaken our ability 
to push back against China's expanding influence and in 
particular to effectively question and challenge China's human 
rights violations?
    Ambassador Craft. Thank you, Senator. And thank you for the 
opportunity for us to talk about our daughters and the 
importance of doing the best you can no matter what internship 
you may happen to take on.
    You know, I understand the critics when they say that we 
have kind of lost the way is why the values that the U.N. was 
founded upon. I think it is very important to talk about the 
fact that we were founded with equality, peace, and security, 
making certain that we take care of social, economic, all 
issues on the globe and human rights.
    That is an issue where we need to be very careful in 
shining a light on China, the way they treat the Uighurs. Just 
because they have become the second largest donor, which 
obviously is a reflection of their economy, at the U.N., we 
need to be even more cautious and more diligent in the 
relationship that, if confirmed, I will build with other member 
states and making certain that they understand that, yes, China 
is participating in sharing in this burden, as we will always 
be the leader in contributing to the U.N. and will always take 
the leadership role. However, with China, as you well know, 
they have a motive and that is better leverage and taking 
advantage of some of these under- developed countries through 
the U.N. system.
    Senator Coons. My hope, Madam Ambassador, is that your 
voice will be loud and clear and consistent in contributing to 
the U.N. not just our financial contributions but our voice in 
advocating for human rights. On a bipartisan basis across a 
number of administrations, the U.N. has been a place where we 
have pushed back against criticisms and questioning and 
challenges of actions of key allies and pushed forward on 
concerns that are not raised anywhere else, nor addressed 
anywhere else. And it is important to strike the right balance.
    I am particularly concerned about what seems to be a 
withdrawal from a longstanding bipartisan commitment to a two-
state solution. Can you tell me about your view of a two-state 
solution and the central role that the U.N. can and should 
continue to play in advocating for that as a path forward in 
the Middle East?
    Ambassador Craft. Senator, I am going to be--if confirmed, 
I will support the President's vision for peace and security in 
the region. This is why it is so important every time any 
member state or anyone, for that matter, shows any anti-Israel 
bias or anti-Semitism, that not only do we call them out, but 
we have to explain that this is slowing the process for peace 
and security in the region.
    Senator Coons. I am going to interrupt because of my short 
time.
    Do you know whether the President's vision for peace and 
security in the Middle East includes supporting a two- state 
solution? I do not.
    Ambassador Craft. Senator, I have not been part of the 
Middle East peace process, but if confirmed, I will tell you 
there will be no stronger friend than Kelly Craft and the 
United States for Israel and no stronger person to promote 
Israel and normalizing themselves in the system.
    Senator Coons. I have two more questions I will ask 
briefly. You may want to respond in writing afterwards or in 
some other way. I want to respect the time concerns we have 
here.
    First, being an Ambassador is a full-time, hands-on job, as 
I am sure has been discussed while I have been at the other 
hearing. Your representation that a lot of your travel out of 
Ottawa has been to advance the USMCA, if adequately documented 
and supported, I am willing to take at face value. But I am 
concerned about issues that have been raised about your 
engagement and attendance in Ottawa. New York is even harder. 
There are even more nations. There is even more work. There is 
even more direct--and I would hope that you could persuade me 
that you will be fully and directly engaged and provide the 
background that would support that.
    Last, of all that has broken out now in Uganda, I am 
concerned that while there are many other pressing issues--and 
I know I am detaining some of my colleagues and their chance to 
question. I would welcome hearing from you how you view--this 
is another opportunity for the administration to lead in a 
multilateral response, in a global response rather than a 
unilateral response. Peace in the Middle East, Ebola, human 
rights, and our role overall in the U.N.--I need to hear from 
you that you are committed to and understand the value of how 
we built and how we will sustain this institution.
    Thank you, Madam Ambassador. I am well out of time, but I 
appreciate the chance to continue this discussion.
    The Chairman. Did you want those for the record, Senator 
Coons?
    Senator Coons. Yes, Mr. Chairman.
    The Chairman. If it is all right with you, Ambassador.
    Ambassador Craft. Yes. Thank you, Senator Coons.
    The Chairman. Thank you so much.
    Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Ambassador Craft, welcome. Congratulations on this 
nomination. Thank you for your distinguished service to our 
nation serving today as Ambassador to Canada. And I am 
confident in this new post that you will do an exemplary job. 
And indeed, I have a word of encouragement in that it is 
interesting the principal criticism, as manifested on this 
colorful chart that the committee has put up--the principal 
criticism, it seems, leveled against you is that you have 
traveled and worked too hard in your current post, which I find 
a not terribly persuasive criticism and pretty strong 
indication that the end result of this is going to be your 
confirmation.
    But let us dive into this criticism a little bit more 
because I do not think it withstands even the barest of 
scrutiny.
    As I understand it, some of the travel represented up there 
on that chart included travel to Montreal. Is that correct?
    Ambassador Craft. Yes, sir.
    Senator Cruz. And Montreal is in Canada.
    Ambassador Craft. Yes.
    Senator Cruz. Other than the travel to there, it included 
travel to Calgary. Is that correct?
    Ambassador Craft. Yes, it did.
    Senator Cruz. And Calgary is in Canada.
    Ambassador Craft. Absolutely.
    Senator Cruz. I am assuming--I do not know this. I am 
assuming some of that included travel to Toronto. Is that 
right?
    Ambassador Craft. Yes.
    Senator Cruz. So the last I checked, you were not the 
Ambassador to Ottawa. You were the Ambassador to Canada. Is 
that right?
    Ambassador Craft. The Ambassador representing the United 
States in Canada.
    Senator Cruz. Indeed.
    So the beginning argument that if you are traveling around 
the nation that you were appointed ambassador to and if you 
were meeting with business leaders, government leaders, 
community leaders in those various towns, that is somehow a 
dereliction of duty, you know, I would say you would be a poor 
ambassador indeed if you went to your office in Ottawa, locked 
the door, and stayed sitting in your office. That is, indeed, 
the exact opposite of what one wants an ambassador to do.
    As I understand it, a significant portion of that
    travel also includes travel to Washington, D.C. to 
participate in strategy and negotiations for the USMCA. Is that 
right?
    Ambassador Craft. Yes, it is.
    Senator Cruz. Is there any policy issue right now between 
the United States and Canada that is more pressing, that is 
more urgent, that is a higher priority than ensuring the strong 
and continued economic friendship, relationship, and trade 
between the United States and Canada?
    Ambassador Craft. There is no other issue. It is so 
important that the Prime Minister is coming in today to further 
discuss USMCA and how he can help implement and ratify USMCA 
through his parliament and at the same time through our 
Congress.
    Senator Cruz. And I guess if you were not a very good 
ambassador, they might well have just left you in Ottawa. They 
might well have said, you know, what? We are doing important 
stuff between the U.S. and Canada, but you know, our ambassador 
is not up to snuff, so you just stay up there in the office and 
we will do the meat of the negotiations. Of course, that is not 
what they did.
    Ambassador Craft. You know, I take this very serious. It is 
a 24/7 job. And every State in the U.S. relies upon our trade 
partnership with Canada. And if I needed to be in a State to 
speak to a governor or a legislator or a mayor, everyone is 
affected by this USMCA, and it was vitally important.
    Senator Cruz. Well, and I will say you and I have known 
each other a long time. We are friends. I will say anyone that 
knows you knows that you are tenacious, you are hardworking, 
you do not know how to do a task halfway, that that is simply 
not in you to do a task halfway, but rather, if given a task, 
you are going to dive in with both feet and with all the energy 
and passion you have. That is how you have done the job as 
Ambassador to Canada, and I have every confidence that is how 
you will do the job as Ambassador to the U.N. as well.
    Let us take a moment and talk about just how important the 
job of Ambassador to Canada is. Canada is one of our most 
important global allies. They are a member of Five Eyes, which 
means they are one of our most important intelligence partners. 
U.S. defense arrangements with Canada are more extensive than 
any other country. We have more than 800 agreements on 
cooperation across national security. They are one of nine 
countries that have participated in the U.S.-led F-35 program. 
And you have been the point person for the past year and a half 
for U.S. policy with Canada.
    Can you describe briefly how you approach that job and what 
you did to strengthen the friendship and relationship between 
the United States and Canada?
    Ambassador Craft. Thank you, Senator.
    As you well know, it is vitally important to have this 
relationship before you go into negotiating. And Ambassador 
McNaughton was extremely important in including this friendship 
in this initial respect because if you do not have respect, 
then when you are sitting at the table and you disagree, then 
you will not come back and it will not be productive.
    You know, we had several issues as far as Five Eyes 
meetings, especially when it came to China and the use of 5G 
technology. I am continuing to stress Canada to pay their 2 
percent for NATO. So maybe in can say that publicly one more 
time. And also just the fact that USMCA was so important to all 
of the Canadians. Everywhere I would go, whether it is Toronto, 
Calgary, Montreal, Quebec, Prince Edward Island, they would ask 
me about NAFTA and USMCA--at the time it was NAFTA--and how 
important it was to them, to their families, to their economy, 
their community that we, the United States, and Canada has a 
very healthy trade agreement. So I was available 24/7, as I 
will be, if confirmed, as the Ambassador to the United Nations.
    Senator Cruz. Thank you, Ambassador.
    The Chairman. Thank you very much, Senator Cruz.
    I appreciate your unpaid advertisement for them spending 
their 2 percent. We have all tried that. The best person I have 
seen is the President of the United States. He has done a good 
job of getting their attention, everybody's attention on that 
issue.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Ambassador Craft, thank you for being here today and for 
agreeing to consider taking on this difficult position.
    I appreciated the opportunity to meet with you yesterday 
and our conversation and your passionate support for the U.N. 
system. I think that is absolutely critical to anyone who 
serves as Ambassador to the U.N.
    I also appreciated the opportunity to talk with you about 
the United Nations Population Fund, or UNFPA, because I believe 
it plays a vitally important role in providing health services 
to vulnerable women, to men, and to children in areas of 
conflict, poverty, or instability. In Venezuela, for example, 
UNFPA provides hospitals with desperately needed supplies and 
training to the few doctors that remain on how to deliver 
babies.
    And as we discussed, this work is at risk because of a 
determination that UNFPA partners with programs in China that 
promote coercive population policies. I very much appreciated 
your commitment to look into these reports. I have asked 
multiple representatives from USAID to the State Department 
about these reports, and I have seen nowhere any evidence that 
any partnership exists between UNFPA and supporting programs in 
China that require abortions for women. So I very much 
appreciated your commitment to look into those reports.
    I would urge you also to meet with the executive director 
of UNFPA. The United States sits on their executive board. They 
approve UNFPA's country programs. So I hope that, if confirmed, 
you will agree to meet with the executive director. Is that a 
yes?
    Ambassador Craft. Absolutely. Thank you.
    Senator Shaheen. Thank you.
    And I also appreciated your agreeing to look into the 
disturbing reports last summer that the U.S. sought to block a 
resolution recognizing the importance of breastfeeding at the 
May 2018 World Health Assembly. Unfortunately, as we discussed, 
this is not the only concerning instance of attacks by the U.S. 
mission to the U.N. on women's health.
    I would urge you to ensure that if you are confirmed, the 
U.S. mission to the U.N. that you will lead reasserts its role 
as the leading proponent of women, of their rights, and of 
their health around the world. Is that something that you 
believe is important for the Ambassador from the United States 
to do?
    Ambassador Craft. Absolutely. And as we discussed, you 
know, both of us being mothers of daughters, and as you can 
see, beautiful granddaughters, it is so important that the U.S. 
takes the lead in the organizations that promote the health and 
wellbeing, maternal and child health, and voluntary family 
planning. And I can give you my word that I will do everything 
in my power to continue that support through organizations such 
as USAID, the World Food Program, World Health Program, UNICEF. 
We have so many wonderful organizations that are built upon 
success that are allowing women and children to be healthy 
because, as you know and we have discussed, women and children 
are what keep our communities thriving, and without them, we 
will actually lose the economy in those communities. So thank 
you for sharing yesterday, and I am looking forward, if 
confirmed, to working very closely with you on women's issues.
    Senator Shaheen. Well, thank you very much for that 
commitment. As we know, it has been the policy of the United 
States to empower women around the world, and that is good not 
just because it is the right thing to do, but it improves 
stability around the world, that women give back more to their 
families, more to their communities, and more to their 
countries and contribute to the stability of communities.
    In that regard, this committee and this Congress passed--
and the bill was signed into law in 2017--the Women, Peace, and 
Security Act, which is a commitment to ensure that women are 
part of the negotiating process in conflict areas when peace is 
being negotiated. The administration just last week put forward 
a strategy to implement the Women, Peace, and Security Act. I 
think it is very important, and if confirmed, can you commit to 
furthering this effort at the U.N., including through bodies 
such as U.N. Women that promote the implementation of the 
principles of Women, Peace, and Security?
    Ambassador Craft. Yes, Senator Shaheen. And I commit that I 
will be an advocate for women's issues and making certain that 
we really highlight women and children and young girls so that 
they too can be strong women and be leaders in their 
communities and their countries and have the opportunity, as I 
have, to be, if confirmed, the U.S. U.N. Ambassador.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    Senator Paul?
    Senator Paul. Congratulations on your nomination.
    So I was a bit late, but I was trying to introduce my own 
bill to prevent government shutdowns in another committee. I 
just could not leave I was so excited about trying to get 
people to pay attention to this.
    Kentuckians are really excited about your nomination. As 
you know, I supported you to be Ambassador to Canada and will 
support you to be the Ambassador to the U.N.
    But I did want to explore a couple of questions about 
issues that I think are important with regard to the Middle 
East.
    Do you agree with President Trump that the Iraq war was a 
giant geopolitical mistake?
    Ambassador Craft. Senator Paul, we had this discussion in 
your office, and you know that I understand that President 
Trump has made the statement that he believes that the Iraq war 
was a mistake. And if confirmed, I will be following the 
President's policies.
    Senator Paul. So do you agree with the President?
    Ambassador Craft. I am not going to second guess the 
administration, the Bush administration, but I do acknowledge 
that President Trump has made the statement that he disagrees 
with our----
    Senator Paul. The reason it is an important question is it 
is not about history, it is not about something that happened 
that has no influence over what happens now. It instructs, I 
think, dozens and dozens of different conflicts around the 
world.
    So, for example, do you think that the regime change in 
Libya has been to the world's advantage or to our advantage?
    Ambassador Craft. I think the regime change in Libya has 
been very important especially because we do have Haftar. We do 
have different situations going on at the moment. And it is 
really important that we have a strong presence there.
    Senator Paul. Do you think the world is better off with the 
regime change and with the current situation in Libya?
    Ambassador Craft. Well, we have not really had a regime 
change as of yet----
    Senator Paul. No. I mean, we had a regime change with 
Qaddafi. We were part of France and the United States toppling 
Qaddafi. And some, myself included, would argue that we are 
worse off. I mean, the place is very chaotic. It has been rife 
with terrorist camps. We now have competing factions. We are 
now giving arms to Qatar as of last week that Qatar is now 
giving to one side of the war and we support the other side of 
the war. We used to support the U.N. sanctioned government. Now 
we support some of their generals. And to me it sounds like an 
unmitigated disaster there.
    And the reason I mention this is this is what happened 
Iraq. We toppled a strongman who was not going to get any human 
rights awards, but he also had stability, and we replaced it 
with chaos. We now have an Iraq that is more closely aligned 
with Iran. Iran is stronger because the geopolitical balance is 
tipped in the favor of Iran with Iraq gone, with Hussein gone.
    And so, I think the Iraq war still instructs us on whether 
Libya was a good idea, and we were a big part of Libya as well.
    Now, that was not this President. That was the previous 
President.
    But I think there is still a question and there will be 
questions that will come before you at the U.N., whether or not 
regime change in the Middle East is our business and whether or 
not it has been to our advantage. So I guess the question 
really is going back to Libya. Do you think regime change has 
been to our advantage?
    Ambassador Craft. You know, I believe what is really 
important is that we show strength, we show deterrence. I mean, 
we have a situation in Iran with the most corrosive behavior. 
We have seen no change in their behavior. You are speaking 
about Iraq. You know, they are trying to take Iraq and make it 
into a client state. We have a special political mission there.
    Senator Paul. But if the President were here, he would 
respond and he would say, yes, and Iraq is open to that because 
an Iraq Shia majority now rules the place because we toppled 
Hussein. So I mean, we have created the opportunity where Iraq 
is aligning themselves with Iran. It is not sort of Iran taking 
over Iraq. It is Iraq having great sympathy for Iran.
    And so we just have to think these through because all 
throughout the Middle East, it has been run by iron-fisted men 
and no diplomats, no democrats, no people who believe in 
constitutional Republicans, no Jeffersonians. But they have 
stability. When we have toppled them, we have gotten 
instability.
    In Syria, hundreds and hundreds of thousands of people 
fled, and 100,000 people died because of this noble notion that 
we would get rid of this dictator Assad. Well, it has not 
worked. That is my whole point.
    And the only point I would like to leave you with is that 
the President feels like the Iraq war was a mistake. He has 
probably said it 200 times or more. And it instructs what we 
think about the other wars. And I hope you will take that to 
heart because really whether or not we get involved in the next 
Middle Eastern country.
    And the only other thing I would say about the Iran 
situation is realize that for as much of the problems we have 
with Iran, the stated problems, I think I have got as many or 
more with Saudi Arabia. They chopped up a dissident with a bone 
saw. We continue to fuel an arms race that is Saudi Arabia 
pitting against Iran. Who spreads more jihadism and hatred of 
Christians and Jews and Hindus around the world? Saudis by far, 
$100 billion for that worldwide.
    So all I ask is it is a complicated world. I do not have 
all the answers, but realize in the Middle East that there have 
been a lot of unintended consequences to our involvement.
    Thanks.
    The Chairman. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Madam Ambassador, by the way, thank you for the visit in my 
office.
    I sent you a letter on May 3rd, along with Senators Merkley 
and Whitehouse, asking about your family's nearly $1 billion 
coal investments and how they might conflict with any climate 
change discussions that you would have a potential role in at 
the United Nations. I did the response. It was at 9:59 a.m. 
this morning. And I would ask, Mr. Chairman, if I can include 
the questions and the answers in the record.
    The Chairman. It will be included.


    [The information referred to is located at the end of this 
hearing transcript, beginning on page 129.]


    Senator Markey. I thank you.
    But your responses actually do not go to the question which 
is at the heart of the issue, which is whether or not there is 
a conflict. And from my perspective, I think it is important 
for the American people to know that those who are performing 
their duties can do so in a way that does not have that kind of 
a conflict.
    So I guess my first question to you is, do you believe that 
your family's coal assets would cause a reasonable person to 
question your impartiality in matters related to the Paris 
agreement that is the United Nations Framework Convention on 
Climate Change or any other climate issue which is being 
considered at the United Nations?
    Ambassador Craft. Thank you, Senator, and thank you for 
this exact conversation in your office and for the opportunity 
to have that discussion with you one on one.
    As you know, as I have stated, my husband and I have worked 
very closely with the Office of Government Ethics. And as we 
did in 2017, we take this agreement very seriously, and we were 
in full compliance. We have also again worked very closely with 
the Office of Government Ethics developing the 2019 ethics 
agreement and our commitment to abide by each part of this 
ethics agreement, which we will do. And I give you my word that 
wherever there is any doubt in my mind as I often did with my 
2000 agreement, I will be calling upon the legal counsel 
provided by the State Department----
    Senator Markey. I am asking you, though, not your legal 
counsel, will you recuse yourself from any fossil fuel-related 
discussions in terms of their impact on climate change in your 
tenure at the United Nations?
    Ambassador Craft. Senator, as we discussed, where there is 
the issue of coal and/or fossil fuels, I will recuse myself in 
meetings through the U.N. I understand that, if confirmed----
    Senator Markey. You will recuse yourself.
    Ambassador Craft. Yes, sir. I understand, if confirmed, 
that this is a top priority. Climate change is a top priority 
at the United Nations. And with our ethics agreement, we have 
made a commitment and I will make a commitment to you that I 
will recuse myself. I have a team at USUN that is second----
    Senator Markey. You will recuse yourself from any matter 
that relates to fossil fuels and climate change at the United 
Nations.
    Ambassador Craft. When there is coal in the conversation. 
We are still waiting for clarity on fossil fuels for that 
conversation within our ethics agreement. We have asked for 
clarity on this. But I will give you my commitment that where 
coal is part of the conversation within climate change at the 
U.N., I will recuse myself and feel very confident the team at 
the USUN, the experts that have been working on the climate 
change issues, specifically fossil fuels and coal, that I feel 
very confident that they will be able to take my place.
    Senator Markey. Does your family have oil and gas interests 
as well?
    Ambassador Craft. I am not aware. I do not know what our 
interests are.
    Senator Markey. Okay. Well, if that was the case, would you 
recuse from those areas as well?
    Ambassador Craft. If our ethics agreement called for me to 
recuse myself, absolutely. I will be in full compliance--I give 
you my word--with our ethics agreement.
    Senator Markey. As you know, the United Nations at the end 
of 2018 concluded that climate change is now an existential 
threat to the planet, and our own scientists, 13 federal 
agencies, concluded in November of 2018 that with business as 
usual, the planet will warm by 9 degrees Fahrenheit by the end 
of this century and our oceans could rise by 11 feet. So this 
is clearly a very important issue, and at the heart of it, the 
scientists believe, is the role that fossil fuels and human 
activity are playing in it.
    Do you think that the United States can effectively steer 
the debate on climate change if we are the only country that 
has withdrawn from the Paris agreement? What role could you 
play as a businesswoman if you withdrew from the board in terms 
of influencing the decisions of that board? Does that put you 
in a very awkward position?
    Ambassador Craft. Senator, no. We withdrew from the Paris 
agreement because we feel like we do not have to be part of an 
agreement to be leaders. I mean, we are already seeing a 
difference. Between 2005 and 2017, we have had 14 percent 
reduction in emissions. We have the best and the brightest and 
innovations and technology, as you and I have discussed. And I 
understand this is an issue that needs to be addressed.
    I also understand that fossil fuels has played a part in 
climate change, and if confirmed----
    Senator Markey. Do you agree with the U.S. scientists that 
say that it is largely because of fossil fuels and human 
activity? That is just in November of 2018, and it is every 
federal agency.
    Ambassador Craft. I acknowledge that there is a vast amount 
of science regarding climate change and the tools and the role 
that humans have played in climate change.
    The Chairman. Senator Romney?
    Senator Romney. Thank you, Ambassador Craft, for being here 
and for considering this very important responsibility.
    I begin, Mr. Chairman, by acknowledging a very personal 
bias here, which is Kelly and I are long-term friends, also 
with her husband. Senator Cruz indicated that she is tenacious 
and hardworking. I would add relentless and has great power 
over people, as evidenced by the fact that her husband has been 
sitting there without moving for a long, long time. I have 
never seen Joe Craft sit in one place so long and so 
uncomfortably I might add, as he is having to do today.
    [Laughter.]
    Senator Romney. I appreciate the service also----
    Ambassador Craft. I may have to ask for a ride home after 
this. So if anyone can offer me a ride after climate change.
    Senator Romney. I would also note that your public service 
is greatly valued and appreciated. And I would also note that 
your service in the private sector is very much appreciated. I 
think sometimes we in government assume that we are the ones 
that are helping the public and doing what is right for the 
country, but I would note that every dollar we have to spend is 
only valuable if it represents a good or a service produced in 
the private sector. And I very deeply appreciate the work that 
you have carried out in the private sector to provide 
employment to people and to provide the positive benefits to 
our country.
    I would also note that with regard to your family's 
involvement and investment in coal, coal happens to represent 
70 percent of the power in my home State of Utah. I am very 
anxious to find ways to reduce our greenhouse gas emissions, 
but I would note that coal will be for many decades a major 
source of power in our country and other countries around the 
world and appreciate those facilities that provide coal in a 
clean and effective way, providing good jobs to our citizens 
and power that very much provides for our economy and the 
economies around the world.
    Turning to a couple of questions relating to your 
appointment, and that is with regard to your priorities at the 
United Nations. There are many, many things that are going on 
in the world right now, and I do not know whether you have 
given thought to the things that you would consider among your 
highest priorities. It is perhaps a long list. But would you 
care to list for us or describe, as you would like, the things 
that you think are the highest priorities you would have as an 
Ambassador from the United States to the U.N.?
    Ambassador Craft. Thank you, Senator. And thank you for 
your time in catching up on our families in your office. It was 
actually very refreshing. Thank you.
    You know, I have given this a lot of thought because I 
understand that my time there will not be a lengthy amount of 
time and that my top three issues were going to be reform, 
humanitarian needs, and public-private partnership.
    You know, we have a Secretary-General in Gutteres who also 
places reform as a top priority, and I cannot imagine a better 
partnership and a better teammate to be able to tackle reform. 
I have spoken to several of my predecessors and also have been 
reading about the ones that I am going to be walking in their 
footsteps, and I see each of them that I have spoken to and 
read about had reform as their top priority. And I think it is 
very important. We have made small incremental steps, but there 
is a lot to be done. We owe it to our taxpayers to spend their 
money wisely and to be stewards of their money and also to make 
certain that their money is not spent in the U.N. system but 
out in the field helping the people that are in humanitarian 
need. I think we need to be very cautious and very careful 
about duplication in areas within the secretariat.
    In order to receive better transparency and accountability, 
I think it is vitally important that we really emphasize 
putting Americans, having Americans hired into the system 
because they are under-represented, and also promoting our 
allies in the system that share our values because with that, 
we are going to have greater transparency. As you can see with 
UNICEF and the World Food Program, we have incredible 
transparency and accountability and success.
    Within humanitarian issues, as you well know, this is 
something that is very dear to my heart, and I think it is very 
important that we stress burden sharing. Who would have ever 
known that we have this sort of time in history where we have 
so many needs throughout the world, whether it be in Venezuela, 
Yemen, Syria? I mean, there are so many pressing matters. I 
think it is important that--I would rather call it success 
sharing because there is nothing better than to know when you 
have helped another person. This is just going to be helping 
hundreds of thousands of people.
    And then with public-private partnerships, my husband and I 
have been very fortunate to have had this experience with the 
Craft Academy and seen the successes of being able to partner 
with our State of Kentucky and developing an academy for 
juniors and seniors in high school in a college program. And I 
think that I can leverage my relationships and bring them, if 
confirmed, to the U.N. And the opportunities for under-
developed countries for Americans to go in and add 
sustainability and to create community, especially for women 
and children and displaced people, it is just vast. And it is 
actually very exciting because we are a nation that is always 
the first to arrive and the last to leave, and I am looking 
forward to bringing more people in that area of success.
    Senator Romney. Thank you, Ambassador.
    The Chairman. Thank you, Senator.
    Senator Merkley?
    Senator Merkley. Thank you very much, Mr. Chairman.
    Thank you for your testimony.
    We had a chance to talk. You expressed a lot of concern 
about the Rohingya and the genocide. But our State Department 
has not made a genocide determination. They have decided not to 
act. And would you push, as U.N. Ambassador, for the State 
Department to make a genocide determination?
    Ambassador Craft. Thank you, Senator. I know we both share 
the concern of the treatment of the Rohingyas. It is 
unexcusable. It is ethnic cleansing. And I trust in the fact 
that we do now have someone that has been assigned to 
investigate and to really keep close all of their findings in 
hopes of bringing the military commanders and in hopes of 
having some sort of a judicial system there. I think it is very 
important, as we discussed, that we make certain that 
Bangladesh--that they are also in need as they have taken in 
all of these refugees.
    Senator Merkley. There is a lot we could examine in this. 
But I am just asking will you push for the State Department to 
complete a genocide determination. We are now approaching 2 
years since the genocide occurred.
    Ambassador Craft. Senator, this is not a decision for me to 
make. This is a decision that is made within the State 
Department. And I am looking forward to more conversation with 
you as we do share in the plight of the Rohingyas. And I can 
assure you that I will be a strong voice on behalf of the 
Rohingyas.
    Senator Merkley. Thank you.
    Across the world, the U.N. Population Fund has been a 
critical factor in women's health. We have decided not to fund 
it as a nation, but it is hugely effective. Our concerns have 
been about China and about reproductive rights issues that have 
now been checked out many, many times and found China has 
completely changed their policies.
    Would you support the U.S. enhancing women's health around 
the women's health around the world by advocating for the U.N. 
Population Fund?
    Ambassador Craft. Senator, thank you. As you know and I 
know, we strongly believe--and it is nice to hear that maybe 
there is a different view on this now--that the Chinese state 
institutions were providing--actually being very coercive in 
abortions. And that is why we withdrew our $35 million and we 
placed that within USAID. As you well know, the United States--
we are leaders in organizations throughout the U.N. in 
promoting the health and wellbeing of mothers and children, 
prenatal, postnatal, and voluntary family planning.
    Senator Merkley. Thank you. I will go on to the next 
question.
    Ambassador Craft. If it is correct that there has been 
proof that the Chinese have not been engaged in UNFPA, I will 
most certainly look forward to the discussion, if confirmed, at 
the U.N.
    Senator Merkley. So the Intergovernmental Panel on Climate 
Change found that carbon pollution is responsible for a whole 
host of impacts. We see them all over Oregon, less snow pack, 
more forest fires, more acidic ocean affecting our shellfish, 
our warmer winters, great for pine beetles, terrible for pine 
trees. President Trump said of their report, I do not believe 
it. Do you believe it?
    Ambassador Craft. Senator, I have not seen that report, but 
I can tell you that we have issues around the world in under-
developed nations where we have flooding and drought in 
different areas that have been attributed to climate change.
    Senator Merkley. So that was a ?believe it? answer?
    Ambassador Craft. I have not read that report, and if you 
do not mind the opportunity, I will be able to read it and 
answer you in writing.
    Senator Merkley. Do you believe the core understanding that 
carbon pollution contributes to climate change?
    Ambassador Craft. I believe that climate change needs to be 
addressed, and I believe that fossil fuels do play a role in 
attributing to climate change.
    Senator Merkley. Alliance Resource Partners, which your 
family owns, lobbied the EPA to implement policies that benefit 
polluting industries at the cost of clean water and air and 
U.S. leadership on climate. If confirmed, will you go to New 
York representing the interests of our country, and will you 
advocate for us to continue to support the commitments we made 
under the Paris climate agreement?
    Ambassador Craft. Senator, if confirmed, I will be in full 
compliance of our ethics agreement.
    As you well know, we can be a leader. We are leaders 
without being a member of the Paris climate agreement. And 
within that agreement, we are already establishing success 
without being part of the Paris climate agreement with our 
innovation and our technology. We have had a 14 percent 
reduction in emissions since 2005 to 2017, while at the same 
time our economy has been robust.
    Senator Merkley. Since we are essentially on track, as you 
describe, why does it benefit us in terms of international 
leadership to exit the agreement? Since it had great 
flexibility and we are on track, what does it benefit America 
to step out of the role of partnering with other countries to 
hold them accountable?
    Ambassador Craft. You know, Senator, we are going to hold 
people accountable whether we are in an agreement or not. And I 
think what is proof is the steps we have taken forward to 
balance our economy and our environment. And I think when other 
countries see that you can do this and that our economy has 
grown while, at the same time, taking care of our environment, 
that is how we show leadership.
    Senator Merkley. My time is up. Thank you.
    The Chairman. Senator Portman?
    Senator Portman. Thanks, Mr. Chairman.
    And thank you, Ambassador Craft, for being here today and 
your willingness to step forward and serve both in Canada where 
you worked with us a lot on USMCA and now through your 
nomination to the next job, which would be U.S. Ambassador to 
the United Nations. It is a huge job.
    I was here earlier to hear some of the back and forth, and 
I have a couple follow-up questions, if that is okay.
    One is with regard to USMCA. Can you tell us what you think 
of that agreement? You were very involved I know on the Canada 
side in getting them to make some concessions specifically on 
their dairy program and broadening the market access for some 
of our products. What do you think about USMCA?
    Ambassador Craft. Thank you, Senator, for the opportunity 
to talk about USMCA. I am still the Ambassador to Canada and 
very much engaged, as we will be tomorrow for our bilateral 
meeting discussing USMCA.
    First of all, the Canadians are as fierce negotiators as 
the Americans. We learned that very quickly.
    As we discussed, I am a granddaughter of tobacco farmers, 
and I understand the importance of the emotional aspect when it 
relates to the agriculture, chapter 3 of USMCA, and was able to 
really speak with Ambassador Lighthizer and with the President 
and relay the message that we need to be a little more 
understanding of the emotional toil that it was taking at the 
moment on the Canadians when they have to go back to the Quebec 
area and speak with the dairy farmers. This is an election year 
for Prime Minister Trudeau, and it was a very emotional topic 
for them with their dairy farmers.
    I think it is really important. It was very successful. And 
most importantly is it lifted the doubt in the minds of 
Americans and Canadians, and they were able to feel very secure 
and confident with their purchases, if they had small 
businesses or medium-sized businesses, to know that they are 
going to be supported by USMCA.
    Senator Portman. So you support the agreement in its final 
form that was negotiated?
    Ambassador Craft. Absolutely, yes, I do.
    Senator Portman. And moving on to the issue of boycott, 
divest, and sanctions, BDS legislation. As you know, Senator 
Cardin and I have introduced a resolution that actually now has 
over half of the Senate supporting it, 58 cosponsors. It simply 
says that these efforts should not be supported because they 
are an effort to delegitimize Israel and a form of 
discrimination, in effect.
    We have another bill that we introduced last year that also 
got a lot of support, but we have not introduced it this year 
until we can have this broader discussion, and that is with 
regard to the international organizations like the U.N. Human 
Rights Commission. And we have looked very closely at what the 
Human Rights Council has done and what they have said with 
regard to Israel. They have Israel on their permanent agenda, 
as you know. You talked about that earlier. They have 
apparently put together a blacklist of companies that do 
business in Gaza and the West Bank and they levied sanctions 
against U.S. companies that did business there. We have not 
seen that yet. It has not come out yet. But we have a deep 
concern about it.
    So I would ask you a couple questions. One, do you agree it 
is wrong for Israel to be on the permanent agenda? And how can 
that impede the peace process? But, second, do you feel that 
the BDS efforts against Israel are contrary to the efforts we 
are trying to make in the region to have a negotiated peace 
between Israel and the Palestinians?
    Ambassador Craft. Thank you, Senator.
    On releasing names, I am certain that Michelle Bachelet is 
being very cautious and she has been working with us on 
protecting the names of businesses in Israel and outside of 
Israel just to protect. There is no place to be able to release 
American businesses or any other businesses, for that matter, 
that could be harmed by a list being released.
    If confirmed, there will be no stronger ally than Kelly 
Craft for Israel on behalf of the United States. There is no 
room whatsoever for anti-Israel bias or anti-Semitism. And with 
the strength of this committee, I am certain that we can defeat 
any areas, whether it is the Human Rights Council in bringing 
up anti-Israel bias every opportunity they have or anyplace in 
the U.N. There is no place for that. And I think that we really 
need to stress to Israel and promote them. They are the best 
promoters themselves. They have Start-Up Nation. And they need 
to be promoted to push themselves and normalize within the U.N. 
system because they have a lot to offer.
    Senator Portman. Well, we look forward to working with you, 
should you be confirmed, which I believe you will be. I know 
Senator Cardin and I would like to move forward with that 
legislation soon and ensure that we do not have that blacklist 
ever be published because, as you say, it would have a negative 
impact on a lot of things, including the peace process in my 
view between Israel and the Palestinians.
    On human trafficking, I know you have been involved in this 
issue and care a lot about it. There is an Office of Drug 
Control and the Center for International Crime Prevention, 
which has the responsibility for addressing trafficking. If 
confirmed, would you pledge to make human trafficking and sex 
trafficking a key part of your agenda and work to strengthen 
the efforts of this U.N. body in that regard?
    Ambassador Craft. Senator, absolutely. Anywhere within the 
U.N. system where there are human rights abuses, human 
trafficking, I mean, this affects everyone. I give you my word 
that I will be a strong advocate combating human trafficking 
and any human rights abuses.
    Senator Portman. Thank you. Good luck.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And I want to congratulate the Ambassador on her 
nomination, thank her for her hospitality to many of us who 
visited the Halifax Security Forum in November.
    And I want to just pick up on your last comment, that you 
will be a strong advocate for human rights in the U.N. system. 
And I appreciated that aspect of our one-on-one discussion.
    I just want to ask you about the news of today, just the 
news of today. In January, Agnes Callamard was appointed the 
U.N. Special Rapporteur on Extrajudicial Summary or Arbitrary 
Executions. And she announced she was going to be leading an 
investigation into the assassination of Saudi citizen, Virginia 
resident, ?Washington Post? journalist, Jamal Khashoggi.
    The report came out today. It is damning, but unfortunately 
not surprising because it mirrors the CIA's conclusions. I 
quote, it is the conclusion of the Special Rapporteur that Mr. 
Khashoggi has been the victim of a deliberate, premeditated 
execution and extrajudicial killing for which the state of 
Saudi Arabia is responsible under international human rights 
law.
    Mr. Chair, I would like to introduce the U.N. report into 
the record, if I may.
    The Chairman. You may.
    [The information referred to above can be accessed through 
the URL below:]


    https://www.docdroid.net/VgsDccH/a-hrc-41-crp1-1-
converted.pdf#page=2


    Senator Kaine. The report finds six violations of 
international law: the prohibition against arbitrary 
deprivation of life, the prohibition against extraterritorial 
use of force, the requirement that states use consular missions 
for official purposes, the prohibition against torture, the 
prohibition against enforced disappearance and in killing a 
journalist, violation of a core tenet of the U.N., the 
protection of freedom of expression.
    The Special Rapporteur determined that there was credible 
evidence warranting further investigation of high-level Saudi 
officials, individual liability, including the Crown Prince, 
and finally, the rapporteur called on the Human Rights Council, 
the Security Council, and the U.N. Secretary-General to conduct 
international follow-up criminal investigations to determine 
individual liability. She has found liability by the state of 
Saudi Arabia, but she suggests there needs to be individual 
liability determinations as well.
    Do you believe that there should be accountability for the 
assassination of Jamal Khashoggi both because it is a criminal 
offense and it is a violation of international law?
    Ambassador Craft. Senator, you know, we have made it very 
clear with Saudi Arabia that any human rights abuse is not 
okay, and they must change this behavior.
    Senator Kaine. I want to ask really specifically about 
Khashoggi because this is now going to be in your wheelhouse if 
you are confirmed. There is a request that the U.N., including 
the Security Council, act. So let me just state it again as I 
did. Do you believe that there should be accountability for the 
assassination of Jamal Khashoggi?
    Ambassador Craft. I believe that where this investigation 
will take us we will follow, and yes, anyone who is 
responsible. You know, we identified the 17 that were 
responsible for this heinous crime.
    Senator Kaine. The report dramatically challenges that 
those 17 are responsible and actually says it is higher 
officials who are responsible. I would encourage you to take a 
look at it.
    But I am encouraged by a portion of your statement that 
there should be accountability.
    Second, should the United States encourage accountability, 
abstain from requests for accountability, or block requests for 
accountability?
    Ambassador Craft. We should definitely always request 
accountability.
    Senator Kaine. Okay. So we should be involved in a request 
for accountability. And would you agree with me that the 
accountability for this crime and violation of six principles 
of international human rights law--should the accountability be 
placed on whoever's shoulders is in fact responsible regardless 
of the title that they may hold?
    Ambassador Craft. I believe the accountability is going to 
be a decision that I have full faith in the investigative 
process. I have full faith in the Special Rapporteur.
    Senator Kaine. No one should be immune from accountability 
if they were involved in a crime of this magnitude. Would you 
agree with me?
    Ambassador Craft. We will follow where this investigation 
takes us, and I can guarantee you that the State Department is 
investigating, the authorities are investigating.
    Senator Kaine. There is a question that I know the answer 
to, but I want to ask you for the record. Can you foresee any 
circumstance under which the U.S. would plan the execution and 
dismemberment of a United States citizen at, for example, the 
U.S. consulate in Montreal?
    Ambassador Craft. Senator, we are not that sort of a 
country.
    Senator Kaine. So you would agree with me that that would 
be so contrary to American values and so contrary to 
international morality that there would never be a circumstance 
under which the U.S. could plan or tolerate the execution of an 
American citizen in the U.S. consulate in Montreal. You agree 
with me on that.
    Ambassador Craft. Yes, sir, absolutely.
    Senator Kaine. As a member of the Security Council--now 
this has been put into the court of the Security Council, and 
the U.S. will be the head of the Security Council come 
December. You said human rights is going to be one of your 
priorities. Can you give me a commitment that the United 
States, with you representing it as head of the Security 
Council, will do everything possible to make sure that the 
investigations called for here and the accountability that 
would follow upon such investigations are actively pursued by 
this country?
    Ambassador Craft. Absolutely we will, and I will give you 
my word on this. And we know there is an investigation and we 
will follow this investigation where it takes us.
    Senator Kaine. Thank you.
    The Chairman. Senator Barrasso?
    Senator Barrasso. Thank you, Mr. Chairman.
    Welcome, Ambassador. Great to see you again. Thank you for 
being here.
    What I hear about a lot at home in Wyoming--and you may 
have as well in Kentucky--the issues of American values, 
American ideals, American standards, and American sovereignty 
within the U.N. That is a big issue that continues to come up 
at home. And I would just ask you a little bit about how you 
would preserve and protect American sovereignty within the 
United Nations and your commitment to challenge the actions of 
the United Nations that run contrary to our values or beliefs, 
the things that we hold and care about in common here in the 
United States.
    Ambassador Craft. Thank you, Senator. As you well know, the 
U.N. was founded after World War II on U.S. values and those 
values we hold very close, you know, peace and security, equal 
rights, human rights, supporting social, economic, humanitarian 
issues.
    I agree that there are critics that say we are not strong 
on those values. I agree with that. And if confirmed, that will 
be an area that I will take with me and demand from all of the 
192 member states, that we go back and we look at the four 
founding principles in the U.N. Charter and that we really try 
to use that as a guideline because doing the right thing as it 
is listed in those four, there is no compromise. And it does 
not matter how many years it has been since it has been 
founded. Doing the right thing with peace and equality, human 
rights, equal rights, you cannot go wrong.
    Senator Barrasso. At home we say how do you vote. We say we 
vote based on the Constitution, based on your conscience 
clearly, your constituents, your country. And I have concerns 
about the U.N. and I hear it all the time as well at home in 
terms of our U.S. values and standards not necessarily being 
met at the U.N. And then we have a significant financial 
contribution. I think we are the number one country for 
contributing to the U.N. This is U.S. taxpayer dollars. People 
say, well, just stop paying your dues to the U.N. Pull out of 
the funding. As we deal with a large national debt, I would ask 
your commitment to safeguarding U.S. taxpayer dollars in this 
new role that I am encouraging you and look forward to your 
confirmation.
    Ambassador Craft. Thank you, Senator. If confirmed, I will 
be a great steward of our American taxpayer dollars.
    I just want to share with you I am a firm believer in the 
United Nations. This may be the only stage for some countries 
to be able to cry out for help. And you know, we are a leader. 
We are always the first to be there to help, and we will always 
be the first. But we have to allow the U.N. as a platform, a 
healthy platform, for all the other countries that are less 
fortunate than we are to be able to reach out.
    You know, I was just reminded when I was in Senator 
Gardner's office. There were two individuals. They actually 
were refugees, Rohingya refugees. And he introduced me to them 
as the U.S. Ambassador to Canada and then introduced me as the 
nominee. And the young woman, who is part of a group from Cox's 
Bazar in protecting women and their rights and making certain 
that no one is being abused in this area--she just held onto me 
and she just said thank you. Thank you because I know you are 
going to help me. And I will give you my word that we will go 
back to those four founding values because you cannot 
compromise human rights and equality.
    Senator Barrasso. You know, we share those concerns. I know 
Ambassador Nikki Haley has commented on that. I think Senator 
Portman just asked about the whole issue of sexual exploitation 
and abuse, what you have just outlined there. But we have seen 
it with U.N. peacekeepers in the past, people that are supposed 
to be in there providing a peacekeeping role and then taking 
unfair, undue advantage of people in the wrong way, immoral 
against every one of our values. So how can the U.N. address 
the abuse and the misconduct of the U.N. peacekeepers more 
effectively? Do you have any suggestions on that?
    Ambassador Craft. Thank you, Senator. That is a 
conversation that I have had with Ambassador Haley. And I 
believe that where she was very strong on the peacekeeping 
troops is I understand that the renewal is 6 months to a year. 
You know, we need to be making certain weekly, monthly that 
they are abiding by the guidelines. They too are stretched very 
thin. I mean, who would have ever thought we have this up-tick 
in Ebola in Congo?
    We need to make certain that they have the tools to protect 
the very people they need to be protecting. We need to also 
make certain that if there is sexual exploitation, that they 
are immediately sent back to their country and that we are in 
constant communication with our mission in their home country, 
and most importantly, that we make very clear to their 
government that we expect them to investigate and if they are 
found guilty, to prosecute within their own system and make 
certain that they are never back out in the field protecting 
innocent civilians.
    Senator Barrasso. Well, thank you. And congratulations 
again on your nomination.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    Let me add my congratulations.
    You are going to be President Trump's Ambassador to the 
United Nations, not mine, not anybody else's. So your job is to 
represent the administration's points of view. Do you agree 
with that?
    Ambassador Craft. Thank you, Senator.
    I am going to be representing the United States of America 
and every single person that lives here and Americans that live 
abroad. I take this so----
    Senator Graham. So what policies are you going to advocate?
    Ambassador Craft. I am going to be advocating the policies 
of this administration.
    Senator Graham. Okay. That is the point. Not everybody in 
the country. The administration.
    Now, here is the way I look at these things. I usually vote 
for qualified nominees knowing that the policies they will be 
advocating, if in a Democratic administration, I do not agree 
with. I think by any reasonable measure, you are a very 
qualified person. You have been Ambassador to Canada. If you 
are qualified and not crazy, you usually get my vote. You do 
not seem to be crazy at all, other than wanting to come here 
maybe.
    The bottom line is I appreciate your willingness to serve 
the country. And you got to understand that the policies that 
you will be asked to advocate sometimes all of us will 
disagree. And that is not the test for me. It is are you 
capable of representing our country with dignity and intellect. 
Yes?
    Ambassador Craft. Absolutely. I have sharp elbows and I 
will be using them.
    Senator Graham. Yes, I believe it. I think you will give 
the President good, sound advice, maybe something he does not 
want to hear, but it would be up to him to make the call.
    On climate change, I believe in it, think it is real. Man 
is substantially contributing to it. The Paris accords 
basically gives China and India a pass. It is aspirational not 
binding. I do not blame Trump for getting out because the 
agreement was pretty one-sided.
    Do you agree with me no matter what we do in the United 
States, if China and India--if they do not up their game, it 
does not matter?
    Ambassador Craft. You know, I strongly believe in the fact 
that the U.S. has become a leader without being----
    Senator Graham. My question is, is China and India--do they 
emit more carbon than we do?
    Ambassador Craft. I understand at the moment, yes, they do. 
And I also understand that while they did commit to the Paris 
agreement, as you well know----
    Senator Graham. Well, go read the agreement. They did not 
commit to much.
    So I believe climate change is real, but if do not have an 
agreement, make it real for the people who actually cause more 
of the problem than we do.
    MBS. Let me just say this. I introduced him a couple of 
years ago in Washington when they gave an award to John McCain 
for his help to the Kingdom over the years. I have got many 
friends in Saudi Arabia. I have been there a bunch, usually 
with Senator McCain. And it breaks my heart that we are where 
we are.
    The Kingdom is a strategic ally, many friends in the 
Kingdom who are wanting the country to be better. I personally 
feel betrayed. I feel like that the actions that took place 
with Mr. Khashoggi showed a lack of respect for their 
relationship to the United States. Who in their right mind 
would put us in this box?
    We deal with bad people all the time. We dealt with Stalin 
in World War II, but when the war was over, we did not embrace 
communism. So there is no amount of oil coming out of Saudi 
Arabia and there is no threat from Iran that is going to get me 
to back off. So I just want every strategic partner to know 
that there is a price to be paid to get into our orbit. He did 
it. It would not have happened without him. He knew it was 
going to happen. He wanted it to happen. He caused it to 
happen. And this is just a tip of the iceberg of other things 
that are going on in this Kingdom.
    So to my friends in Saudi Arabia, you have lost me. You got 
nobody to blame but yourself. If you want a normal relationship 
with the United States, try to act normal. And what is going on 
in Saudi Arabia is not normal. Some teenager is facing being 
executed because he tweeted or something. It is just crazy 
stuff, putting the Lebanese Prime Minister in house arrest. It 
is just nuts. So if you want things to get better in Saudi 
Arabia, you need to deal with it. And we are going to fight 
hard to push back.
    So after this report is issued, I want you to let the 
committee know do you believe he did it. You do not have to 
answer now.
    Finally, the war. Do you believe we are at war--the United 
States?
    Ambassador Craft. Senator, what I believe is we are showing 
strong deterrence.
    Senator Graham. Are we at war? Who are we at war with? Who 
are we trying to deter?
    Ambassador Craft. We need to deter. We need to think about 
Iran and their corrosive behavior.
    Senator Graham. What is the big theme of this war. Radical 
Islam versus the world.
    Ambassador Craft. What we need to think about is this 
corrosive behavior----
    Senator Graham. Do you agree with that or not?
    Ambassador Craft. Excuse me?
    Senator Graham. Do you agree that we are at war with 
radical Islam in many forums?
    Ambassador Craft. In many forums, yes, and I do believe 
that we----
    Senator Graham. ISIS is a Sunni forum. Iran is a Shia 
forum. So here is my point. The budget of this administration 
reduced the State Department's budget. The budget of the State 
Department was reduced by 20-something percent. How do you end 
this war without investing in the lives of others? I have been 
to Iraq and Afghanistan 54 times. If you think you can kill 
your way out of this mess, you do not know what you are talking 
about. So how do you take soft power off the table and win what 
is an ideological struggle? Do you agree with me that the most 
devastating thing we could do to radical Islam is to build a 
small schoolhouse in a remote region educating a young girl and 
giving her a say about her children and a hope for a better 
life? That will do more damage than a bomb dropped on their 
heads.
    Ambassador Craft. You know, we care about--these are 
humans. These are people.
    Senator Graham. Well, why did we reduce our budget by 20-
something percent?
    Ambassador Craft. You know, we are asking for people to 
step up and share this burden.
    Senator Graham. We step down? Is the world safe enough for 
us to step down?
    Ambassador Craft. No, sir. We are leaders within the United 
Nations, and we are leaders around the world.
    The Chairman. Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    Ambassador Craft, welcome. I also share my congratulations 
and apologize for not being here sooner. We held a markup in my 
Homeland Security Committee where we passed a pretty important 
piece of legislation that would end government shutdowns, you 
know, just put us on an automatic glide path with some real 
deterrent for members to make sure there is discipline for 
members to actually pass appropriation bills. So that is why I 
am late.
    I am assuming, based on our meeting yesterday--I enjoyed 
our meeting. I appreciate you taking the time--that we put the 
travel issue well behind us here.
    So the points I wanted to make is I find it interesting 
that you were an Alternate Delegate to the U.N. General 
Assembly. I have had that honor three times to be a 
representative representing the Senate. I hope to be one in the 
future potentially under your ambassadorship.
    So the point I would like to make is as many problems as we 
have in the U.N.--and there are many--it is also a pretty 
important forum for world leaders to get together and just 
discuss their issues, understand each other's perspectives. I 
have found that opportunity very valuable, being able to get to 
the U.N. and put together some very high level meetings in a 
very efficient time period. So as Ambassador, I would just ask 
you to utilize that mission if I am another representative to 
set up those meetings so we can, again, understand those 
perspectives of world leaders.
    Ambassador Craft. Yes, sir. I think that is why the U.N. is 
so important, especially during General Assembly. You know, we 
celebrate the freedom of expression, and I think that is why 
everybody will be there. They will have the freedom to express. 
We will have the freedom to meet with one another. And it is 
really important to be able to have some of these face-to-face, 
one-on-one, and understand better their needs and issues.
    Senator Johnson. I want to talk a little bit about the 
climate change issue from the standpoint of priorities. Again, 
the U.N. is a far from perfect organization, but there are 
things that it does and things that we need it to do and we 
need to do them well.
    From my standpoint, one of the missions of the U.N. is to 
try and alleviate human suffering. I think when we talk about 
climate change, we are talking about potentially alleviating 
human suffering caused by weather and the effects of potential 
climate change. By the way, the climate is always changing.
    Are you familiar with the Bjorn Lomborg's Copenhagen 
Consensus?
    Ambassador Craft. Senator, he is a friend of ours.
    Senator Johnson. Good.
    So he completely believes in manmade climate change. I may 
be a bit more skeptical in terms of man's total impact. But he 
also understands that there are limited resources. And if your 
goal is to alleviate human suffering, there are far better ways 
of spending limited human resources. For example, PEPFAR, 
digging wells, killing mosquitoes so you prevent malaria.
    So I guess I would just ask you in your position as U.N. 
Ambassador to take a look at the priorities, recognize we have 
limited resources, and doing everything you can to help the 
U.N. reform itself so it concentrates on those things that are 
most effective both cost-efficiency-wise but also effective at 
alleviating human suffering.
    Ambassador Craft. Yes, sir. You have my word. And that is 
why it is so important that not only as a steward of our 
taxpayer, American taxpayer, I feel responsible for the 
countries also that are contributing because we want them to 
see success. And we want them to have skin in the game. And 
when they feel successful and they feel like they are part of 
success and they are part of making a difference in the 
hundreds of thousands of lives that are desperate, then we are 
going to have, I hope, more and more countries on board. And if 
not for the U.N. and all of the organizations and the fact that 
we are the leaders, where would all of these people be? And I 
am a strong believer in knowing that we can use the U.N. for 
American leadership as our platform to really stress to other 
countries step up, we need you. This is about human dignity. 
And I give you my word, if confirmed, that I will be a huge 
advocate for transparency and for making certain that our 
dollars are not spent in the U.N. system but spent in the field 
helping the very people who are desperate for humanitarian aid.
    Senator Johnson. Well, I appreciate that.
    I primarily came here just to express my support for your 
nomination. Thank you for your past services, Ambassador to 
Canada, for helping negotiating what I think is an incredibly 
important trade deal, USMCA. And just thank you for your 
willingness to serve in this future capacity. So thank you.
    Thank you, Mr. Chairman.
    Ambassador Craft. Thank you, Senator.
    The Chairman. Thank you, Senator Johnson.
    Senator Young?
    Senator Young. Hello, Ambassador. I am so grateful for your 
past service as well and excited that you are prepared to take 
on this new role.
    I wanted to ask you. There has been a lot in the news about 
recent events with Iran and the Gulf. Do you believe that 
current legal authority exists for the United States to go to 
war with Iran?
    Ambassador Craft. Thank you, Senator. Thank you for the 
time to meet last week.
    I believe that we need to show deterrence. I mean, if you 
look at Iran and their corrosive behavior, their behavior has 
not changed, which has been very apparent by the recent 
actions. We have to really be concerned about their 
participation in Yemen. They are continuing to supply military 
intervention to the Houthi rebels. We have a crisis there with 
hundreds of thousands of people starving. And with our 
strategic partner in the Middle East, Saudi Arabia, and their 
led coalition in Yemen, this has helped the World Food Program 
with access to the hundreds of thousands of people. I mean, you 
have got Iran propping up the Assad regime turning a blind 
eye----
    Senator Young. Iran is a very bad actor----
    Ambassador Craft. Can you imagine? You have got----
    Senator Young.--a leading state sponsor of terror. I am 
sorry to interject here. My time is somewhat limited, though.
    So, yes, we absolutely need to show deterrence vis-a- vis 
Iran. We need to deal with the worst humanitarian crisis since 
the late 1950s in China, which is in Yemen as you very 
correctly pointed out. And we need to work with our partners 
and allies to ensure that Iran does not continue its 
adventurous and dangerous behavior, putting our service 
members, our assets, and the global economy at risk.
    But do you believe we have the legal authority to go to war 
with Iran? Under Article 1, Section 8 of the Constitution, it 
says that Congress declares war. There is an existing 
authorization for the use of military force dated back to 2001.
    My own belief is that before the United States were to go 
to war with Iran, Congress would have to be briefed about the 
justification for that, and Congress would need to vote on that 
matter.
    Ambassador Craft. Thank you, Senator, for raising this 
particular issue.
    I understand that when we have an imminent threat, the 
President makes this decision. If not that, then I also 
understand--and I know the importance of consulting with 
Congress when it comes to something as important as this 
decision.
    Senator Young. So absent an imminent threat, you agree that 
a vote by Congress would be required to authorize use of 
military force.
    Ambassador Craft. Yes. I agree we need to be consulting 
with Congress. This is a very important decision that affects 
the lives of not just Americans but a lot of innocent people.
    Senator Young. I want that consultation to be followed up, 
just for the record, with a vote by Congress under Article 1 of 
the Constitution. So we will look forward to working with the 
State Department and the National Security Advisor and the 
President and others on that important matter.
    The United States, Ms. Ambassador, is under-represented 
among the professional staff at the United Nations, something 
you, no doubt, have been briefed on. How do you plan to address 
this if you are confirmed?
    Ambassador Craft. Thank you, Senator.
    You know, I think we need to highlight the successes of the 
areas where we are represented by Americans, whether it is 
UNICEF, you know, with Henrietta Fore, UNICEF with Governor 
Beasley. We just had someone appointed to the ICC to 
investigate and to gather and keep the information in Burma 
with the Rohingya refugees, which is so vitally important. And 
I feel very confident in knowing that when we have an American 
and we can show that there is greater transparency, which 
provides accountability and obviously more effectiveness, 
throughout the U.N. system--and this is an issue that I will 
bring up with Secretary Gutteres. We are under-represented. And 
I understand that with the percentage of our contribution 
level, we are nowhere near having the Americans in the system. 
And we need to be very cognitive of the fact that China is 
placing their individuals being hired throughout the system, 
and that is a real issue.
    Senator Young. Clearly, you understand my concern.
    Ambassador Craft. Oh, yes, I do.
    Senator Young. And that thematically is very much linked to 
my concern about the U.S. withdrawal from certain U.N. 
organizations that is coinciding with Chinese expansion in the 
multilateral fora.
    I do not disagree with withdrawal from, say, the Human 
Rights Council. There is only so long that you can remain a 
member of that organization when you have gross violators of 
human rights that call themselves members and try and effect 
change from within. So I actually think it was the right 
decision.
    But I also have concerns--there is a little tension here--
that China is seeking to now shape the world's human rights and 
other agendas with its particular viewpoint through that very 
organization.
    So how can the United States effectively challenge China's 
view of human rights and perhaps challenge its rival economic 
system at the United Nations?
    Ambassador Craft. Thank you, Senator. Obviously, that is 
something we discussed in your office, and it is really 
important.
    You know, China is the second largest contributor now at 
the U.N. We are still the leader and we will be. We have to 
keep in mind that because of their economy is why they now have 
stepped up contributing as the second largest contributor.
    They also have ulterior motives and they are looking for 
leverage. They are looking for leverage within the U.N. system, 
within the other 192 member states, especially the under-
developed countries. You know, they are taking their Belt and 
Road Initiative--and I understand we cannot match that dollar 
per dollar. And thank you, everyone here, for the BUILD Act. I 
think it is really important that we focus on areas that we can 
negate China in under-developed countries with our BUILD Act, 
with public-private partnerships, with leading people with 
sustainability, not with predatory lending.
    So I understand your concern and share your concern, and if 
confirmed, I will most certainly develop the relationships 
within the U.N. body to make certain that the smaller countries 
understand we are here for you, we are here to help you with 
longevity to build communities. China is not.
    Senator Young. Well, I am chairman of the Multilateral 
Institutions Subcommittee here on Foreign Relations. So I will 
have oversight over all of these matters really, and I look 
forward to supporting you in your efforts and working together 
so that we can create a broader and deeper coalition and then 
apply our collective leverage against China's predatory 
economic practices, against gross human rights violators so we 
do not normalize the sort of human rights violations that 
others might attempt to normalize in this international forum.
    So thank you once again for your past service and your 
interest in serving, and I look forward to our work together.
    Mr. Chairman?
    The Chairman. Thank you, Senator.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Madam Ambassador, let me just say for the record I 
supported your nomination. I do not support everybody who comes 
before this committee. I supported expediting your nomination 
for a business committee meeting. And I supported your 
nomination on the floor of the United States Senate. So even 
though you are a political appointee, it meant nothing to me. 
So I hold no ill will.
    But my job as the ranking member is to vet every candidate 
that comes before us. So in that spirit, let me just take my 
line of questioning a little further.
    You know, there is an old adage that as a lawyer if you 
have the facts on your side, you argue the facts. You have a 
war on your side, you argue the law. And if you have neither 
the facts nor the law, you bang on the table and create a 
diversion.
    Now, Senator Cruz is a very good lawyer. The problem with 
his line of questioning is that the State Department told us 
that the 300 days that I have questioned you about was reported 
as 300 days outside of Canada. It did not include travel inside 
of Canada. So that line of questioning to suggest that a good 
part of this is you were traveling in Canada--and you should be 
traveling in Canada--I have no dispute you should be traveling 
in Canada. But the 300 days was travel outside of Canada not 
because I say it, but because the State Department says it.
    So I look at that, and I see that the new USMCA 
negotiations were completed at the end of September 2018. Yet, 
as you can see from the chart, your absences from post seem to 
only increase in frequency after the time of the negotiations 
being completed. How do you explain that?
    Ambassador Craft. Senator, while we may have reached the 
deadline of September 30th of 2018 for USMCA, there were many 
more conversations we were having to iron out issues that we 
agreed upon at that last hour on September 30th that we would 
continue to speak about.
    I can tell you now that I did not enjoy living out of a 
suitcase. We had finally made our residence in Ottawa a home 
just in time that I had to pack up bags and go back and forth. 
That was no fun. But I took my oath of office very seriously 
and understanding that I am available 24/7 wherever----
    Senator Menendez. Well, let me----
    Ambassador Craft. I beg your pardon?
    Senator Menendez. Let me ask you then in pursuit of that. I 
am sure you did not enjoy living out of a suitcase.
    But there were five rounds of negotiations that occurred 
after you became Ambassador in October 2017. Yet, it appears 
from the summary provided by the State Department that you only 
attended one of those five rounds. Are those records correct?
    Ambassador Craft. No, sir. The rounds that occurred in 
Washington were continuous. I did attend the round in Montreal 
because as I----
    Senator Menendez. Did you attend all five rounds of 
negotiations----
    Ambassador Craft. No, sir. No, sir. No, sir, I did not. I 
attended the round in Montreal.
    Senator Menendez. This is why we need the information so 
hopefully--I am not sure we will--we can get past this issue 
because this is a global stage you are going to be on. Canada 
is a really important assignment. This is a global stage. There 
are huge global issues. There is no more important position I 
can think of other than the Secretary of State than the U.S. 
Ambassador to the United Nations. And as someone who has 
practiced foreign policy for 27 years in Congress, this is real 
important to me. I know what it means. So that is why I am 
pursuing this.
    You know, the first thing is you need to be there in order 
to meet the challenges. So I have to understand that better. I 
hope we can get to that point that I do.
    I have some final questions on substance.
    Let me ask you. You said in response to Senator Graham--he 
was asking about Iraq. You said you are going to follow the 
President's policy. I understand that. President Trump has made 
a whole host of disparaging comments about U.N. member states. 
In tweets, he has referred to the Canadian Prime Minister 
Justin Trudeau as very dishonest and weak. He has called Europe 
a total mess. He said that Germany is a captive of Russia. Do 
you agree with those statements?
    Ambassador Craft. Senator, the President has his own way of 
communicating. I can assure you that my relationships that I 
will build, if confirmed at the U.N.----
    Senator Menendez. I understand. Believe me, I am painfully 
aware of the President's form of communicating. The question 
is, do you believe in those statements? Yes or no.
    Ambassador Craft. This is a gotcha question, and I am not 
going to go there. What I believe----
    Senator Menendez. It is not a gotcha question. You are 
going to be at the United Nations. You are going to be on the 
Security Council and at the General Assembly with a whole host 
of the countries. You are going to have to work through these 
things. So about a simple thing, you can say I do not 
personally believe that. It is a challenge. Right?
    Ambassador Craft. I can assure you that I will be speaking 
to everyone with utmost respect in representing the United 
States.
    Senator Menendez. Let me ask you. If you are confirmed, can 
you pledge that you will not use your post as Ambassador to the 
United Nations to provide diplomatic protection for Saudi 
Arabia, but use your voice and your vote to raise concerns 
about the conduct of the Saudi-led coalition in Yemen, to press 
for accountability on the brutal murder of Jamal Khashoggi, to 
end the fact that the Saudis use child soldiers?
    Ambassador Craft. Senator, I can give you my word that I do 
not care who it is, what country it is, if there is a human 
rights abuse, I will most certainly shine the light, call them 
out, however you want to put it. You can guarantee that I will 
be the first there to say this has to stop because----
    Senator Menendez. I appreciate that. But specifically as to 
my question as to the Saudis, will you use your voice and your 
vote in these instances to stand up for what you are telling me 
more globally? You will use your voice and your voice to stand 
up to express the concerns. There is a huge humanitarian 
catastrophe going on in Yemen. There is clearly the murder of a 
journalist that needs to be addressed. There is clearly the use 
of child soldiers, which I know in your heart, as a mother, you 
cannot even believe is something that should be used. So will 
you use your voice and your vote in that regard?
    Ambassador Craft. Senator, I will use my voice when Saudi 
Arabia commits human rights abuses. You better believe I will 
be using my voice.
    Senator Menendez. Thank you.
    Now, lastly--I am going to submit a whole bunch of 
questions for the record and I look forward to substantive 
responses from you and maybe a follow-up visit.
    Ambassador Craft. Sure.
    Senator Menendez. You mentioned very well, by the way, the 
question of humanitarian issues. You shared the same story you 
shared previously with me about the Rohingya and the first time 
you met anybody from the Rohingyas--with Senator Gardner.
    We have the greatest displacement since World War II of 
people in the world, over 70 million people displaced because 
they flee violence, oppression, persecution. What do you 
believe is the role that we should be playing as it relates to 
dealing with that challenge?
    Ambassador Craft. Dealing with the Rohingya challenge 
specifically?
    Senator Menendez. Rohingya but beyond, the 70 million 
people who are displaced in the world who are, in essence, 
refugees. What is the role that you would advocate as the U.S. 
Ambassador at the U.N.? What should we be doing and leading on?
    Ambassador Craft. Senator, I understand the emotions 
because I feel the same way about this issue, as we discussed 
in your office. I cannot fathom, from looking at these 
children, what it must be like for a mother to feel so 
desperate to have to leave their country or, worse, put an 
innocent child in the hands of a human smuggler, thinking they 
are going to go to the promised land. And that is why it is so 
important in the U.S. that we be very vigilant and with our 
humanitarian aid, that we demand for transparency, because as 
you know, our dollars have to be spent very wisely. These are 
people. We have to remember they are people. They are not just 
refugees or migrants of immigrants. They are people. And I can 
pledge to you that I will use everything in my power to make 
certain that the U.S. is always the first on the ground and the 
last to leave.
    Senator Menendez. I appreciate that. I would just say to 
you it would be helpful, if you are confirmed, your advocacy 
within this administration. One of the things we should be 
doing is admitting some more--we are at the lowest level in our 
nation's history of accepting refugees. You cannot lead in the 
world at the U.N. and advocate for other countries to do what 
we fail to do ourselves. And so this is a challenge that you 
will find at many different moments. How you work your way 
through that challenge is going to be incredibly important as 
to how successful you can be on behalf of the United States of 
America.
    And I will look forward to some of the answers to the 
questions I am posing in writing. Thank you very much.
    Ambassador Craft. Thank you, Senator.
    The Chairman. Thank you, Senator Menendez.
    Ambassador Craft, thank you very much. You have been very 
patient with all of us and we appreciate your testimony.
    The record will remain open until the close of business on 
Thursday.
    And with that, this meeting is adjourned.


    [Whereupon, at 12:35 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record


     Responses to Additional Questions for the Record Submitted to 
              Hon. Kerry Craft by Senator Robert Menendez

U.N. Peacekeeping Arrears
    As you know, the U.N. is in a financial crisis, largely owing to 
shortfalls of U.S. contributions. For peacekeeping alone, we are $776 
million in arrears. As I outlined at your nomination hearing, for the 
past three years, the U.S. has paid only 25 percent of peacekeeping 
costs instead of what we actually owed--28 percent. Just a few days 
ago, the State Department provided a report detailing the negative 
impact of arrears. All of this was corroborated by the Secretary-
General when he was here a few weeks ago.
    In December, all Member States agreed at the U.N. to new 
peacekeeping rates. For the U.S., the new peacekeeping rate dropped to 
27.8 percent The U.S. voted in support of these rates and the U.S. 
mission to the U.N. even put out a fact-sheet touting how we benefit 
from them. Now its Congress' turn to act and lift the cap. Over the 
past 25 years, Congress has lifted it many times--we must do so again 
this year.

    Question. Will you pledge to work with Congress on this issue so we 
can pay at the rate that the U.S. agreed to just a few months ago?

    Answer. If confirmed, I am committed to working with Congress on 
the issue of funding for U.N. peacekeeping operations.

    Question. Do you agree that this should be a priority for the U.S.?

    Answer. Yes, I agree that this is a very high priority for the 
United States and the American people.
China at the U.N.
    As I've said before, I agree with the President about the scope and 
scale of the challenge China presents to us and to the international 
community. We cannot just be confrontational with China we need to 
actually be competitive.
    In the past several years, the U.S. has withdrawn from UNESCO, the 
U.N. Human Rights Council, the Arms Trade Treaty, to name a few. It has 
also underfunded our PKO obligations, and we continue to be behind in 
our arrears. And yet we express surprise that China appears to be 
taking advantage of the void we are creating at the U.N. and in 
international institutions and organizations more broadly.

    Question. Do you agree that this is a challenge for the U.S.?

    Answer. There are aspects of China's behavior at the U.N. that are 
a challenge for the United States, as well as other countries that seek 
to uphold all aspects of the U.N. Charter and other foundational 
documents. The United States and China are both permanent members of 
the U.N. Security Council, and we seek to work with China where our 
interests overlap. However, in areas such as protection of human 
rights, we have deep differences. I believe it is incumbent upon us, as 
well as other member states, to uphold the U.N. Charter and subsequent 
commitments that we have all made. In places where China has attempted 
to change the rules we must be firm.

    Question. What will you do to regain the lost ground?

    Answer. I do not believe that we have lost ground at the U.N. The 
United States remains an indispensable partner of the international 
community, including at the U.N. and its associated bodies. We are by 
far the largest donor in both assessed and voluntary contributions and 
a permanent member of the Security Council. The narrative that China is 
somehow supplanting the United States at the U.N. or within the 
multilateral world is incorrect. We remain engaged to promote progress 
across a wide range of global issues.
    However, we cannot take our position or allies for granted. If 
confirmed, I will continue to build coalitions of like-minded member 
states to protect U.N. rules and standards. As the global leader, we 
must also be prepared to stand alone and on principle. I will not 
hesitate to defend our positions and values.

    Question. How will you assure that our values and principles--and 
not Beijing's--continue to animate the United Nations?

    Answer. Our values and principles have brought unprecedented global 
peace and prosperity since the founding of the U.N. Individual liberty 
and representative government remain the best way to ensure that peace, 
security, and prosperity continue. If confirmed, I will not hesitate to 
emphasize that message, and to use our leadership and position within 
the U.N. system to promote our values and principles. Although Beijing 
has sought to change the narrative, the evidence is overwhelming that 
the values we espouse are the best solution in the long term. The 
United States has much to be proud of with respect to our continued 
global leadership. I will not hesitate to tell that story, and continue 
our leadership.

    Question. What concrete steps do you believe we can take to 
confront China's influence?

    Answer. We must not allow our allies and partners to succumb to 
China's narrative that we are in retreat from our position of global 
preeminence. The evidence does not support this, so we must be 
forthright in correcting it. The United States remains the single 
largest donor to the U.N., both in assessed and voluntary 
contributions. We are the indispensable partner. Across the 
multilateral system, our support is critical to fulfilling global 
mandates. Where China has sought to erode norms at the U.N. or its 
associated organizations or coopt them, we have pushed back, often 
times with coalitions of like-minded member states. If confirmed, I 
will be extremely vocal in our support of the U.N. Charter, human 
rights, and global peace, security, and prosperity.

    Question. In which U.N. bodies do you think we have a comparative 
advantage over China?

    Answer. I sincerely believe we have a comparative advantage over 
China in most U.N. bodies. We have built strong coalitions based on 
shared values. These values are at the heart of the U.N. Charter and 
other foundational documents. We also remain a major donor for many of 
the bodies to which we are party, through both assessed and voluntary 
contributions. For instance, the United States is the top donor to the 
U.N.'s humanitarian relief operations, helping the most vulnerable and 
needy worldwide. Our engagement remains crucial for many of these 
organizations to fulfill their mandates. As such, we retain a 
comparative advantage within the U.N. bodies.

    Question. The security situation in Libya continues to deteriorate, 
and General Heftar's push into Tripoli risks undermining regional 
stability. Do you agree?

    Answer. Yes. The fighting in Tripoli is endangering civilians, 
damaging civilian infrastructure, degrading U.S.-Libya cooperation 
against terrorism, and fueling a worsening humanitarian situation. 
Lasting peace and stability will only come through a political 
solution.

    Question. Then do you believe the United States made the right 
decision in joining Russia to veto a resolution calling for a ceasefire 
and return to a political process?

    Answer. The United States did not veto a U.N. Security Council 
Resolution on Libya. The United States continues to call for a 
ceasefire and return to the political process. As the U.N. Special 
Representative of the Secretary-General continues his efforts at 
mediating a ceasefire, I would plan, if confirmed, to consult with 
Council members to evaluate how and when the Council could best support 
a political resolution to the conflict.

    Question. How do you plan to engage with Special Representative 
Ghassan Salame? What more can the United States do in pressing for a 
negotiated settlement?

    Answer. U.S. diplomats in Washington, Tunis, and New York engage on 
a regular basis with SRSG Salame and the United States supports his 
ongoing efforts to help avoid further escalation and chart a path 
forward that provides security and prosperity for all Libyans. If 
confirmed, I will continue to ensure U.S. diplomatic efforts are 
closely coordinated with the U.N., and will encourage other Member 
States to support U.N. mediation.

    Question. Russia has used its veto power at the U.N. to block 
action on many of the most pressing conflicts facing the world today, 
including Ukraine and Syria, where it is a party to the conflict. What 
will be your strategy for dealing with Russia's consistent 
obstructionism at the U.N.? Do you see any areas for potential 
cooperation with Russia at the U.N.?

    Answer. Russia attempts to use the United Nations to advance its 
narrow national interests and legitimize its authoritarian worldview. 
Moscow uses its knowledge of the U.N. system, veto power, and combative 
public diplomacy to block P3 positions (United States, United Kingdom, 
and France) on high profile issues including Syria, Venezuela, and 
Iran.In response to Russia's efforts to assert its authoritarian 
worldview through the United Nations, the United States works with 
like-minded partners, including the P3, to counteract Russian influence 
in the U.N. system. This requires American negotiators at respective 
U.N. missions to remain vigilant in identifying positions and concepts 
that run counter to U.S. interests while actively engaging partners to 
achieve outcomes that advance U.S. foreign policy. That said, should 
Russia approach an issue in a manner consistent with U.S. interests, I 
would be prepared to work with them.

    Question. Russia's invasion and occupation of Crimea is illegal 
under international law, period. The issue of Crimea has come before 
the U.N., and, as U.S. Ambassador to the U.N., you should do everything 
you can to see Crimea returned to Ukrainian control in accordance with 
international law. However, several reports came out last June saying 
President Trump believes that Crimea is Russian because everyone who 
lives there speaks Russian. This is an unacceptable position and an 
affront to Ukraine's sovereignty. Do I have your commitment to defend 
Ukraine's sovereignty at the U.N. regardless of what the President 
says?

    Answer. Secretary Pompeo unequivocally reiterated U.S. policy in 
his July 2018 Crimea Declaration: ``we do not, and will not, recognize 
Russia's purported annexation of Crimea.'' On February 27, in 
connection with the fifth anniversary of Russia's occupation of Crimea, 
Secretary Pompeo underscored the U.S. position: ``Crimea is Ukraine and 
must be returned to Ukraine's control. We will never accept anything 
less than the full restoration of Ukraine's territorial integrity.'' 
Within the context of the U.N. Security Council, the United States 
remains vigilant in combatting Russian attempts to normalize its 
purported annexation of Crimea. We will continue to work with Ukraine 
and likeminded partners to shed light on Russia's brutal occupation and 
ensure Russia returns control of Crimea to Ukraine.
North Korea
    Today, North Korea has greater nuclear and ballistic missile 
capabilities than when President Trump entered office, and those 
capabilities continue to grow unconstrained our alliance of pressure 
itself is fraying, with China, Russia and others continuing to engage 
economically with Pyongyang. While you won't be responsible for North 
Korea policy or negotiations, if confirmed you will have significant 
responsibility for several key issues related to North Korea at the UN.

    Question. What do you think the criteria should be for humanitarian 
exemptions for North Korea sanctions?

    Answer. The United States is deeply concerned about the well-being 
of the North Korean people and the humanitarian situation in North 
Korea, which is the result of the DPRK regime's choice to prioritize 
its unlawful WMD and ballistic missile programs over the welfare of its 
own people.
    U.S. policy is to ensure that the strict implementation of 
sanctions does not impede the delivery of legitimate humanitarian 
assistance to the North Korean people. The United States will continue 
to work with the United Nations 1718 Committee to closely review 
requests for exemptions and licenses for the delivery of assistance to 
the DPRK and expects humanitarian aid organizations to meet 
international standards for access and monitoring of their programs.

    Question. Do you think the recent North Korean SRBM test was a 
violation of UNSCR sanctions? If it was, do you think the 
administration should press the UNSC to take appropriate action? What 
action?

    Answer. U.N. Security Council Resolutions prohibit the DPRK from 
conducting launches using ballistic missile technology. U.N. Security 
Council Resolutions also require North Korea to abandon its nuclear and 
ballistic missile programs. The Trump administration is engaged in a 
diplomatic effort to eliminate the DPRK's U.N.-prohibited WMD and 
ballistic missile program and has built unprecedented international 
support for our efforts to achieve the final, fully verified 
denuclearization of North Korea.
    The United States cooperates and coordinates closely on North Korea 
not just with our regional allies, the Republic of Korea and Japan, but 
with Canada, Australia, UK, France, Germany, and our other European 
allies. China and Russia share our goal of achieving the final, fully 
verified denuclearization of North Korea. This resounding international 
consensus has resulted in strong, unified action from the U.N. Security 
Council that experts in 2016 had predicted would be impossible.

    Question. Why has the administration--which professes to be 
pursuing a policy of ``maximum pressure''--failed to press the UNSC to 
take action on a violation of sanctions?

    Answer. We continue to press countries around the world to fully 
implement U.N. Security Council resolutions to underscore to North 
Korea that the only way to achieve the security and development it 
seeks is to forsake its weapons of mass destruction and their means of 
delivery.

    Question. How will you work to get the 1718 Committee to accept 
more designation proposals?

    Answer. The United States engages regularly with the members of the 
Security Council to make our case for designation at the 1718 
Committee. We will continue to engage in these discussions regularly 
and seek to apply the greatest pressure possible through the committee.
    The State Department also engages countries bilaterally around the 
world to take action to ensure global implementation of U.N. Security 
Council obligations. We are cooperating with many countries to enable 
decisive action against entities involved in DPRK sanctions evasion 
activity.
    If confirmed I will work to ensure that the 1718 Committee accepts 
as many U.S. designation proposals as possible and advances 
international efforts led by the United States to achieve the final, 
fully verified denuclearization of the DPRK.

    Question. How will you work with both like-minded and ``the 
others'' on the 11718 Committee--both multilaterally in committee 
meetings and in bilateral meetings--to advance U.S. goals on DPRK? What 
are the U.S. goals on DPRK?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. As President Trump has said, he believes Chairman Kim will 
fulfill his commitment to denuclearize.
    The State Department works with the 1718 Committee and members of 
the Security Council to achieve a consensus on the need to fully 
implement U.N. Security Council resolutions--both in sanctions imposed 
and in the need for the DPRK to eliminate its unlawful WMD and 
ballistic missile programs. We use bilateral meetings with members of 
the Council to present additional information we have and persuade them 
to support the U.S. position on the need to continue to fully implement 
sanctions on DPRK. We use the open meetings and Security Council 
discussions regarding the 1718 Committee to engage countries around the 
world for action to continue to hold the DPRK accountable for its 
unlawful WMD and ballistic missile programs and ensure global 
implementation of U.N. Security Council obligations. Through the U.N., 
we are cooperating with many countries to take decisive action against 
entities involved in DPRK sanctions evasion activity.
    international efforts led by the United States to achieve the 
final, fully verified denuclearization of the DPRK.

    Question. Do you agree that any candidate for office in the United 
States who is presented with information on an opponent from a foreign 
power should report that to the FBI?

    Answer. Yes.
Syria
    Russia has repeatedly vetoed Security Council action to resolve 
conflict and prevent atrocities against civilians in Syria, atrocities 
in which it is complicit. Divisions within the Security Council have 
also halted the body's ability to bring the conflict to a negotiated 
end as the regime consolidates gains across the country. Currently, 
there remains a great need for both humanitarian assistance and access 
to the besieged population in Idlib, where the regime and its Russian 
and Iranian backers are pounding civilians and civilian infrastructure 
as the rest of the world watches in horror.

    Question. Given that one of Assad's main enablers wields a veto in 
the Security Council, how will you seek to use the United Nations to 
help secure an end to hostilities, and address atrocities by the regime 
and its backers in Syria?

    Answer. The only end to the conflict in Syria is a political 
solution in line with U.N. Security Council Resolution (UNSCR) 2254. 
Through regularly-scheduled meetings on Syria in the U.N. Security 
Council, we will continue to work with allies to press Member States to 
recognize this in practical steps taken in and outside the Council, 
including deescalating the violence in Idlib and convening the 
Constitutional Committee.
    Until the Assad regime and Russia take concrete steps toward a 
full, immediate, and verifiable de-escalation in Syria, the United 
States will continue to apply pressure through all possible means to 
isolate the regime and its allies. We are using a whole of government 
approach in this effort, including the recent Treasury Department 
designations of 16 Syrian individuals and entities, demonstrating our 
commitment to promoting accountability for persons who support the 
Assad regime and undermine peace, security, and stability.

    Question. How will you work with members of the Security Council to 
gain humanitarian access to all affected populations inside Syria?

    Answer. The continuation of destruction and violence on the 
civilian population and civilian infrastructure in Syria, particularly 
in Idlib, is inexcusable. Through regularly-scheduled meetings on Syria 
in the U.N. Security Council, we continue to press Member States on the 
critical importance to maintain cross-border aid deliveries across all 
agreed border crossings in accordance with U.N. Security Council 
Resolution (UNSCR) 2449.
    There is no substitute for cross-border operations, which are the 
most transparent, most effective, and most efficient way to bring 
humanitarian assistance to those in Syria who need it most. No actor on 
the ground should politicize U.N. humanitarian operations, nor use it 
as a weapon, as the Assad regime and Russia have done.
Iran
    Iran continues to foment chaos and instability throughout the 
region. From Syria and Lebanon to Iraq to Yemen, Iran and its proxies 
menace our allies and partners, destabilize governments and are 
complicit in atrocities and humanitarian nightmares.
Regarding Iran's nuclear program

    Question. Given the way the administration's abrupt withdrawal from 
the JCPOA has alienated many of our allies, what leverage does the U.S. 
have at the U.N. to address Iranian regional aggression?

    Answer. A key element to the administration's Iran policy is strong 
diplomatic engagement with our partners and allies, including via the 
U.N. and other multilateral bodies. U.S. allies and partners in Europe, 
the Gulf, and Asia share our assessment of the full magnitude of the 
Iranian regime's malign behavior. On the U.N. Security Council, the 
United States works closely alongside other member states to implement 
multilateral counter-proliferation efforts against Iran and to address 
Iran's hostile regional activity. Iran's destructive actions will only 
serve to further isolate it on the international stage.

    Question. How can we address the fact that the arms embargo 
provisions of the JCPOA will expire in 2020?

    Answer. While the JCPOA does not provide for any arms embargo on 
Iran, the provisions of U.N. Security Council Resolution 2231 (2015) 
that obligate all States to prevent the supply, sale, or transfer of 
arms or related materiel to Iran unless approved in advance on a case 
by case basis by the U.N. Security Council expire no later than October 
2020. We have made clear to the other members of the Security Council 
that these important provisions should be extended. We will continue to 
underscore the serious challenge Iran poses to international peace and 
security and the need to prevent the onward proliferation of 
destabilizing weapons to Iran.

    Question. How will you engage with the IAEA to ensure that it has 
adequate inspections of all necessary nuclear sites?

    Answer. We remain closely engaged with the IAEA to ensure it has 
all necessary resources to carry out its critical verification and 
monitoring role in Iran. We have made clear that Iran must cooperate 
fully with the IAEA, including by providing unqualified access to any 
location requested by the IAEA. The IAEA has the authority to request 
access to any location in Iran--civil or military--to verify Iran's 
declarations under its Additional Protocol and Comprehensive Safeguards 
Agreement when a question or inconsistency has arisen. The IAEA also 
has a fundamental responsibility to pursue any new concern about 
undeclared nuclear material or safeguards-relevant activities, and we 
have full confidence that the Agency and its highly skilled and 
professional inspectors will do so appropriately.
    If confirmed, I will work closely with Ambassador Jackie Wolcott 
and her team at the U.S. Mission to International Organizations in 
Vienna (UNVIE) to promote and support U.S. policy on these questions.

    Question.  What U.N. mechanisms do you think can be the most 
effective in confronting Iran's non-nuclear behavior?

    Answer. Addressing Iran's malign behavior is a top priority of this 
administration and crucial to the stability of the region. During the 
``Ministerial to Promote a Future of Peace and Security in the Middle 
East,'' held in Warsaw, Poland February 13-14, foreign ministers and 
representatives from 62 nations and entities, including Israel, came 
together to advance common interests around terrorism, proliferation, 
and the escalation of conflicts in the region. The destabilizing 
activities of Iran were highlighted in all of these areas, and Warsaw 
participants discussed how we could respond to Iran's actions. A key 
element to the administration's Iran policy is strong diplomatic 
engagement with our partners and allies, including via the U.N. 
Security Council. Iran's destructive actions will only serve to further 
isolate it on the international stage.

    Question. Iran continues to violate U.N. arms embargoes, supplying 
weapons across the region. How do you plan to work to enforce those 
arms embargoes?

    Answer. Maintaining Security Council solidarity on these issues 
will be a key priority if I am confirmed. Inhibiting the flow of 
weapons to terrorists and rogue regimes should be a commitment around 
which the word can rally, and I will be attentive to any potential 
relaxation within the Council.

    Question. How do you plan to address the fact that Iran continues 
to test ballistic missiles in violation of the U.N. Security Council?

    Answer. The Secretary has been clear: Iran must end its 
proliferation of ballistic missiles and halt further launching or 
development of nuclear-capable missile systems. Iran's pace of missile 
launches did not diminish after implementation of the JCPOA in January 
2016 and was among the many reasons the administration chose to cease 
participation in that agreement. Iran has conducted multiple ballistic 
missile launches since this time as it continues to prioritize its 
missile development in defiance of U.N. Security Council Resolution 
2231. We continue to relay our strong concerns to the U.N. Secretary-
General and the U.N. Security Council in response to Iran's dangerous 
missile development and proliferation.
Israel
    Historically, the United States has played a critical role in 
standing up for Israel and combatting biased, one-sided resolutions and 
other actions across the U.N., including the Security Council, General 
Assembly, and organizations like UNESCO and the U.N. Human Rights 
Council. The U.S. has also advocated against Palestinian attempts to 
unilaterally establish permanent member status, which should only 
happen after a mutually agreed two-state solution with Israel.

    Question. How do you to plan to approach standing up for Israel at 
the U.N.?

    Answer. President Trump has declared emphatically that his 
administration will always stand with Israel. If confirmed, I am wholly 
committed to maintaining the longstanding, strong U.S. support for 
Israel at the United Nations. The United States has consistently 
opposed every effort to delegitimize Israel or undermine its security 
at the United Nations, and I will continue to do so with vigor. I will 
work to ensure this support is comprehensive, including in the Security 
Council and General Assembly. I will work to broaden the focus of the 
Security Council's monthly debate on the Middle East away from Israel, 
and the Israeli-Palestinian conflict, and toward malign actors in the 
region, such as Iran and Syria.
    I will maintain the U.S. opposition to the annual submission of a 
disproportionate number of unfair resolutions biased against Israel. 
The one-sided approach to these resolutions damages the prospects for 
peace between Israel and the Palestinians by undermining trust between 
the parties and failing to create the kind of positive international 
environment critical to achieving peace. The United States consistently 
opposes ``foreign occupation'' language in U.N. texts and works with 
Israel to explore possibilities of changing references to ``foreign 
occupation'' so the references are not Israel-specific. Under my 
leadership, if confirmed, the U.S. Mission to the U.N. in New York also 
will focus on identifying and removing anti-Israeli statements in other 
U.N. texts, and we will support qualified Israeli candidatures for U.N. 
positions when appropriate. I also will continue my practice, and my 
predecessors', of working constructively with our Israeli diplomatic 
counterparts, and specifically the Israeli Mission to the United 
Nations.

    Question. Given that the United States has pulled funding for 
various U.N. institutions, what leverage does the U.S. have to counter 
anti-Israel bias at the U.N.? How would you advocate against anti-
Israel bias at the U.N.?

    Answer. Anti-Israeli bias is pervasive throughout the U.N. system. 
The Trump administration has pushed back against the unfair treatment 
of Israel at the United Nations, and the United States has always 
strived to counter bias against Israel within the U.N. system. As I 
stated in my testimony, the United States will never accept such bias, 
and if confirmed I commit to seizing every opportunity to shine a light 
on this conduct, call it what it is, and demand that these outrageous 
practices finally come to an end. It is a core U.S. priority to counter 
anti-Israel bias and ensure that Israel, as with any other member 
state, is treated fairly at the UN.
    As we strive to counter bias against Israel at the United Nations, 
the United States has many strengths. For example, we remain the 
largest contributor to the United Nations, a permanent member of the 
Security Council, and the U.N. host country to the United Nations 
Organization and to the U.N. community in New York. U.S. diplomats 
working at the United Nations in New York and on U.N. issues around the 
world are among the most active of any country. We take every 
opportunity possible to demand that not only elements of the U.N. 
System, but also representatives of other member states, stop these 
biased and one-sided attacks and abandon the abhorrent anti-Israel 
biases that we see much too often.
    Here are specific measures that I will continue if confirmed: I 
will remain focused on countering anti-Israeli efforts, including 
General Assembly resolutions. I will oppose premature Palestinian 
attempts to join U.N. and related bodies. And, I will call attention to 
the role of malign regional actors, such as Hamas, in undermining 
efforts to reach a comprehensive peace agreement between Israel and the 
Palestinians. I also will work to broaden the focus of the Security 
Council's monthly debate on the Middle East away from Israel, and the 
Israeli- Palestinian conflict, and toward malign actors in the region, 
such as Iran and Syria.
    If confirmed, I also will strongly support Israel's affirmative 
efforts to normalize its participation within the United Nations, and 
the country's positive diplomatic agenda there. I also will continue my 
predecessors' work to increase Israel's representation in U.N. 
positions.
    Under President Trump, the United States has continually opposed 
U.N. resolutions that unfairly target Israel. President Trump withdrew 
the United States from the U.N. Human Rights Commission which has 
repeatedly shown an abhorrent anti-Israel bias. The administration 
strongly supports efforts to expand ties between Israel and neighboring 
Arab states, particularly those in the Gulf.

    Question. In spite of repeated violations, the ceasefire brokered 
by U.N. Special Envoy Martin Griffiths around Hudaydah has held and the 
Houthis have withdrawn their forces. However, prospects for a broader 
peace remain grim. What steps can the U.S. take at the U.N. to ease 
tensions and return the parties to the negotiating table for a 
political solution?

    Answer. The United States can continue diplomatic engagement in New 
York and the region to ensure continued U.N. Security Council support 
for U.N. Special Envoy Martin Griffiths' efforts to mediate between the 
Yemeni parties to reach a political settlement to end the conflict. In 
December, the U.S. Mission to the U.N. shaped the language of and voted 
for U.N. Security Council Resolution 2451, endorsing the agreements the 
parties reached in Sweden, and Resolution 2452, establishing and 
resourcing a monitoring force to verify the Hudaydah ceasefire and 
redeployments. In June, the United States called on the Houthis to 
demonstrate good faith in the political process, and for Iran to cease 
supplying the Houthis with weapons to attack its neighbors, and 
underscored that said attacks threaten to derail progress toward a 
political agreement. The United States can continue to support U.N.-led 
political negotiations by renewing the monitoring mandate of the U.N. 
Mission to support the Hudaydah Agreement (UNMHA) and supporting future 
resolutions supporting the Special Envoy's efforts.

    Question. How can the U.S. work through the U.N. to ensure 
humanitarian access throughout Yemen?

    Answer. The United States has continued to call on all parties to 
ensure unimpeded commercial and humanitarian access to and throughout 
Yemen so critical food, fuel, and medicine reaches Yemenis who need it 
the most. Since October 2017, the United States has provided nearly 
$721 million towards the response in Yemen, and this aid reaches 
Yemenis through the U.N. and other implementing partners. In January 
2018, the United States worked with the World Food Program and Saudi-
led Coalition to deliver mobile cranes to Hudaydah port to increase 
throughput capacity there. We will continue to remain in close contact 
with the U.N. and its agencies to monitor humanitarian access.
North Korea Human Rights
    For many years, the U.S. permanent representative at the U.N. led 
efforts to have the Security Council debate the human rights situation 
in North Korea. Your predecessor, Ambassador Nikki Haley, pledged 
during her confirmation process to work to hold such debates on an even 
more frequent basis. In actual fact, however, she only worked to have 
one in late 2017, and in 2018 no debate was held at all. These debates 
are important events which communicate to the North Korean government 
that the international community, even as it seeks a diplomatic 
solution to North Korea's weapons proliferation, remains concerned 
about human rights issues--and that the U.S. will not give the 
government a pass in exchange for actions on other issues, including 
proliferation.

    Question. Will you pledge that, if you are confirmed, you will work 
to hold regular debates on North Korea human rights issues at the 
Security Council, and at least more than once a year?

    Answer. If confirmed, I will work to hold regular debates on North 
Korea's human rights record and persistent issues at the U.N. Security 
Council.

    Question. How do you plan to advance accountability for the North 
Korean regime's crimes? What avenues for accountability do you think 
the United States should pursue?

    Answer. If confirmed, I will work to advance human rights and 
accountability in the DPRK through support for documentation efforts; 
fostering the free flow of information into, out of, and within the 
DPRK; and increased international pressure on the DPRK to respect human 
rights.
    If confirmed, I will support the documentation, advocacy, and 
accountability work of the Office of the High Commissioner for Human 
Rights field office in Seoul, as well as the work of the U.N. Special 
Rapporteur on Human Rights in the DPRK. I will support strong language, 
including on accountability, in the annual U.N. Third Committee 
resolution and will work with to ensure that the DPRK's human rights 
record continues to be discussed by the Security Council.

    Question. Will you pledge to use the U.S. seat on the General 
Assembly's Fifth Committee to ensure that funding is not cut to the 
U.N.'s offices working to collect evidence of North Korean government 
abuses and crimes against humanity, including the Seoul office of the 
U.N. High Commissioner for Human Rights?

    Answer. If confirmed, I will support and promote efforts, including 
those of the Seoul office and the U.N. High Commissioner for Human 
Rights, to collect evidence of North Korean human rights violations and 
abuses.
Nicaragua
    Earlier this month, the United Nations High Commissioner for Human 
Rights documented that in Nicaragua, there was a ``disproportionate use 
of force by the police, sometimes resulting in extrajudicial killings; 
enforced disappearances; torture and sexual violence, as well as 
widespread arbitrary or unlawful detentions, occasionally by pro-
government armed elements with the acquiescence of authorities.'' 
Although there have been ongoing negotiations between the Nicaraguan 
Government and the Nicaraguan opposition-with the Government of 
Nicaragua agreeing to release 56 activists from prison-there are groups 
that have documented at least 700 people remain detained in connection 
with anti-government protests.

    Question. What is your assessment of the role of the U.S. U.N. 
mission in addressing the Nicaraguan crisis?

    Answer. It is the role of the U.S. Mission to the U.N. to be 
apprised of the situation, and to foster active discussions with other 
member states, including members of the Security Council, to identify 
opportunities to highlight the need for increased international 
attention on Nicaragua. The U.S. Mission to the U.N. has raised the 
issue of government repression in Nicaragua at the Security Council, 
most recently in September 2018. However, with no regular Nicaragua- 
focused meeting at the Security Council, these meetings are ad hoc, and 
require a minimum of nine affirmative votes to convene. Several member 
states on the Council remain vehemently opposed to any public 
discussion of the situation in Nicaragua. As such, these meetings often 
depend on emergent events to encourage Security Council member states 
to seek a meeting.

    Question. If confirmed, how will you advocate for political 
prisoners in Nicaragua?

    Answer. The U.S. Mission to the U.N. in Geneva hosted an event in 
April that featured panelists from civil society and the Organization 
of American States (OAS) who discussed the deterioration of the human 
rights situation in Nicaragua since the crackdown on peaceful 
protesters and civil society in 2018, and the need for accountability. 
The United States called for the immediate and unconditional release of 
prisoners of conscience in May, during Nicaragua's session of the 
U.N.'s Universal Periodic Review. If confirmed, I will continue to 
advocate through U.N. bodies for the immediate and unconditional 
release of all political prisoners in Nicaragua, and will support these 
efforts in in other regional fora, including the OAS.
Central America
    The UNHCR has provided repeated documentation about women and 
children in Central America, including on its reports titled Women on 
the Run and Children on the Run.

    Question. Do you believe that women, children and families 
migrating from Central America are fleeing conditions of violence, 
including gender-based violence?

    Answer. Yes. I believe that many women, children, and families 
migrating from Central America are fleeing conditions of violence, 
including gender-based violence.

    Question. Do you believe that the United States should actively 
work to address the conditions of violence driving women, children and 
families to flee Central America?

    Answer. Yes. I believe that the United States should actively work 
to complement, and not supplant, the efforts of Central American 
governments to address the root causes of violence driving women, 
children, and families to flee. The U.S. Strategy for Central America 
aims to address the security, governance, and economic drivers of 
illegal immigration and illicit trafficking. The President has also 
made it clear he believes Guatemala, Honduras, and El Salvador should 
do more to stop the flow of illegal immigrants to the United States. We 
expect the Northern Triangle governments to keep their commitments to 
address the conditions of violence that contribute to illegal 
immigration to the United States.

    Question. Do you believe that U.S. foreign assistance can play a 
role in addressing these issues? How, and what should that role be?

    Answer. We believe that the governments of Guatemala, Honduras, and 
El Salvador are responsible for the lives and well-being of their 
citizens, especially vulnerable women and children. We expect the 
Northern Triangle governments to keep their commitments to stem illegal 
immigration to the United States. Political will and strong partnership 
are critical to ensuring the success of any foreign assistance program. 
The President has concluded that these programs have not effectively 
prevented illegal immigrants from coming to the United States. We need 
to spend U.S. taxpayer dollars wisely and where they will be most 
effective.

    Question. Do you believe cuts to U.S. foreign assistance limit our 
ability to address these issues?

    Answer. We expect the governments of Honduras, Guatemala, and El 
Salvador to take responsibility for the economic prosperity and 
security of their own citizens, especially for women and children. In 
the absence of adequate commitments and actions by these governments to 
stop illegal immigration to the southern border of the United States, 
the President directed the Department to redirect new foreign 
assistance to the Northern Triangle. If confirmed, I will support the 
administration's requests that these countries make the needed 
political and institutional reforms that will guarantee the safety and 
well-being of their citizens in their home countries.

    Question. If confirmed, what steps would you personally take to 
address the issues of violence in Central America?

    Answer. My understanding is Central America suffers from high 
levels of crime and violence. If confirmed, I will work to urge Central 
American governments to do more to reduce crime and violence broadly, 
and also urge them to address the pervasive issues of gangs, human 
smuggling, and corruption. I will encourage other governments and 
actors to support these efforts as well.

    Question. As the humanitarian crisis in Venezuela is spiraling out 
of control, with the U.N. High Commissioner for Refugees now reporting 
that more than 4 million Venezuelans refugees have fled the country. 
However, as the situation rapidly approaches the scale of the Syrian 
refugee crisis and threatens regional stability and security, UNHCR has 
received less than 10 percent of the funding it has called for in order 
address the Venezuelan catastrophe.

   What specific steps will you take in order to increase U.S. 
        contributions and secure additional funding from our partners?

    Answer. I understand that since FY 2017, the United States has 
provided more than $256 million in assistance for Venezuelans to 
complement the efforts of host countries in the region who welcome 
them, including more than $213 million in humanitarian assistance and 
$43 million in economic and development assistance. The United States 
is providing the lion share of contributions to the U.N. Regional 
Refugee and Migrant Response Plan for Venezuela, and I understand is 
actively engaging with other countries to contribute more.

    Question. The humanitarian crisis in Venezuela is spiraling out of 
control, with the U.N. High Commissioner for Refugees now reporting 
that more than 4 million Venezuelans refugees have fled the country. 
However, as the situation rapidly approaches the scale of the Syrian 
refugee crisis and threatens regional stability and security, UNHCR has 
received less than 10 percent of the funding it has called for in order 
address the Venezuelan catastrophe.

   Do you believe the United States has provided enough funding to 
        support UNHCR efforts to date?

    Answer. I understand that since FY 2017, the United States has 
provided more than $256 million in assistance for Venezuelans to 
complement the efforts of host countries in the region who welcome 
them, including more than $213 million in humanitarian assistance and 
$43 million in economic and development assistance. This includes 
contributions to UNHCR, IOM, UNICEF, and U.N. Women through the U.N. 
Regional Refugee and Migrant Response Plan for Venezuela. The United 
States is currently providing the lion share of contributions to the 
U.N. plan and I understand is actively engaging with other countries to 
contribute more.

    Question. As the humanitarian crisis in Venezuela is spiraling out 
of control, the U.N. High Commissioner for Refugees now reports that 
more than 4 million Venezuelan refugees have fled the country. However, 
as the situation rapidly approaches the scale of the Syrian refugee 
crisis and threatens regional stability and security, UNHCR has 
received less than 10 percent of the funding it has called for in order 
address the Venezuelan catastrophe.

   Do you believe that the Trump administration's decision not to 
        provide Temporary Protected Status for Venezuelan migrants and 
        refugees impacts our ability to encourage other countries to 
        keep their doors open to Venezuelan migrants?

    Answer. I understand that the authority to make decisions regarding 
TPS resides with the Secretary of Homeland Security, after consultation 
with appropriate agencies. If confirmed I will continue to engage with 
our partners to encourage burden sharing, including the hosting of 
Venezuelans forced to flee the crisis in Venezuela.

    Question. As President Maduro refuses to give up his grip on power, 
there is a growing body of evidence that his regime is involved in 
crimes against humanity.

   Given that Venezuela is a party to the Rome Statute, what steps 
        will you take in order to support accountability for crimes 
        against humanity?

    Answer. I strongly support accountability for the Maduro regime's 
human rights conduct. While the United States is not party to the Rome 
Statute and does not engage with the ICC, I would support any action 
that ensured a full investigation of the regime's conduct and 
associated accountability.

    Question. If confirmed, will you support the growing push for 
accountability at the ICC?

    Answer. If confirmed, I would work in close consultation with my 
Security Council counterparts and the administration to determine the 
course most likely to result in genuine accountability for the Maduro 
regime.
Reproductive Rights
    I have serious concerns around U.S. policies restricting access to 
sexual and reproductive health and rights globally. On top of State 
Department policies such as the use of a false justification to defund 
UNFPA and the massive expansion of the Global Gag Rule, U.S. 
negotiators at the U.N. have been taking an unprecedented hardline 
position against including long-standing agreed language on sexual and 
reproductive health access for communities worldwide. This includes the 
recent and egregious threat to veto a U.N. Security Council Resolution 
for survivors of gender-based violence over reference to survivor's 
access to sexual and reproductive health care.

    Question. Given that access to sexual and reproductive health 
services, as well as the full protection of sexual and reproductive 
rights, is a key component to any conversation about women's 
empowerment, how will you work to ensure that the U.S. is not erecting 
additional barriers on sexual and reproductive health and rights 
globally?

    Answer. The administration has concerns about the terms ``sexual 
and reproductive health services'' and ``sexual and reproductive 
rights.'' The use of these phrases by U.N. agencies and U.N. affiliates 
often implies abortion. The administration will do everything possible 
to protect and respect the sanctity of life around the globe.
    In its advocacy for women, the administration continues to hold to 
the commitments laid out in the 1995 Fourth World Conference on Women's 
Beijing Declaration and Platform for Action as well as in the 1994 
International Conference on Population and Development's Program of 
Action. The United States moreover remains the largest bilateral donor 
of women's health and family planning assistance worldwide. Moving 
forward at the United Nations and elsewhere, the administration will 
continue to build consensus with a wide group of Member States on clear 
terminology that would better promote women's health without also 
promoting abortion. We are committed to focusing on the health care and 
health educational needs of women, men, girls, and boys, including 
adolescents, while avoiding issues that do not enjoy international 
consensus and do not support human dignity.

    Question. President Trump has made a number disparaging comments 
about U.N. member states. In tweets, he has referred to Canadian Prime 
Minister Justin Trudeau as ``Very dishonest & weak,'' called Europe ``A 
total mess!''

   Do you personally agree with these statements?

    Answer. I believe the President speaks with clarity about America's 
national security interests.

    Question. Is this how the U.S. should be conducting diplomacy?

    Answer. This administration is determined to advance American 
security and prosperity by pursuing an ambitious diplomatic agenda. It 
has been an honor to conduct diplomacy between the United States and 
Canada during my tenure, and if confirmed, I look forward to promoting 
the President's vision for renewed American leadership at the United 
Nations.

    Question. How do you plan to keep U.S. alliances strong with some 
of our closest partners, including those who have been the target of 
the President's verbal attacks?

    Answer. I know firsthand from my tenure as U.S. Ambassador to 
Canada that America's alliances and partnerships have never been 
stronger. During my tenure as U.S. Ambassador to Canada, I had the good 
fortune to develop deep relationships with my Canadian counterparts. 
Like most friends and partners, we did not always agree. However, under 
those disagreements, we knew that our bond remained ironclad and that 
we would work together to achieve lasting and impactful solutions to 
any challenges we faced.
Iran Nuclear
    The Director General of the International Atomic Energy Agency 
Yukiya Amano recently reported Iran has begun ramping up its production 
of nuclear fuel and is on the road to expanding its stockpiles of 
nuclear material beyond the 300kg cap set in the JCPOA. In addition, 
the U.N. arms embargo against Iran will expire in 2020.

    Question. Can you explain what steps at the U.N. the United States 
should take to curtail Iran's nuclear program and to keep the arms 
embargo in effect?

    Answer. A key element to the administration's Iran policy is strong 
diplomatic engagement with our partners and allies, including via the 
U.N. Security Council. Iran's destructive actions will only serve to 
further isolate it on the international stage.

    Question. Do you believe the United States has the leverage it 
needs to gain international support for these efforts given our 
unilateral withdrawal from the JCPOA?

    Answer. The United States' cooperation with allies and partners on 
threats emanating from Iran remains robust. Our allies and partners, 
including in Europe, the Gulf, and Asia, share the same assessment as 
the United States on the full magnitude of the Iranian threat. Under 
the President and the Secretary's direction, we are working with our 
allies and partners around the world to counter Iran's nuclear and 
proliferation threats, support for proxies and terrorist groups, and 
serious human rights violations. We continue to work with nations 
around the world to counter the totality of the Iranian regime's 
destabilizing behavior.

    Question. Will our allies who are still in the agreement support 
tough measures to combat Iran's ballistic missile program and malign 
regional activities?

    Answer. The remaining JCPOA participants have a clear interest in 
efforts to counter Iran's destabilizing activities. The United States 
works closely with our European allies to address the serious threats 
posed by Iran's ballistic missile program and its malign regional 
behavior. For example, the United States facilitated efforts-in close 
conjunction with the UK, France, and Germany-to raise concerns to the 
U.N. Security Council and to the broader international community in 
response to Iran's ballistic missile tests and firing of space launch 
vehicles over the past year. The United States prioritizes diplomatic 
engagement efforts that hold Iran accountable and further politically 
isolate the regime on the world stage.
Syria Chemical Weapons Attacks
    While I disagreed with many of your predecessors views, I welcomed 
Amb. Haley's willingness to lambast Syria and Russia for killing scores 
of men, women, and children with chemical weapons and bombs. We should 
not forget that while the world has turned away from the Syria 
conflict, the Russian government continues to support the Assad regime 
and has ramped up its efforts to block all U.N. activities to 
investigate and punish the Syrian regime for its use of chemical 
weapons.

    Question. Can you assure me you will use your platform at the U.N. 
to champion human rights and to defend innocent civilians from chemical 
weapons attacks?

    Answer. As Americans, championing human rights and defending 
innocent civilians are but two examples of our most deeply held values, 
and two areas in which I am very passionate. If confirmed please rest 
assured that I will consistently and loudly use my platform to champion 
human rights and defend innocent civilians. Further, if confirmed, I 
firmly commit to using all available means at my disposal to highlight 
the terrible human toll inflicted by chemical weapons.

    Question. Will you support the efforts of the Organisation for the 
Prohibition of Chemical Weapons (OPCW) to investigate and identify the 
culprits beyond chemical weapon attacks in Syria and other locations 
around the world?

    Answer. Yes, absolutely. OPCW plays a critical role in promoting 
accountability for such heinous acts, and its technical capacity must 
be sustained as a deterrent to others who might be inclined to use such 
terrible weapons.

    Question. Will you pledge that, if confirmed, you will work with 
allies to hold debates in the U.N. Security Council on the Burma 
military's ongoing abuses against Rohingya and other ethnic minorities, 
and seek a Security Council resolution that obligates the Burmese 
government to begin complying with U.N. requests to the government, 
including for access to areas in which the military has committed 
crimes against humanity, war crimes, and other abuses?

    Answer. If confirmed, I would like to hold a regular debate in the 
U.N. Security Council on the ongoing abuses against Rohingya and other 
ethnic minorities in Burma, a regular meeting in the Security Council 
requires consensus. Unfortunately, with China protecting Burma from 
international criticism, and holding the power of a veto, regularly 
scheduled meetings are unlikely. I will strive to raise the issue when 
possible, and to support ad hoc meetings so that these issues remain in 
the international community's focus. The U.S. Mission to the U.N. has 
successfully held several ad hoc meetings with the support of other 
U.N. Security Council member states, most recently in February of this 
year. I intend to continue working with other member states that share 
our concerns.

    Question. Will you pledge that, if confirmed, you will use the U.S. 
seat at the General Assembly Fifth Committee to ensure that funding is 
not cut to the U.N.'s Independent Investigative Mechanism for 
investigating human rights abuses in Myanmar?

    Answer. If confirmed, I will use the voice and influence of the 
U.S. Mission to the United Nations in the Fifth Committee of the 
General Assembly to support adequate funding for the Independent 
Investigative Mechanism. In addition, I note that U.N. Secretary-
General Guterres recently named American Nicholas Koumjian as the first 
head of the Independent Investigative Mechanism for Burma--an important 
step that if confirmed I will monitor closely.
Saudi Arabia
    In April 2016, Ban-Ki-Moon, then U.N. Secretary General, placed the 
Saudi-led military coalition in an annex list to his annual report on 
children and armed conflict, citing abuses against children in the war 
in Yemen. In June, however, after Saudi Arabia threatened to withdraw 
hundreds of millions of dollars in assistance to vital U.N. programming 
if the coalition was not removed from the list, Ban removed the 
coalition ``pending the conclusion of [a] joint review'' of the report.
    With the report's release pending, this issue is set to come to a 
head once again.
    Two years ago, the Secretary General undermined the credibility of 
the children and armed conflict report and the U.N. system in general 
by failing to resist financial blackmail to stay off the list of shame, 
aka the list of governments that use child soldiers. The issue is now 
relevant again as the report--and therefore list--is expected in the 
coming days.

    Question. If you are confirmed, do you commit to preventing Saudi 
Arabia and any other country from using financial blackmail to pressure 
U.N. offices?

    Answer. Maintaining the integrity of the U.N. System is essential 
to is ability to achieve its broader mission. If confirmed, I will work 
closely with the Secretary General and fellow U.N. Member States to 
ensure that no country exerts undue influence on U.N. reports.
    If confirmed, can you pledge that you will not use your post as 
ambassador to the U.N. to provide diplomatic protection for Saudi 
Arabia, but instead use your voice and vote to raise concerns about the 
conduct of the Saudi-led coalition in Yemen and to press for 
accountability on the brutal murder of Jamal Khashoggi?

    Answer. If confirmed, I will serve the American people and champion 
American values. The administration has been clear that the killing of 
Jamal Khashoggi was antithetical to these values, and that a credible, 
fair, and transparent Saudi judicial process is an essential step in 
accounting for Mr. Khashoggi's murder. On Yemen, the administration is 
clear-eyed about humanitarian suffering in Yemen and will continue to 
work with the Saudi-led Coalition--as well as the Republic of Yemen 
Government, U.N., and other actors--to support a political solution to 
end that conflict.

    Question. Ambassador, do you agree that the Global Magnitsky Act, 
which allows the U.S. to impose serious sanctions on those who commit 
gross human rights abuses, is an important tool and that U.S. 
enforcement of it sends a critical message that the U.S. will not let 
such abuses go unpunished? What message does it send, then, that the 
U.S. has not complied with its own law when it comes to the brutal 
murder of Jamal Khashoggi?

    Answer. The United States was the first country to take significant 
action to promote accountability in the case of Jamal Khashoggi's 
murder; under the Global Magnitsky sanctions program, we aggressively 
pursued individuals who had a role in the killing of Jamal Khashoggi. I 
must note, however, that provision 1263(d) of the Global Magnitsky 
Human Rights Accountability Act--regarding a report and determination 
referenced in the October and November letters to the President--has 
not been delegated by the President to the Department of State or 
another agency.

    Question. Just this week, the U.N. Special Rapporteur released her 
report into Khashoggi's death. She found Khashoggi was the ``victim of 
a deliberate, premeditated execution, an extrajudicial killing for 
which the state of Saudi Arabia is responsible under international 
human rights law'' and that there is ``credible evidence, warranting 
further investigation, of high-level Saudi officials' individual 
liability, including the Crown Prince's.'' She also recommended that 
the U.S. issue a Magnitksy determination as to the Crown Prince's 
responsibility. If confirmed, you will be encouraging other countries 
to comply with international law as well as their own laws.

   Shouldn't the U.S. comply with its own law and set an example for 
        standing up for human rights rather being complicit in the 
        cover up of Khashoggi's murder?

    Answer. I wholeheartedly concur that upholding U.S. law is 
paramount. The United States was the first country to take significant 
action to promote accountability in the case of Jamal Khashoggi's 
murder; under the Global Magnitsky sanctions program, we aggressively 
pursued individuals who had a role in the killing of Jamal Khashoggi. I 
must note, however, that provision 1263(d) of the Global Magnitsky 
Human Rights Accountability Act--regarding a report and determination 
referenced in the October and November letters to the President--has 
not been delegated by the President to the Department of State or 
another agency. In addition to Global Magnitsky sanctions, we continue 
to take action on individuals connected to Mr. Khashoggi's killing. On 
April 8, 2019, the Secretary publicly designated sixteen Saudi 
officials under Section 7031(c) of the Department's Appropriations Act. 
This designation was based on credible information that these 
individuals were involved in gross violations of human rights regarding 
to the killing of Jamal Khashoggi. We also continue to be clear with 
Saudi Arabia that it has not yet provided a credible and transparent 
accounting of Khashoggi's death. We are neither reducing our attention 
on Mr. Khashoggi's murder, nor ruling out appropriate steps to promote 
accountability for anyone who was involved in the murder, including at 
the highest levels of the Saudi government.
Sexual Violence in Conflict
    On April 23, 2019, the Security Council held an open debate on 
conflict-related sexual violence. In the weeks leading up to the 
meeting, Germany led a draft resolution to strengthen the international 
response to the use of rape in war. In the final stages of negotiations 
around the text, the U.S. threatened to veto the resolution unless it 
completely removed references to sexual and reproductive health. Even 
after a compromise was reached--one that omitted the language around 
sexual and reproductive health, but referenced a previous resolution 
that does--the U.S. doubled down and refused to accept any language 
that recognized that victims of rape in war should have access to 
sexual and reproductive health services. The Trump administration 
believes this implies access to abortion. The resolution was ultimately 
adopted without any language on access to sexual and reproductive 
health services, a major blow to the global women's rights movement.

    Question. Sexual Violence in Conflict: How would you respond to the 
criticism that at present the United States is undermining women's 
human rights at the Security Council?

    Answer. In our interventions at the Security Council and in other 
U.N. fora, the United States has consistently condemned sexual violence 
in conflict. We work toward achieving consensus on Security Council 
documents that promote women's human rights and safety in efforts to 
maintain international peace and security. Through the historical 
leadership of the United States and our close partners, the Council has 
built a robust framework recognizing that women are disproportionately 
impacted by conflict and are indispensable leaders in resolving it. 
From making peacekeeping more effective to countering terrorism, the 
United States is at the forefront of efforts in the Council to 
integrate a recognition of women's essential roles in achieving these 
goals.
    The U.S. National Security Strategy and the newly-released Strategy 
on Women, Peace, and Security reinforce this legacy and provide 
additional reaffirmation that promoting women's human rights and 
empowerment is essential to U.S. diplomacy and global leadership. Under 
this administration's leadership, the Security Council for the first 
time in history issued a resolution connecting respect for human rights 
to international peace and security. More recently, our co- sponsorship 
of the resolution on ``Persons with Disabilities in Armed Conflict,'' 
which was unanimously adopted by the Security Council, broke new ground 
in bringing to the Council's attention the concerns of persons with 
disabilities, including women with disabilities.

    Question. There are decades of international consensus that women's 
access to sexual and reproductive health is foundational to promotion 
of their human rights. Do you agree that sexual and reproductive health 
are fundamental to women's human rights?

    Answer. The administration is a defender of, and donor to, programs 
to improve the health, life, dignity, and well-being of women. The 
United States is the world's largest bilateral donor for essential 
health care and voluntary family planning assistance.
    The administration strongly supports the empowerment of women and 
efforts to promote their access to health care, whether or not they are 
mothers, across the lifespan. The administration does so by funding 
overall health and gynecologic health care, including care that relates 
to sexual function and reproduction. This includes maternal health, 
through promoting healthy timing and spacing of pregnancy. It also 
includes the prevention and treatment of sexually transmitted 
infections and their complications, including HIV; the prevention and 
treatment of fistula and female genital mutilation and cutting; and 
other health care needs specific to women and girls that do not include 
abortion.

    Question. The humanitarian crisis in Venezuela is spiraling out of 
control, with the U.N. High Commissioner for Refugees now reporting 
that more than 4 million Venezuelans refugees have fled the country. 
However, as the situation rapidly approaches the scale of the Syrian 
refugee crisis and threatens regional stability and security, UNHCR has 
received less than 10 percent of the funding it has called for in order 
address the Venezuelan catastrophe. What specific steps will you take 
in order to increase U.S. contributions and secure additional funding 
from our partners?

    Answer. I understand that since FY 2017, the United States has 
provided more than $256 million in assistance for Venezuelans to 
complement the efforts of host countries in the region who welcome 
them, including more than $213 million in humanitarian assistance and 
$43 million in economic and development assistance. The United States 
is providing the lion share of contributions to the U.N. Regional 
Refugee and Migrant Response Plan for Venezuela, and I understand is 
actively engaging with other countries to contribute more.

    Question. The U.N. is a complex multilateral institution. What do 
you consider the U.N.'s strengths and weaknesses? What do you think are 
the most important provisions of the charter? Please provide detailed, 
concrete answers.

    Answer. The United Nations is the only international organization 
open to all countries that holds a mandate to address major threats to 
global peace and security. It possesses the ability to establish, 
coordinate, and execute mandates relating to peacekeeping, humanitarian 
assistance delivery, and mediation. Its senior leadership also 
recognizes the need for--and is taking action on--institutional 
reforms. Despite its shortcomings, the Security Council remains the 
most effective global body to address challenges to international peace 
and security.
    The U.N. faces structural and institutional challenges, to include 
U.N. General Assembly ineffectiveness, Security Council paralysis from 
Syria to Yemen, and the continued election of highly problematic 
countries to lead major U.N. bodies. The U.N. has been unwilling to 
confront U.N. member states' anti-Israel bias. Weak oversight of U.N. 
bodies remains a challenge. The burden a small number of countries bear 
to fund a disproportionate share of the U.N. regular and peacekeeping 
budgets does not reflect the ability of many of the 193 member states 
to pay more each year.
    The United States is clear-eyed about the U.N.'s many weaknesses, 
and if confirmed, I will continue to identify steps to improve the 
institution and push for their implementation.

    Question. On what policy matters should the U.S. stand firm at the 
U.N.? On what matters should we be willing to compromise and, if so, 
how and how much? Please provide detailed, concrete answers.

    Answer. The United States should continue to stand firm on our 
overall commitment to the core values of the U.N. Charter--to save 
succeeding generations from the scourge of war, to reaffirm faith in 
human rights and the dignity and worth of the human person, to maintain 
international peace and security, and to promote economic advancement 
for all people. While we remain committed to advancing the ideals in 
the U.N. Charter, we will never surrender our interests to an 
unelected, unaccountable, global bureaucracy. The United States will 
continue to unapologetically advance its own values and interests in 
the U.N. system. President Trump underscored this message during his 
September 2018 address to the U.N. General Assembly, and it is our 
primary orienting value as we engage with the UN.
    Other countries, however, also remain focused on advancing their 
own interests in the U.N. system. Because the U.N. is a global 
membership body, we often cannot stop countries who pose the greatest 
threats to global peace and security from running for U.N. leadership 
positions. While it is the prerogative of each country to determine how 
to engage at the U.N., we can determine whether the United States 
should remain in these institutions. The United States withdrew from 
the Human Rights Council in 2018, a body whose membership includes some 
of the worst human rights abusers. We have, however, decided to remain 
in a number of other bodies that include problematic countries, 
assessing that our role can help improve the institution.

    Question. In what circumstances should the U.S. government seek 
multilateral solutions to problems?

    Answer. The United Nations is important to U.S. national security 
interests. Engagement in the U.N. can multiply our effectiveness and 
spread the costs of international action. However, we will always look 
for the most effective means to advance our national interests. In many 
regards, it is in our interest to partner where we can with the United 
Nations, while working to reform the U.N. in a serious and meaningful 
way, particularly on peacekeeping, budget, management, and development 
issues, as well as on ending the disturbing anti-Israel bias that 
permeates much of the U.N. system.
    Our engagement with the United Nations advances U.S. interests in 
concrete ways. First, our support for U.N. peacekeeping protects U.S. 
security interests while sharing costs and risks with other member 
states. U.N. peacekeeping missions deploy to countries such as the 
Central African Republic and South Sudan, where U.N. troops advance 
U.S. interests in protecting civilians and promoting regional 
stability.
    Second, our engagement in U.N. bodies, including the Security 
Council and the General Assembly, as well as the Economic and Social 
Council in New York, highlights our priorities and holds others 
accountable. For example, we have demanded accountability for the use 
of chemical weapons in Syria, and we have promoted General Assembly 
resolutions on North Korea, Syria, and Iran that have been adopted with 
broad cross-regional support. The United States actively defends Israel 
from unbalanced criticism throughout the U.N. system. Further, our role 
on the Executive Board of key U.N. funds and programs--including UNDP, 
UNICEF, and U.N.-Habitat--helps ensure that their work is targeted, 
cost-effective, impactful, and efficient.
    Third, we support the United Nations as it leads the international 
response to humanitarian emergencies around the globe, such as in 
Syria, South Sudan, the Lake Chad Basin, and many other places. At a 
time when the world faces the risk of famine in no fewer than six 
countries, as well as the largest movement of forcibly displaced 
persons since the Second World War, the United Nations' humanitarian 
leadership role has never been more important.
    Finally, the U.N. system includes a range of technical and 
specialized agencies that are central to setting international 
standards and norms in numerous fields that have a direct impact on the 
safety, security, and economic well-being of our citizens, including 
for example in intellectual property, civil aviation, shipping, 
telecommunications, and nuclear safety and security.

    Question.  What lessons do you think have been learned from the 
ways in which the U.S. has engaged with the U.N.? Please provide 
detailed, concrete answers.

    Answer. In the 75 years since the founding of the United Nations, 
we have learned that a close partnership with the United Nations 
strengthens U.S. security, prosperity, and effectiveness. We have 
learned that the United Nations can play an important role in 
addressing global peace and security issues--from the Gulf to the 
Balkans, and from North Korea to Iran. We have observed that the United 
Nations can be a forum where individual sovereign states acting in 
areas of broad agreement can pool their political and material 
resources to address difficult transnational challenges.
    However, we have also concluded that the United States must 
continue to push the institution to reform in order to remain relevant 
in the 21st century, particularly in the areas of U.N. peacekeeping; 
U.N. budget, management, and development issues; and the disturbing 
anti-Israel bias that permeates much of the U.N. system. The Security 
Council has too often failed to act on issues that are central to its 
mandate, including the conflict in Syria. We have seen that when U.N. 
solutions do emerge, however, they can occasionally inappropriately 
limit U.S. sovereign decision-making. We remain concerned that the 
U.N.'s members continue to elect autocratic or otherwise unsuitable 
countries, or nationals of such countries, to positions of authority or 
influence in U.N. bodies, reducing the ability of those bodies to 
pursue their missions with credibility.

    Question. In December 2018, the U.N. General Assembly endorsed the 
Global Compact on Refugees--an agreement aimed at creating stronger and 
fairer responses to refugee situations around the world. One year 
later, in December 2019, UNHCR is convening a Global Refugee Forum at 
which U.N. Member States will be making concrete pledges and 
contributions toward the objectives of the Compact. As the U.S. 
Ambassador to the U.N., will you plan to not only participate in the 
Global Refugee Forum, but also support the delivery of concrete pledges 
from the U.S. government?

    Answer. The United States is the global leader in supporting 
humanitarian assistance and refugees. Through the U.N., and other 
global partners, we work with refugees all over the world to assist 
them as close to their home countries as possible. But no single 
country or organization alone can meet these needs. In order to better 
address current and future forced displacement around the world, a more 
diverse and broader base of actors and donors is needed. If confirmed, 
I will continue to support our efforts to work collaboratively with 
regard to humanitarian assistance for refugees and displaced persons.
UNSC on Russia in Central Africa Republic (CAR)
    As Russia actively cultivates its economic, security, and 
diplomatic footprint on the African continent--since 2015, securing at 
least 20 military cooperation agreements across Sub-Saharan Africa--it 
has deployed more than 200 military and private security personnel to 
CAR since 2017, training locals on Russian weaponry secured through an 
exemption to the United Nations Security Council arms embargo. In 
congressional testimony earlier this year, the Commander of U.S.. 
Africa Command, General Thomas Waldhauser portrayed CAR as an example 
of ``Russia's more militaristic approach in Africa,'' in which 
``oligarch funded, quasi mercenary military advisors'' had secured 
mineral rights in exchange for weapons.

    Question. What is your view of these developments across the 
continent, and more specifically Russia's influence and activities in 
CAR?

    Answer. Russia's activities in the region seek to present Moscow as 
an alternative partner for these countries, reasserting Russia as an 
international power with global reach. I believe that Russia is using 
CAR as a test case to refine its larger strategy for engagement and 
expanding its influence, including against the United States and other 
Western powers. We continue to work to ensure that Russian activities 
and efforts do not jeopardize the United States' own objectives of 
supporting a durable peace, reduction in humanitarian emergency, and 
the re-establishment of institutions in CAR.

    Question. The U.N. Security Council will review the arms embargo 
measures on CAR by the end of September, looking at progress in areas 
including reform of its security sector and management of its weapons. 
If confirmed, what specific issues will inform the position will you 
take on the U.N. Security Council lifting arms embargo restrictions on 
CAR?

    Answer. The U.N. Security Council has established clear benchmarks 
for CAR to guide the Security Council in reviewing the arms embargo 
measures, including security sector reform (SSR), the disarmament, 
demobilization, reintegration and repatriation (DDRR) process, and the 
management of weapons and ammunition. I welcome these benchmarks, and I 
look forward to reviewing the CAR government's progress in each of 
these three areas.

    Question. If confirmed, will you support another exemption for 
Russia to continue its activities in the security sector in CAR?

    Answer. The U.N. Security Council territorial arms embargo on CAR 
requires Member States to request an exemption to donate weapons to the 
Government of CAR if the donation will contribute to security sector 
reform. The Government of Russia obtained arms embargo exemptions from 
the Security Council for two large donations in 2017 and 2018 because 
these weapons were a critical element of capacity-building for the 
armed forces of the CAR (the Forces armees centrafricaines, or FACA). I 
support capacity-building of the FACA because it is critical to 
establishing security and stability throughout the territory of CAR. 
The donation of civilian contractors to train members of the security 
forces of CAR requires Security Council notification, but not approval.
International Development
    The U.S. is one of the world's most generous donors of development 
assistance in the world. Our model for providing assistance is driven 
by needs, as indicated by the host countries where our development 
missions are present, and we have set the global standard for socially 
responsible international development.

    Question. What role do you believe U.S. international development 
missions and development assistance play in U.S. foreign policy and how 
does it cut across or factor into the work of the U.S. Ambassador to 
the U.N.?

    Answer. A major U.S. foreign policy objective is to promote peace, 
security, and prosperity around the world. U.S. international 
development assistance is an integral part of U.S. Government efforts 
to achieve this objective. If confirmed, I will ensure that our 
development assistance through the United Nations will continue to help 
advance our foreign policy interests worldwide, including poverty 
eradication, good governance, rule of law, conflict prevention and 
recovery--the necessary foundation for building peaceful, secure, and 
prosperous societies.

    Question. What circumstances could arise within the U.N. General 
Assembly framework wherein you might consider or propose withholding 
development assistance to a country for its conduct in the U.N. General 
Assembly.

    Answer. The U.S. Government will continue to take a hard look at 
our foreign assistance and whether the countries that receive our aid 
and benefit from our security are also working in support of U.S. 
values and interests. At the U.N., if confirmed, I would continue to 
hold outlaw regimes and bad actors to account. I will not accept anti-
Israel bias and will take action when U.S. contributions are 
disrespected and when U.S. values are under threat. Foreign aid will go 
to countries that serve American interests. The American people pay 22 
percent of the U.N. budget and in spite of this generosity, the rest of 
the U.N. votes with us only about 30 percent of the time. If confirmed, 
I assure you I would work to ensure a return on our investment in the 
U.N. system.

    Question. In your testimony, you said that ``climate change needs 
to be addressed, as it poses real risk to our planet. Human behavior 
has contributed to the change in climate-let there be no doubt.'' I 
appreciate this view and would like to better understand your views on 
the threats climate change poses to global security and stability, and 
how you will approach these issues with U.N. delegates from highly 
vulnerable countries.

   Do you support the finding of the 2018 National Climate Assessment 
        that climate change represents a significant security risk to 
        the United States?

    Answer. As Ambassador to Canada, I have not been engaged with the 
National Climate Assessment. If confirmed, I will support decisions 
that are informed by the best scientific assessments as we develop and 
implement relevant international policies.

    Question. Do you support the U.S.'s application of consensus 
climate change science and modelling to U.S. security assessments and 
planning?

    Answer. If confirmed, I will support decisions that are informed by 
the best scientific and intelligence assessments as we develop and 
implement relevant international policies.

    Question. What, if any, rationale would justify changing the U.S.'s 
historical utilization and practices around climate change science?

    Answer. While I do not anticipate that these issues will arise in 
the context my responsibilities at the United Nations, if confirmed, I 
would support decision-making that is informed by the best scientific 
and intelligence assessments as we develop and implement relevant 
international policies.

    Question. Do you believe members of the U.S. Intelligence Community 
should operate and develop security assessments and recommendation free 
from any political influence, including any scientific assessments 
regarding the effects of climate change?

    Answer. Yes.

    Question. During your nomination hearing, in responding to Sen. 
Cardin's question about U.S. leadership on climate change and U.S. 
participation in the Paris Agreement you stated that ``we need to 
balance the American economy with the environment.''

   What do you mean, specifically?

    Answer. I support a balanced approach that promotes economic growth 
and improves energy security while protecting the environment. The 
United States continues to be a world leader in providing affordable, 
abundant, and secure energy to our citizens, while protecting the 
environment and reducing emissions through job-creating innovation. 
This success is largely due to the development and deployment of 
innovative energy technologies, including nuclear, shale gas, 
renewables, battery storage, and more efficient vehicles. By promoting 
affordable, reliable, and clean energy, as well as energy efficiency, 
we are creating domestic jobs and supporting overseas market 
opportunities for U.S. companies. For example, the U.S. energy industry 
employed approximately 6.5 million Americans in 2017 and created over 
430,000 new jobs in the last two years.

    Question. Do you believe that environmental protection and economic 
growth represents an either/or choice for America? If yes, why?

    Answer. No. By promoting affordable, reliable, and clean energy, as 
well as energy efficiency, we are creating domestic jobs and supporting 
overseas market opportunities for U.S. companies.
    For example, the U.S. energy industry employed approximately 6.5 
million Americans in 2017 and created over 430,000 new jobs in the last 
two years.

    Question. Given that the U.S. appears on track to withdraw from the 
Paris Agreement, a process that may start in earnest this November, I 
would like your thoughts on the following:

   How are you preparing to explain this position to the rest of the 
        U.N.?

    Answer. The U.S. position with respect to the Paris Agreement has 
not changed and is well known to other countries. The United States 
intends to withdraw from the Paris Agreement, absent the identification 
of terms for participation more favorable to the United States. The 
President emphasized concerns about the economic costs of the previous 
administration's pledges under the Paris Agreement, compared to costs 
borne by our major competitors. Irrespective of our position on the 
Paris Agreement, the United States will continue to be a world leader 
in providing affordable, abundant, and secure energy to our citizens, 
while protecting the environment and reducing emissions through job-
creating innovation. The United States will continue to assist our 
partners around the world to reduce emissions, to adapt to climate 
change, and to respond to natural disasters.

    Question. Do you think that the U.S. posture on the Paris Agreement 
could create challenges for you in garnering support for U.S. 
resolutions at the U.N.?

    Answer. No, the U.S. position on the Paris Agreement is well-known, 
and in no way diminishes our determination to use important U.N. venues 
to advance our national security or, in my view, our ability to rally 
support for same.

    Question. Do you believe there are no consequences for withdrawing 
from multi-party agreements such as the Paris Agreement?

    Answer. I believe the United States should maintain its leadership 
and influence in multilateral policy forums, including international 
climate change negotiations, regardless of our position on the Paris 
Agreement. If confirmed, I will seek to maintain U.S. leadership to 
advance and protect U.S. economic and environmental interests, 
including by participating in ongoing international climate change 
negotiations to ensure a level playing field for all countries. We will 
continue to work with other countries to reduce greenhouse gas 
emissions and enhance resilience in ways that drive innovation and 
market-friendly solutions, while ensuring energy security.

    Question. During your nomination hearing, you asserted that, ``We 
withdrew from the Paris Agreement because we feel like we don't have to 
be part of an agreement to be leaders.''

   Do you believe the U.S. is immune to decisions made under the Paris 
        Agreement that will certainly have lasting and significant 
        effects on the global economy? During your nomination hearing, 
        you asserted that, ``We withdrew from the Paris Agreement 
        because we feel like we don't have to be part of an agreement 
        to be leaders.''

    Answer. I support the President's decision for the United States to 
withdraw from the Paris Agreement absent the identification of terms 
for participation more favorable to the United States. The United 
States will continue to protect and advance its interests as a Party to 
the U.N. Framework Convention on Climate Change and is continuing to 
participate in international climate change negotiations to protect and 
advance U.S. interests. I agree that the United States should lead and 
engage in negotiations to ensure that international environmental and 
climate approaches evolve in a manner that is consistent with and not 
counter to U.S. interests. If confirmed, I will ensure that the United 
States remains engaged on the issue of climate change to advance and 
protect U.S. interests, working with other countries to help drive 
innovation and market-friendly solutions, so that our efforts to 
protect the environment and grow our economy are mutually supportive.

    Question. How, specifically, is the U.S. currently leading when it 
comes to climate change?

    Answer. The United States continues to be a world leader in 
providing affordable, abundant, and secure energy to our citizens, 
while protecting the environment and reducing emissions through job-
creating innovation. The United States is a world leader in protecting 
the environment and in reducing greenhouse gas (GHG) emissions. U.S. 
net GHG emissions dropped 13 percent from 2005-2017, even as our 
economy grew over 19 percent.

    Question. Last month, I sent a letter to Secretary Pompeo 
requesting clarification of State's stance towards U.N. Special 
Rapporteurs. The letter stated that: ``Engaging with U.N. Special 
Rapporteurs is an essential part of U.S. global leadership and 
demonstrates our commitment to addressing complex human rights issues 
and the rule of law both at home and around the globe. The credibility 
of the work of U.N. Special Rapporteurs depends heavily on their 
ability to apply the same international standards to all countries, 
including democracies. By shutting out U.N. Special Rapporteurs, the 
United States risks undermining a foundational value of the United 
Nations as well as human rights progress globally and will be seen as 
empowering repressive regimes, like China and Russia, who seek to 
delegitimize internationally accepted human rights norms.'' Could you 
tell me whether there is a policy in place with regards to responding 
to inquiries and visit requests from U.N. special procedures, and if 
so, what that policy is? If confirmed, will you ensure that Congress is 
kept in the loop on this issue?

    Answer. We continue to cooperate with U.N. special procedures. 
Given the broad range of mandates and requests, our policy is to 
prioritize our substantive interactions to ensure that engagement 
maximizes the promotion of U.S. goals and objectives. In the past three 
months, we have sent six replies to inquiries from Special Rapporteurs, 
working groups, and the Office of the High Commissioner for Human 
Rights. We continue to respond as we receive new correspondence. We 
also routinely meet in person with mandate holders, as we did very 
recently with Daniela Kravetz, the Special Rapporteur on the situation 
of human rights in Eritrea.

    Question. Do you believe that the United States should provide 
lethal armaments to countries that have used prior transfers of such 
armaments in repeated violations of the law of armed conflict?

    Answer. I believe all such strategic decisions should be taken 
thoughtfully, and that the administration has demonstrated just such an 
approach. That does not mean that recipient nations are in any way 
immune from attention to how those weapons are employed.

    Question. What efforts will you make at the United Nations and with 
U.N. Member States to increase the role of human rights considerations, 
as well as commitments only to export arms for responsible use by 
recipients, and critical assessments of legitimate defense needs of 
recipients, in their arms export decisions?

    Answer. The United States factors human rights considerations, as 
well as commitments only to export arms for responsible use by 
recipients, and critical assessments of legitimate defense needs of 
recipients, into our arms export decisions. The U.N. Programme of 
Action similarly includes such considerations for exports of small 
arms.

    Question.  Will you press for a ``no undercut'' agreement among 
major arms exporting states in which when one state refuses to export a 
particular type of armament, other states will pledge not to undercut 
that decision in their own exports without extensive consultation?

    Answer. The membership of the Missile Technology Control Regime 
(MTCR) and the Wassenaar Arrangement includes many but not all major 
arms exporters. The MTCR has a no-undercut policy that applies to 
denials of MTCR Annex (control list) items. The Wassenaar Arrangement 
debated the possibility of a no-undercut provision for over 15 years, 
recently deciding that such a no-undercut provision would not reach 
consensus. The U.S. has no plans to introduce a no- undercut provision 
for arms exports within the Wassenaar Arrangement or elsewhere. 
However, the U.S. conducts bilateral discussions to prevent undercut on 
specific arms exports.

   What impact would a failure to extend the New START Treaty have on 
        the Nuclear Non- Proliferation Treaty Review Conference 
        occurring in 2020?

    Answer. The United States is continuing to evaluate the possibility 
of New START extension, but our immediate and primary focus is on 
securing a more ambitious and robust deal that addresses a broader set 
of the challenges we face in a security environment that has 
deteriorated since New START was signed in 2010. Factors that take into 
account what is best for the U.S. national interest must drive our 
actions moving forward on New START treaty extension and the NPT Review 
Conference in 2020. States Party to the NPT should recognize the shared 
interest we all have in the NPT, irrespective of the pace of 
disarmament.
    Could the United States argue we were still fulfilling our Article 
6 requirement under the NPT if no arms control discussions are 
occurring between the United States and Russia?

    Answer. Under Article VI of the NPT, Parties undertake to pursue 
negotiations in good faith on effective measures relating to nuclear 
disarmament. Article VI does not specify the form of such efforts, or a 
timeline. The United States has a strong record of accomplishment in 
this regard, having reduced its arsenal 88 percent from its Cold War 
high, through both negotiated agreements and commitments, and 
unilateral measures. We continue to engage with Russia on a range of 
issues relating to the poor international security environment we see 
today.

    Question.  Will the Nuclear Ban Treaty become a more viable option 
for non-aligned states if the NPT Review Conference is unable to reach 
a consensus?

    Answer. The Treaty on the Prohibition of Nuclear Weapons (TPNW) is 
not, and will not become, a viable option for facilitating disarmament 
regardless of what happens at the NPT Review Conference. No state 
possessing nuclear weapons will sign the Treaty, and the Treaty will 
not result in the elimination of a single nuclear weapon. The United 
States will seek a consensus outcome, but the ability to reach 
consensus is not the litmus test for a successful Review Conference. 
Past Review Conferences have reached consensus roughly half the time, 
but the commitment of States Party to the NPT has remained strong.

    Question. Please provide a complete list of meetings you attended 
regarding USMCA negotiations, including any formal rounds of 
negotiations. Please provide a complete list of dates, locations, and 
attendees.

    Answer. I was engaged in often-daily USMCA/trade-related meetings, 
negotiations, and discussions during my tenure as Ambassador to Canada. 
Many of these meetings and telephonic discussions were spontaneous or 
arose with little advance notice following planned negotiation 
sessions. They do not appear on my schedule. I attended the formal 
round of negotiations in Montreal on January 29, 2018. During the 
period of most active negotiations, I took part in countless meetings 
and discussions related to USMCA/trade issues, working with U.S. 
officials, participating in negotiations with U.S. and Canadian 
officials, or traveling to discuss the negotiations with U.S. and 
Canadian stakeholders. The U.S. participants in these meetings 
variously included the President, USTR Lighthizer, Senior Advisor Jared 
Kushner, the Secretary of State, USTR officials, State Department 
officials, and Commerce officials. The Canadian participants included 
Foreign Minister Freeland, Canadian Ambassador MacNaughton, senior 
members of Prime Minister's Office, and other Canadian trade officials. 
The list below provides further detail on my participation in scheduled 
USMCA/trade related meetings.




              DETAIL OF AMBASSADOR CRAFT'S PARTICIPATION IN SCHEDULED PUSMCA/TRADE RELATED MEETINGS
----------------------------------------------------------------------------------------------------------------
           Date                          Location                   Attendees (included,  but not limited to)
----------------------------------------------------------------------------------------------------------------
Nov 01, 2017                Westin Hotel, Ottawa, Canada D      AMB David MacNaughton (margins of joint
                                                                 appearance at Canada-US State of Relationship
                                                                 Conference)
----------------------------------------------------------------------------------------------------------------
Dec 04, 2017                Ottawa, Canada                      Dinner meeting with AMB David MacNaughton
----------------------------------------------------------------------------------------------------------------
Dec 13, 2017                Quebec City, Canada                 Premier Philippe Couillard
----------------------------------------------------------------------------------------------------------------
Dec 15, 2017                Washington, DC                      Dinner meeting with AMB David MacNaughton
----------------------------------------------------------------------------------------------------------------
Dec 19, 2017                Ottawa, Canada                      Foreign Minister Chrystia Freeland and Secretary
                                                                 Rex Tillerson
----------------------------------------------------------------------------------------------------------------
Jan 16, 2018                Vancouver, Canada                   Secretary Rex Tillerson
----------------------------------------------------------------------------------------------------------------
Jan 28, 2018                Fairmont Queen Elizabeth, Montreal  USTR Lighthizer and Delegation
----------------------------------------------------------------------------------------------------------------
Jan 29, 2018                Hotel Bonaventure, Montreal         USTR Lighthizer and Foreign Minister Chrystia
                                                                 Freeland
----------------------------------------------------------------------------------------------------------------
Feb 04, 2018                Ottawa, Canada                      Hosted Sen. Dan Sullivan and Lt. Gov. Byron
                                                                 Mallot
----------------------------------------------------------------------------------------------------------------
Feb 05, 2018                Ottawa, Canada                      AMB David MacNaughton (margins of joint
                                                                 appearance at Canadian Energy Conference)
----------------------------------------------------------------------------------------------------------------
Feb 10, 2018                Quebec City, Canada                 Premier Philippe Couillard
----------------------------------------------------------------------------------------------------------------
Feb 13, 2018                Ottawa, Canada                      Hosted Rep. Pete Sessions
----------------------------------------------------------------------------------------------------------------
Feb 15, 2018                Bowling Green, KY                   Lunch with Bowling Green Chamber of Commerce and
                                                                 remarks at Western Kentucky University
----------------------------------------------------------------------------------------------------------------
Feb 22, 2018                Washington DC                       Dinner meeting with AMB David MacNaughton and
                                                                 invited Governors
----------------------------------------------------------------------------------------------------------------
Feb 23, 2018                Canadian Embassy, Washington DC     AMB David MacNaughton, Premier Philippe
                                                                 Couillard, Deputy Secretary of Energy Dan
                                                                 Brouillette and invited CEOs
----------------------------------------------------------------------------------------------------------------
Mar 26, 2018                Ottawa, Canada                      Hosted business roundtable with Governor Eric
                                                                 Holcomb
----------------------------------------------------------------------------------------------------------------
Mar 26, 2018                Ottawa, Canada                      Hosted Rep. Elise Stefanik
----------------------------------------------------------------------------------------------------------------
April 04, 2018              Ontario Legislature, Toronto        Premier Kathleen Wynne
----------------------------------------------------------------------------------------------------------------
April 04, 2018              City Hall, Toronto                  Toronto Mayor John Tory
----------------------------------------------------------------------------------------------------------------
April 04, 2018              Toronto                             AMB David MacNaughton
----------------------------------------------------------------------------------------------------------------
April 05, 2018              White Sulphur Springs, West         POTUS (per White House request, same morning)
                             Virginia
----------------------------------------------------------------------------------------------------------------
April 24, 2018              Washington DC                       Canadian negotiating team; USTR Lighthizer and
                                                                 U.S. negotiating team
----------------------------------------------------------------------------------------------------------------
April 25, 2018              Washington DC                       Canadian negotiating team; USTR Lighthizer and
                                                                 U.S. negotiating team
----------------------------------------------------------------------------------------------------------------
April 26, 2018              Washington DC                       Canadian negotiating team; USTR Lighthizer and
                                                                 U.S. team; Trilateral Session
----------------------------------------------------------------------------------------------------------------
April 27, 2018              Washington DC                       USTR Lighthizer
----------------------------------------------------------------------------------------------------------------
May 07, 2018                Washington DC                       Canadian negotiating team; USTR Lighthizer and
                                                                 U.S. negotiating team
----------------------------------------------------------------------------------------------------------------
May 08, 2018                Washington DC                       Canadian negotiating team; USTR Lighthizer and
                                                                 U.S. negotiating team
----------------------------------------------------------------------------------------------------------------
May 08, 2018                Washington DC                       Dinner meeting with Larry Kudlow
----------------------------------------------------------------------------------------------------------------
May 09, 2018                Washington DC                       Canadian negotiating team; USTR Lighthizer and
                                                                 U.S. negotiating team
----------------------------------------------------------------------------------------------------------------
May 10, 2018                Washington DC                       Canadian negotiating team; USTR Lighthizer and
                                                                 U.S. negotiating team
----------------------------------------------------------------------------------------------------------------
May 11, 2018                Washington DC                       Canadian negotiating team; USTR Lighthizer and
                                                                 U.S. negotiating team
----------------------------------------------------------------------------------------------------------------
May 25, 2018                Minister's Office, Ottawa, Canada   Foreign Minister Chrystia Freeland
----------------------------------------------------------------------------------------------------------------
June 08, 2018               Charlevoix, Quebec, Canada          White House Officials (margins of G7 Summit)
----------------------------------------------------------------------------------------------------------------
June 08, 2018               Charlevoix, Quebec, Canada          POTUS and Prime Minister Justin Trudeau
----------------------------------------------------------------------------------------------------------------
June 15, 2018               Minister's Office, Ottawa, Canada   Foreign Minister Chrystia Freeland
----------------------------------------------------------------------------------------------------------------
June 15, 2018               Ottawa, Canada                      Hosted Sens. Crapo-Klobuchar CODEL
----------------------------------------------------------------------------------------------------------------
June 18, 2018               CN Tower, Toronto                   KY Commissioner of Agriculture Ryan Quarles &
                                                                 delegation
----------------------------------------------------------------------------------------------------------------
June 19, 2018               Woodbine Club, Toronto              KY Commissioner of Agriculture Ryan Quarles &
                                                                 delegation
----------------------------------------------------------------------------------------------------------------
June 20, 2018               Washington DC--Gaylord Convention   Governor Scott Walker and AMB David MacNaughton
                             Center                              (margins of Select USA Investment Summit)
----------------------------------------------------------------------------------------------------------------
June 20, 2018               Washington DC--Canadian Embassy     AMB David MacNaughton
----------------------------------------------------------------------------------------------------------------
June 20, 2018               Washington DC                       Dinner meeting with Governor Eric Holcomb &
                                                                 delegation
----------------------------------------------------------------------------------------------------------------
June 21, 2018               Washington DC--Gaylord Convention   Governor Pete Ricketts and Canadian delegation
                             Center
----------------------------------------------------------------------------------------------------------------
June 21, 2018               Washington DC--Gaylord Convention   Governor Matt Bevin and Canadian delegation
                             Center
----------------------------------------------------------------------------------------------------------------
June 21, 2018               Washington DC                       Dinner meeting with Governor Bevin and foreign
                                                                 EU Ambassadors
----------------------------------------------------------------------------------------------------------------
July 14, 2018               Toronto, Canada                     Premier Doug Ford
----------------------------------------------------------------------------------------------------------------
July 17, 2018               Detroit, Michigan                   Governor Rick Snyder and Minister Amarjeet Sohi
                                                                 (margins of Gordie-Howe Bridge groundbreaking
                                                                 ceremony)
----------------------------------------------------------------------------------------------------------------
Aug 06, 2018                Washington DC                       AMB David MacNaughton
----------------------------------------------------------------------------------------------------------------
Aug 06, 2018                Washington DC                       USTR Lighthizer
----------------------------------------------------------------------------------------------------------------
Aug 06, 2018                Washington DC                       Jarod Kushner
----------------------------------------------------------------------------------------------------------------
Aug 06, 2018                Country Club, NJ                    Dinner meeting with POTUS and Jarod Kushner
----------------------------------------------------------------------------------------------------------------
Aug 12, 2018                Stowe, Vermont                      Premier Wade MacLauchlan and Paula Biggar,
                                                                 Minister of Transportation, Infrastructure,
                                                                 Energy & Status of Women
----------------------------------------------------------------------------------------------------------------
Aug 12, 2018                Stowe, Vermont                      Premier Phillippe Couillard and Harold Fortin,
                                                                 Director, Intl & Canadian Relations, Cabinet of
                                                                 the Premier
----------------------------------------------------------------------------------------------------------------
Aug 13, 2018                Stowe, Vermont                      Spoke to Governors and Premiers at New England
                                                                 Governors and Eastern Canadian Premiers Conf
----------------------------------------------------------------------------------------------------------------
Aug 13, 2018                Stowe, Vermont                      Governor Phil Scott
----------------------------------------------------------------------------------------------------------------
Aug 13, 2018                Stowe, Vermont                      Premier Dwight Ball
----------------------------------------------------------------------------------------------------------------
Aug 16, 2018                Prince Edward Island, Canada        Dinner meeting with Premier Wade MacLauchlan and
                                                                 invited CEOs
----------------------------------------------------------------------------------------------------------------
Aug 20, 2018                Ottawa, Canada                      Premier & Mrs Doug Ford (Dinner and overnight
                                                                 AMB Residence)
----------------------------------------------------------------------------------------------------------------
Aug 27, 2018                Oval Office, White House,           POTUS, USTR Lighthizer, Jarod Kushner (margins
                             Washington DC                       of US-Mexico announcement)
----------------------------------------------------------------------------------------------------------------
Aug 28-30, 2018             Washington DC                       USTR Lighthizer
----------------------------------------------------------------------------------------------------------------
Sept 04-07, 2018            Washington DC                       USTR Lighthizer
----------------------------------------------------------------------------------------------------------------
Sept 09, 2018               Ottawa, Canada--AMB Residence       Embassy's senior leadership
----------------------------------------------------------------------------------------------------------------
Sept 10, 2018               Premier's Office, St John's,        Premier Dwight Ball
                             Canada
----------------------------------------------------------------------------------------------------------------
Sept 11-13, 2018            Washington DC                       USTR Lighthizer
----------------------------------------------------------------------------------------------------------------
Sept 13, 2018               Washington DC                       AMB David MacNaughton
----------------------------------------------------------------------------------------------------------------
Sept 13, 2018               Washington DC                       US Chamber President & CEO Tom Donahue
----------------------------------------------------------------------------------------------------------------
Sept 13, 2018               Washington DC                       Leader Mitch McConnell and Speaker Paul Ryan
----------------------------------------------------------------------------------------------------------------
Sept 19, 2018               Washington DC                       Lunch meeting with Premier Doug Ford and AMB
                                                                 David MacNaughton
----------------------------------------------------------------------------------------------------------------
Sept 19-20, 2018            Washington DC                       Canadian negotiating team; USTR Lighthizer and
                                                                 U.S. negotiating team
----------------------------------------------------------------------------------------------------------------
Sept 30, 2018               Washington DC                       USTR Lighthizer
----------------------------------------------------------------------------------------------------------------
Oct 01, 2018                Washington DC                       USTR Lighthizer
----------------------------------------------------------------------------------------------------------------
Oct 01, 2018                Rose Garden, White House,           POTUS, USTR Lighthizer, Jarod Kushner (margins
                             Washington DC                       of announcement)
----------------------------------------------------------------------------------------------------------------
Oct 11, 2018                White House, Washington DC          POTUS
----------------------------------------------------------------------------------------------------------------
Oct 22, 2018                State Department, Washington DC     Secretary Mike Pompeo
----------------------------------------------------------------------------------------------------------------
Oct 26, 2018                Niagara-on-the-Lake, Canada         AMB David MacNaughton (margins of joint
                                                                 appearance at Ontario Chamber of Commerce's
                                                                 Economic Summit)
----------------------------------------------------------------------------------------------------------------
Oct 26, 2018                Niagara-on-the-Lake, Canada         Lunch meeting with Premier Doug Ford and AMB
                                                                 David MacNaughton
----------------------------------------------------------------------------------------------------------------
Nov 06, 2018                Ritz-Carlton Hotel, MONTREAL        Foreign Minister Chrystia Freeland (margins of
                                                                 Fortune's Most Powerful Women Conference)
----------------------------------------------------------------------------------------------------------------
Nov 17, 2018                Halifax, Canada                     Host working dinner for Congressional Delegation
                                                                 (margins of Halifax International Security
                                                                 Forum)
----------------------------------------------------------------------------------------------------------------
Nov 22, 2018                Calgary, Canada                     University of Calgary interview and discussion
----------------------------------------------------------------------------------------------------------------
Nov 22, 2018                Calgary, Canada                     Lunch meeting with Calgary AmCham
----------------------------------------------------------------------------------------------------------------
Nov 23, 2018                Alberta, Canada                     Gave remarks and participated in trade
                                                                 discussions at the World Cup Business Forum
----------------------------------------------------------------------------------------------------------------
Nov 29, 2018                Toronto, Canada                     Dinner meeting with AMB Nimrod Barkan and AMB
                                                                 David MacNaughton
----------------------------------------------------------------------------------------------------------------
Dec 01, 2018                LtGov Office, Toronto, Canada       Ontario Lt. Governor Elizabeth Dowdeswell
----------------------------------------------------------------------------------------------------------------
Dec 06, 2018                Covington, Kentucky                 AMB David MacNaughton (margins of joint
                                                                 appearance at the CSG National Conference)
----------------------------------------------------------------------------------------------------------------
Dec 14, 2018                White House, Washington DC          Larry Kudlow
----------------------------------------------------------------------------------------------------------------
Dec 18, 2018                Ottawa, Canada--US Embassy          AMB David MacNaughton
----------------------------------------------------------------------------------------------------------------
Jan 17, 2019                Canadian Embassy, Washington DC     AMB David MacNaughton
----------------------------------------------------------------------------------------------------------------
Jan 17, 2019                Washington DC                       Dinner meeting with Mick Mulvaney
----------------------------------------------------------------------------------------------------------------
Jan 18, 2019                State Department, Washington DC     Jarod Kushner
----------------------------------------------------------------------------------------------------------------
Feb 08, 2019                Toronto, Canada                     Lunch with Premier Doug Ford
----------------------------------------------------------------------------------------------------------------
Feb 14, 2019                Toronto, Canada                     Dinner with Premier Doug Ford
----------------------------------------------------------------------------------------------------------------
Feb 20, 2019                Washington DC                       USTR Lighthizer
----------------------------------------------------------------------------------------------------------------
Feb 21, 2019                Washington DC                       Premier Doug Ford, CABC Conference on USMCA
----------------------------------------------------------------------------------------------------------------
Feb 22, 2019                Washington DC--Marriott Marquis     Governors on the margins of National Governors
                                                                 Assoc Winter Meeting
----------------------------------------------------------------------------------------------------------------
Feb 22, 2019                Washington DC                       USTR Lighthizer
----------------------------------------------------------------------------------------------------------------
Feb 22, 2019                White House, Washington DC          Vice President Pence
----------------------------------------------------------------------------------------------------------------
Feb 22, 2019                White House, Washington DC          Larry Kudlow
----------------------------------------------------------------------------------------------------------------
Feb 22, 2019                Washington DC                       Lunch meeting with Marty Obst and AMB David
                                                                 MacNaughton
----------------------------------------------------------------------------------------------------------------
Feb 28, 2019                Minister's Office, Ottawa, Canada   Foreign Minister Chrystia Freeland
----------------------------------------------------------------------------------------------------------------
March 14, 2019              Toronto, Canada                     Dinner meeting with AMB David MacNaughton
----------------------------------------------------------------------------------------------------------------
March 22, 2019              Ottawa, Canada                      Lunch meeting with Premier Doug Ford
----------------------------------------------------------------------------------------------------------------
April 17, 2019              Premier's Office, Toronto, Canada   Premier Doug Ford
----------------------------------------------------------------------------------------------------------------
May 02, 2019                Washington DC                       Vice President Pence and VP Chief of Staff Marc
                                                                 Short
----------------------------------------------------------------------------------------------------------------
May 30, 2019                Ottawa, Canada                      Vice President Pence
----------------------------------------------------------------------------------------------------------------
June 20, 2019               White House, Washington DC          POTUS, Prime Minister Trudeau, Secretary Pompeo,
                                                                 John Bolton
----------------------------------------------------------------------------------------------------------------




    Question. During your travel outside of Canada, and specifically 
when you were in Kentucky, what procedures did you have in place to 
ensure you could be reached and to engage in any classified discussions 
or receive classified material?

    Answer. Discussions and material at the Sensitive But Unclassified 
level were conducted/conveyed through State Department approved 
communication channels directly to me whenever I was away from Ottawa. 
Classified material was conveyed to me as needed when I was in 
Washington through offices at the State Department using Department-
approved secure channels. A need to convey classified material to me on 
occasions when I was in Kentucky never arose. If there should have been 
a requirement to do so, materials would have been communicated to 
nearby USG federal offices for me to access.

    Question. For what period of time was there an Acting DCM at U.S. 
Embassy Ottawa?

    Answer. There was an Acting DCM at Embassy Ottawa from the time of 
DCM Elizabeth Aubin's departure on January 5, 2018, until the arrival 
of DCM Rick Mills on November 10, 2018. The duration of this gap was 
unanticipated. Mr. Mills was officially paneled to the Ottawa position 
in mid-April 2018, but State Department leadership elected to keep him 
in Armenia as U.S. Ambassador through October 2018. The State 
Department leadership and I were confident in the abilities of the 
Senior Foreign Service Officers available to serve as Acting DCM at 
Mission Canada during this several month period before Mr. Mills 
arrived. I knew Mr. Mills was an experienced officer at the Minister-
Counselor grade, whose leadership skills would help Mission Canada, so 
I chose to wait for his postponed arrival rather than begin a new 
search for an alternate DCM who would not have served the Mission's 
specific needs as well.

    Question. While there was an Acting DCM, who was in charge at 
Embassy Ottawa when you were away from post? How did you ensure that 
your absence did not affect any of the operations at the Embassy or the 
ability to meet the Embassy's mission?

    Answer. While away from Post, I remained in communication with the 
Acting DCM providing policy guidance and monitoring the Mission's 
operations. When I was outside of Canada, the Acting DCM became Charge 
d'Affaires, with responsibility for day-to-day operations of the 
Mission. The Embassy officers who served as Acting DCM/Charge 
d'Affaires under my direction were all members of the Senior Foreign 
Service with experience serving as a DCM. These officers provided me, 
regardless of my location in Canada or in the United States, with 
regular updates through State Department communication channels on the 
Mission's work as well as consulted with me on issues that required my 
guidance and input.
Social Media.
    As a U.S. Ambassador, you are charged with representing the 
interests of the American people and communicating the viewpoints of 
the U.S. Government overseas. This includes on any official social 
media profiles you have. As a recent review by the State Department 
Inspector General found, a number of Ambassadors have not complied with 
the Department's social media policies.

    Question. As a U.S. Ambassador, you are charged with representing 
the interests of the American people and communicating the viewpoints 
of the U.S. Government overseas. This includes on any official social 
media profiles you have. As a recent review by the State Department 
Inspector General found, a number of Ambassadors have not complied with 
the Department's social media policies. Have you reviewed the 
Department's policies?

    Answer. Yes.

    Question. Do you commit to following them going forward?

    Answer. Yes.

    Question.  What are some examples of the types of posts that you 
understand would require review by the Department?

    Answer. I understand the Department's guidance on content for 
official public communications, and will abide scrupulously with that 
guidance. I have reviewed the Hatch Act, the prohibition on 
endorsements, and social media retention requirements, and should a 
circumstance arise when additional clarity is needed, I will not 
hesitate to seek Department guidance.

    Question. Do you commit to seeking review of any social media posts 
on a personal account that could be considered a matter of Departmental 
concern?

    Answer. I do not currently possess any personal social media 
accounts, but should that ever change, I will abide scrupulously with 
all related Department guidance.
    Conflicts on Issues Affecting Fossil Fuel Industries
    Alliance Resource Partners, the company that your husband Joseph 
Craft is both the Chief Executive Officer and President of, is the 
U.S.'s third largest coal extraction company. The company reports to 
have sold 40.4 million tons of coal in 2018 (according to the Energy 
Information Agency's carbon calculation formula determining that one 
ton of coal produces 2.86 tons of carbon dioxide) or the equivalent of 
115.5 million tons of CO2, and reports to control 1.7 billion tons in 
coal reserves (or 4.8 billion tons of CO2).

    Question. Do you recognize the potential for a conflict of interest 
to arise based on the extensive interests and investments held by you, 
your spouse, and Alliance Resource Partners?

    Answer. Yes. I recognize that matters could arise that pose a 
conflict of interest based on my spouse's and my financial interests. I 
will remain vigilant and recuse myself from taking official actions on 
any matter that would pose a conflict of interest.

    Question. How, specifically, and in your own words, not just 
reciting your ethics agreement, do you intend to ensure that you will 
avoid participating in any matter that could give rise to a potential 
conflict of interest?

    Answer. If I am confirmed, I will consult with Ethics Officials in 
the Department's Legal Adviser's Office to ensure I am aware of the 
range of issues that could pose a conflict of interest and to implement 
a thorough strategy to assist in avoiding such conflicts. In 
particular, I will, with the assistance of the Ethics Officials, 
institute a screening arrangement that will identify my financial 
interests and direct pertinent staff to refer potentially conflicting 
matters to appropriate USUN officials for action. In addition, I will 
personally screen matters that come before me and I will recuse myself 
from those matters that would conflict with my financial interests.

    Question. At your nomination hearing, you stated that you would 
recuse yourself on matters ``when there is coal in the conversation.'' 
How do you plan to determine what matters involve coal versus non- coal 
issues? How will you make that determination on climate change issues? 
Who will be making that determination? Do you plan to seek review by 
the Office of the Legal Adviser?

    Answer. As noted above, if confirmed, I will consult with Ethics 
Officials in the Department's Legal Adviser's Office to ensure I am 
well-prepared to identify issues that could pose a conflict of 
interest. In order to identify potential conflicts in advance, my staff 
will get an agenda of meetings regarding climate or energy issues 
whenever possible before I attend. If the meeting involves the coal 
industry or bears on the coal industry or would otherwise pose a 
potential conflict, my staff will schedule the meeting with another 
USUN official. If my staff is uncertain as to whether coal interests 
are at issue, my staff will contact Department Ethics Officials for 
their advice. I too will also seek assistance from the Department's 
Ethics Officials if I am uncertain as to whether my involvement in a 
specific climate change matter would create a potential conflict of 
interest.

    Question. At your nomination hearing, regarding recusals, you 
stated that ``we are still waiting for clarity on the fossil fuels, for 
that conversation within our ethics agreement.'' Who is making that 
determination? What information is being used to make that 
determination, and who is providing it?

    Answer. If confirmed, I plan to consult with Department Ethics 
Officials for further guidance on the range of issues that could affect 
fossil fuels and pose a conflict of interest for me. Ultimately, I am 
responsible for avoiding conflicts of interest and I will seek the 
guidance of the Department's Ethics Officials and enlist the support of 
my staff to assist in that regard.

    Question. On any matter related to climate change that you don't 
plan to immediately recuse yourself from, will you commit to seeking 
guidance or approval from Office of the Legal Advisor or the Office of 
Government Ethics before participating? Do you commit to providing any 
such determination to this committee in each instance?

    Answer. I will consult with the Department's Ethics Officials on 
those matters involving climate change where there is a potential for 
conflict.

    Question. At your nomination hearing, in response to a question 
about whether your family has oil and gas interests, you replied, ``I 
do not know.''

   If you do not know the extent of the Alliance Resource Partners' 
        and your spouse's interests, then how were you able to ensure 
        that the Department and the Office of Government Ethics had all 
        relevant information to determine there is no potential 
        conflict of interest?

    Answer. I will ensure that I understand the nature of my spouse's 
and my financial interests in order to avoid taking any actions that 
would create a conflict of interest. In addition, my screening 
arrangement will assist in avoiding the potential for conflicts of 
interest.

    Question. If you do not know the extent of the Alliance Resource 
Partners' and your spouse's interests, then how can you determine which 
U.N. matters you could participate in that would not present a 
conflict?

    Answer. I will ensure that I understand the nature of my spouse's 
and my financial interests in order to avoid taking any actions that 
would create a conflict of interest. In addition, my screening 
arrangement will assist in avoiding the potential for conflicts of 
interest.

    Question. According to Alliance Resource Partners' most recent 10K 
filed with the Securities and Exchanges Commission, the company owns 
mineral interests ``in premier oil & gas producing regions in the 
United States.'' Based on an acquisition in January 2019, ARP now owns 
interests that include more than 2,500 barrels of oil equivalent per 
day. ARP has also previously acquired other oil and gas minerals. Do 
you commit to recuse yourself from all matters involving oil and gas 
interests?

    Answer. I commit to recusing from matters that conflict with my 
spouse's or my financial interests, including any particular matters 
that would affect ARP's oil and gas interests, and I will seek guidance 
from the Department's Ethics Officials when necessary to assist in that 
regard.

    Question. For the record, please provide a complete list of all 
Alliance Resource Partners' interests, including companies, holdings, 
and industries.

    Answer. Alliance Resource Partners LP is a Delaware limited 
partnership listed on the NASDAQ Global Select Market under the ticker 
symbol ``ARLP.'' As a publicly traded company, ARLP is required to make 
certain public disclosures in its SEC filings. The filings include 
detailed listings and descriptions of ARLP's interests, subsidiaries, 
holdings, and industries. ARLP's SEC filings for the most recent ten 
years can be found on its website: http://www.arlp.com/sec-filings.

    Question. Do you commit to respond promptly to all requests for 
information by members of this committee?

    Answer. Yes. I will work through the Department's Bureau of 
Legislative Affairs to respond to Congressional requests.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes.

    Question. If you become aware of any waste, fraud, or abuse in the 
Department, to you commit to report it to the Inspector General?

    Answer. I am committed to the highest standards of government 
accountability. Should I become aware of any waste, fraud, or abuse I 
will report it to the appropriate Department authorities to include the 
Inspector General.

    Question. If the Department is providing information to a requester 
through the Freedom of Information Act (FOIA) pertaining to your office 
that is also responsive to one of my requests for information, do you 
commit to provide that information to my office?

    Answer. Yes. I will work with the Bureau of Administration and the 
Bureau of Legislative Affairs to coordinate making information 
available to your office. Please note as well that the Department 
publishes its FOIA releases in a virtual reading room at https://
foia.state.gov/.

    Question. If the Department is providing information to a Member in 
the U.S. House of Representatives that is also responsive to one of my 
requests for information, do you commit to also provide that 
information to my office?

    Answer. I commit to work through the Bureau of Legislative Affairs 
to address your requests for information. I understand that the 
Department has a long standing practice of addressing requests from 
Congress individually.

    Question. Please list any outside positions and affiliations you 
plan to continue to hold during your term of appointment.

    Answer. If confirmed, as I did during my tenure as U.S. Ambassador 
to Canada, I intend to remain a member of The Giving Pledge. 
Additionally, as I did during my tenure as U.S. Ambassador to Canada, I 
remain a Co-Founder of the Craft Academy, located at Morehead State 
University. I ended any other outside positions or affiliations prior 
to being sworn in as U.S. Ambassador to Canada in 2017.

    Question. Have you ever been an officer or director of a company 
that has filed for bankruptcy? If so, describe the circumstances and 
disposition.

    Answer. No.

    Question. If you leave this position before the completion of your 
full term or the next presidential election, do you commit to meeting 
with the committee to discuss the reasons for your departure?

    Answer. Yes.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. As a supervisor and Chief of Mission, I take the 
responsibility to provide a safe and healthy work environment very 
seriously. Further, as a matter of principle, I believe that every 
setting should be a safe and healthy environment for people to live, 
work, and enjoy themselves. To that end, I have never received any 
formal or informal complaints or allegations of sexual harassment, 
discrimination, or inappropriate conduct against me in a workplace or 
any other setting.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. As a supervisor and Chief of Mission, I take the 
responsibility to provide a safe and healthy work environment very 
seriously. During my tenure as a supervisor in various organizations, 
there have never been concerns or allegations of sexual harassment, 
discrimination, or inappropriate conduct made against any employee over 
whom I had supervisory authority.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I absolutely agree that any targeting of or 
retaliation against career employees based on their perceived political 
beliefs, prior work on policy, or affiliation with a previous 
administration, is wholly inappropriate and has no place in the federal 
government. Based my experiences serving as the U.S. Ambassador to 
Canada and preparing for the position of U.S. Permanent Representative 
to the United Nations, I can say with conviction that I have the utmost 
respect for the career staff at the U.S. Department of State and other 
foreign affairs agencies. My team at Mission Canada is incredible, and 
it has been one of the greatest honors of my life serving our country 
alongside them. Additionally, based on the experience I have had while 
preparing for the role of U.S.-U.N. Ambassador, I believe that I will 
feel the same about the team at U.S.-U.N. as well as those I have 
engaged from Main State.
    If confirmed, I am fully committed to ensuring that all employees 
under my leadership understand that any retaliation, blacklisting, or 
other prohibited personnel practices will not be tolerated. I 
personally will deliver this message to my team and I will also be sure 
to make myself readily available if there are any complaints or 
allegations of this nature. Any allegations or complaints will be 
investigated and, if the allegations or complaints are credible, 
appropriate measures will be taken.



                               __________


   Responses to Follow-Up Questions Submitted to Ambassador Craft by 
                            Senator Menendez

Financial Interests
    Question. I previously asked you the following: ``For the record, 
please provide a complete list of all Alliance Resource Partners' 
interests, including companies, holdings, and industries.'' You 
responded by referring me to the SEC filings on Alliance Resource 
Partners' website.
    Respectfully, citation to a third party internet site is not 
sufficient.

   For the public record, please provide a complete list of Alliance 
        Resource Partners' interests, including companies, holdings, 
        and industries. This may be provided in whatever format is 
        easiest, but it should include a discernible list of the nature 
        and extent of the company's interests that is in a form 
        appropriate for and conducive to publishing as part of the 
        hearing record.

    Answer. Alliance Resources Partners LP is a Delaware limited 
partnership listed on the NASDAQ Global Select Market under the ticker 
symbol ``ARLP.'' As a publicly traded company, ARLP is required to make 
certain public disclosures in its SEC filings. The filings included 
detailed listings and descriptions of ARLP's interests, subsidiaries, 
holdings, and industries. ARLP's SEC filings for the most recent ten 
years can be found on its website: http://www.arlp.com/sec-filings.
    The most useful and comprehensive list of ARLP's filings are 
located within the company's 2018 10-K, which is filed every year as 
required. Part 1, Item 1, entitled ``Business'', lists and explains 
ARLP's interests. The relevant portion of that document (entitled 
``Attachment A'') is attached here.
    Further, a complete list of all ARLP's subsidiary companies are 
identified on Exhibit 21.1 to the Company's 2018 10-K. This exhibit 
(entitled ``Attachment B'') is attached for the public record. The rest 
of ARLP's 10-K can be found on this portion of its website: http://
www.arlp.com/Doc/Index?did=50142656.


    [The information referred to above follows:]

                              Attachment A
                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Attachment B


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question. What steps have you taken while serving as Ambassador to 
Canada to ensure that you do not participate in any matters that would 
implicate any of your or your spouse's financial interests? Please be 
detailed.

    Answer. I spelled out in my ethics agreement for that position the 
various commitments I made to ensure compliance with my obligations 
under federal ethics law. I participated in several briefings with 
ethics staff, received extensive ethics training, and filed all 
required financial disclosures. During my tenure as Ambassador, I have 
taken great pains to avoid any conflicts between my official functions 
and my financial interests and those of my husband, including related 
to his business activities. Additionally, upon taking the position as 
Ambassador, I instituted a screening arrangement that listed those 
entities that required recusals. Pursuant to that arrangement, key 
staff members were provided a copy of the screening arrangement to 
assist in identifying matters that I should not participate in. When 
questions have arisen regarding my involvement in activities, Embassy 
staff or I have consulted with State Department ethics officials.

    Question. At your nomination hearing, regarding recusals, you 
stated that ``we are still waiting for clarity on the fossil fuels, for 
that conversation within our ethics agreement.''

   Who is making that determination?
   What information is being used to make that determination, and who 
        is providing that information?

    Answer. Prior to my nomination to serve as U.S. Ambassador to the 
United Nations, I completed a nominee financial disclosure report, 
which was reviewed closely by State Department ethics officials, who in 
turn consulted with the Office of Government Ethics. I understand that 
my financial interests and those of my husband, including companies 
involved in energy and extractive resources, can give rise to a 
conflict of interest. I signed an ethics agreement for this position, 
spelling out those commitments I would undertake upon confirmation in 
order to comply with federal ethics law. However, I also recognize that 
it is impossible at this juncture to identify all of the matters that 
will come before me if I am confirmed, and I plan to consult with the 
State Department ethics team going forward regarding any potential 
concerns about working on matters involving the energy sector.

    Question. According to records you provided to the Committee, you 
have participated in more than a dozen meetings with executives of 
energy and oil companies. Given that you stated in your hearing that 
you did not know the full extent of the interests held by your spouse 
or Alliance Resource Partners, please provide a detailed explanation of 
how you ensured there was no potential or actual conflict of interest 
in any of these meetings.

    Answer. As noted above, during my tenure as Ambassador, I have 
taken great pains to avoid any conflicts between my official functions 
and my financial interests and those of my husband, including related 
to his business activities, and I instituted a screening arrangement to 
help identify matters that I should not participate in. When I had any 
question regarding my ethics obligations, I consulted with State 
Department ethics officials. Looking to the future, the full extent of 
the interests I hold and that my spouse holds is set forth in my 
financial disclosure report. I will use my nominee report and 
subsequent reports as guides going forward to ensure that I am not 
working on matters involving those companies in which I or my spouse 
has a financial interest. As in Ottawa, I plan to institute a screening 
arrangement to help identify matters that could pose a conflict of 
interest. Moreover, to the extent there are ever any questions on this, 
I will consult with State Department ethics officials.

    Question. Recently-released emails (attached) demonstrate that on 
at least one occasion when you corresponded with U.S. government 
officials on an environmental issue, your spouse, who is head of the 
third-largest coal company in the United States, was also on the email 
chain, and replied from his company (arlp.com) email address.

   Has your spouse been included on, or participated in, any 
        communications regarding any U.S. Government matters related to 
        energy or environmental issues? If so, please provide copies of 
        any such communications.

    Answer. The communication in question relates to an urgent request 
I received from the Government of Canada for information on the status 
of funding for the Great Lakes Restoration Initiative--a project of 
unique value to both the United States and Canada. In order to expedite 
an answer to this question, my husband connected me to officials within 
the EPA, and on December 8, 2017, I spoke with EPA Administrator Pruitt 
to seek that information.
    I presume that the EPA chose to copy my husband on its December 8 
follow-up email to me because of his help in connecting me with the 
Administrator. However, he does not play a role in official U.S. 
government business, whether related to energy issues or otherwise.

    Question. According to records you provided the Committee, your 
spouse appears to have attended several meetings with you and energy 
officials from both the U.S. and Canadian governments, as well as with 
energy executives from the private sector.


   Has your spouse been included on any communications (including 
        phone calls and emails) or participated in any meetings in 
        which environment or energy issues were discussed? If so, 
        please provide copies of any such communications. For any 
        meetings, please include a list of participants, topics 
        discussed, purpose of meeting, your spouse's role, and any 
        cables and notes related to such meetings.

    Answer. My husband plays no role whatsoever in official U.S. 
government business, whether related to energy issues or otherwise.

    Question. Did your spouse participate in any of the following 
meetings or phone calls? If so, please include a list of participants, 
topics discussed, purpose of meeting, your spouse's role, and any 
cables and notes related to such meetings.


   Phone call with EPA Administrator Scott Pruitt on December 8, 2017.
   Meeting with the CEOs of Alcoa & Rio Tinto, Premier Couillard, and 
        Deputy Secretary of Energy Brouillette on February 23, 2018.
   Meeting with EPA Administrator Scott Pruitt on February 23, 2018.
   Meeting with the Right Honorable Stephen Harper on July 09, 2018.

    Answer. Please see the confidential supplement for this response.

    Question. Documents seen by the Committee also indicate that you 
may have used a personal email address to correspond with government 
officials while you were Ambassador to Canada.


   Was this correspondence (attached), with officials from the 
        Environmental Protection Agency, in your official capacity as 
        Ambassador?

    Answer. Yes.

    Question. Did you ever use a personal email address with a 
signature referring to your title of Ambassador? If so, please explain 
the purpose of doing so and a description of how you ensured full 
compliance with the Federal Records Act.


   Have you ever used any personal email account(s) to conduct or 
        correspond about any official State Department or U.S. 
        government business? If so, please provide copies of any such 
        communications, as well as a description of how you ensured 
        full compliance with the Federal Records Act.

    Answer. Yes, there have been instances, particularly early in my 
tenure as Ambassador, when use of my personal mobile device was 
necessary due to recurring problems with my Departmentprovided mobile 
device. In those instances, I made it my habit to copy my State 
Department email to ensure appropriate record keeping. I am also aware 
of a small number of instances in which my State email address was not 
included in such messages. Those instances reflect honest oversight by 
me, my staff, or others who initiated email communications.

    Question. Committee staff understands that during the week of March 
19, 2019, you were scheduled to hold a public diplomacy event at the 
Manor Park Elementary School in Ottawa.


   Was this event scheduled?
   Was this event canceled? If so, what was the reason for cancelling 
        the event?

    Answer. Please see the confidential supplement for this response.

    Question. You stated at your confirmation hearing that you always 
requested and always received approval for your travel. According to 
the records you provided the Committee, it appears there are four trips 
you took for which you did not receive approval from the Department to 
travel: December 15-17, 2017, to DC and Kentucky; February 14-20, 2018, 
to DC and Kentucky; July 20-22, 2018, to Kentucky; and September 03-07, 
2018, to Kentucky and DC.


   If the Department approved these trips, please provide the approval 
        cables.
   If they were not approved, why did you travel without approval?
   It appears you submitted a request for one of these trips but did 
        not receive an approval. Is this correct? Can you explain?

    Answer. Please see the confidential supplement for this response.

    Question. According to the records you provided the Committee, it 
appears that you extended your travel out of the country approximately 
eight separate occasions without approval, including the following 
dates: October 31, 2017, in Oklahoma; January 16, 2018, in Oklahoma; 
March 12, 2018, in Kentucky; May 14, 2018, in Kentucky; October 1, 
2018, in DC; November 29, 2018, in Kentucky; March 4, 2019, in 
Kentucky; and March 11, 2019, in Kentucky.


   Please explain why you extended your travel on these occasions.
   On each occasion, did you inform the Embassy and the Department 
        that you would extend your travel?
   If the Department approved these extensions, please provide the 
        approval cables.
   If they were not approved, why did you extend your travel without 
        approval?

    Answer. Please see the confidential supplement for this response.

    Question. According to the records you provided the Committee, it 
appears that on approximately ten separate occasions you traveled to 
locations not approved by the Department. These include October 29-30, 
2017, in Oklahoma, when you were approved to be in Kentucky; December 
27-29, 2017, in Oklahoma, when you were approved to be in Kentucky; 
March 23-25, 2018, in Kentucky, when you were approved to be in 
Georgia; November 28, 2018, in Kentucky, when you were approved to be 
returning to post from Oklahoma; and March 3, 2019, in Kentucky, when 
you were approved to be returning to post from New York.


   Please explain why you traveled to locations not approved by the 
        Department.
   On each occasion, did you inform the Embassy and the Department 
        that you would be travelling to a non-approved location?
   If the Department approved these additional locations, please 
        provide the approval cables.
   If these additional locations were not approved, why did you travel 
        to additional locations without approval?

    Answer. The Department requests that chiefs of mission formally 
request permission to be absent from Post for official or personal 
reasons. The cables that were provided to you reflect this practice. 
Chiefs of mission typically also include background on the purpose of 
the travel to include an itinerary so that the Department is aware of a 
chiefs of mission's plans but itineraries can be adapted and do not 
trigger a formal requirement to re-seek permission to be absent from 
Post. Within these guidelines, specific approval for specific locations 
is not required.

    Question. According to the records you provided the committee, it 
appears that many of your trips outside of Canada were not approved by 
the Undersecretary for Political Affairs.


   Please explain why these trips were not approved by the 
        Undersecretary.

    Answer. Approval or clearance from the Under Secretary for 
Political Affairs is only required if there is a ``dual absence'' from 
Post, meaning that both the Ambassador and the Deputy Chief of Mission 
are absent from Post at the same time. As a result, approval or 
clearance from the Under Secretary for Political Affairs would not be 
required for travel when the Deputy Chief of Mission was not also 
absent from Post. Thus, the trips you reference did not require 
approval from the Under Secretary for Political Affairs.

    Question. According to 3 FAH-1 H-1425.1 Requests for Permission to 
Leave Country, absences for more than 26 workdays away from post must 
be approved by the Under Secretary for Management. If there was not a 
confirmed Under Secretary for Management at the time of these 
approvals, we understand that standard procedure would be for the 
Acting Under Secretary for Management to handle such approvals. Based 
on the records you provided the Committee, it does not appear that the 
Under Secretary or Acting Under Secretary for Management approved your 
absence. However, the Undersecretary for Political Affairs did approve 
some of your trips.


   Can you explain?

    Answer. Only absences during a calendar year for more than 26 
workdays, i.e., during established work hours on established workdays, 
require approval from the Under Secretary for Management. Given that 
the allotted 26 workdays away from post were not exceeded, approval 
from the Under Secretary for Management was not required. Additionally, 
as noted in the previous question, approval or clearance from the Under 
Secretary for Political Affairs is required for a ``dual absence'' from 
Post. This approval was sought and received when required.

    Question. According to 3 FAH-1 H-1425.1 Requests for Permission to 
Leave Country, ``[i]n certain geographical areas where travel to 
neighboring countries does not place the chief of mission, or other 
U.S. representative overseas with the rank of Ambassador, beyond easy 
rapid communications with the Department or post, the chief of mission, 
or other U.S. representative overseas with the rank of Ambassador, may 
request standing permission from the appropriate geographic bureau in 
the Department to perform such short trips as may be necessary.''


   Did you request standing permission from the appropriate geographic 
        bureau in the Department to perform short trips to the U.S. as 
        may be necessary? If so, please provide your permission request 
        and the approval documentation.

    Answer. The provision you cite is discretionary (``may request''). 
I did not seek this more permissive type of clearance from WHA, but 
instead followed the higher, more restrictive standards that I have 
documented.

    Question. According to the records you provided the committee, you 
spent at least 180 partial or full days in Kentucky or Oklahoma since 
you became U.S. Ambassador to Canada.


   Is this accurate? If so, please explain why spending this number of 
        partial or full days in Kentucky or Oklahoma was warranted 
        when, as you stated in your hearing, you ``had finally made our 
        residence in Ottawa a home.''

    Answer. I have greatly enjoyed my tenure as Ambassador to Canada, 
including living and working in Ottawa. At the same time, I maintain 
residences in Kentucky and Oklahoma and have personal responsibilities 
there. Travel to the U.S. included personal milestones such as 
monitoring final construction of and moving belongings into a home, my 
daughter's wedding, and the birth of a grandchild.
    Many times travel to Kentucky and Oklahoma took place on the 
margins of official travel to Washington, D.C., when proximity made it 
practical to stop in Kentucky or Oklahoma, or on Friday afternoons 
after I completed work at the Embassy and planned a personal weekend in 
one of my other residences. During the ambassadorial training course, 
the candidates were informed that weekends were their personal time, 
and I occasionally used my personal time to manage responsibilities in 
Kentucky and Oklahoma. This engagement in no way diminished my 
commitment to serve as the Ambassador, my effectiveness in that role, 
or the fondness I have for my Ottawa home.



                               __________

            Responses to Additional Questions for the Record
      Submitted to Hon. Kelly Craft by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Respect for the dignity and sanctity of all life has been 
my guiding principle since childhood, and that principle shapes my 
views on human rights and freedoms to this day. I believe firmly that 
in the absence of human rights and fundamental freedoms, desperation 
and discontent find fertile ground. It is on such ground that conflict 
finds traction, and humanitarian crises are born and fueled.
    If confirmed, I will take that principle to New York, as I did to 
Ottawa, will use the full power of my voice and position to speak on 
behalf of those without voice, and expose the world's human rights 
abusers to the harsh light of international scrutiny.Additionally, one 
of the most important ways to promote democracy is to be an active 
participant in our great American experiment. Throughout my life, 
starting with my father, I have learned the importance of participating 
in elections by supporting candidates in whom you believe, volunteering 
on campaigns in your own community, and speaking up against inequities 
regardless of political repercussions.

    Question. What are the most pressing human rights issues at the 
United Nations? What are the most important steps you expect to take--
if confirmed--to promote human rights and democracy issues at the 
U.N.?? What do you hope to accomplish through these actions?

    Answer. Violations and abuses of human rights and fundamental 
freedoms are serious and require attention. At present, the most 
pressing of these include the massive and systematic violations and 
abuses occurring in China, where over one million Uighurs, ethnic 
Kazaks, Kyrgyz, and other Muslins in Xinjiang have been detained in 
camps since April 2017. We remain gravely concerned by the horrors 
perpetrated by the Assad regime in Syria, where hundreds of thousands 
of Syrian civilians have been detained, and over 120,000 reportedly 
remain missing as a result of an ongoing effort to silence calls for 
reform and change. In Venezuela, the illegitimate Maduro regime thwarts 
the democratic aspirations of millions through violence and repression, 
all the while starving its own people. In Burma, atrocities committed 
against Rohingya Muslims have recently displaced more than 730,000 
Rohingya refugees to Bangladesh alone.
    If confirmed, I will rally fellow U.N. member states--as did my 
predecessor--to press jointly for changes in state practice and, as we 
have recently done with the case of Burma, to support, on a case-by-
case basis, independent UN monitoring and investigation mechanisms to 
establish accountability and end impunity. I would also continue to 
press U.S. concerns regarding the violations of human rights and 
fundamental freedoms, including the right to freedom of religious 
belief, peaceful assembly and association, and freedom of expression.
    Upholding these fundamental freedoms is a prerequisite for global 
development and stability, which, in turn, helps guarantee U.S. 
national security.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face at the U.N. in 
advancing human rights, civil society and democracy in general?

    Answer. As we have seen in the unfortunate case of the U.N. Human 
Rights Council, it is often too easy for malign actors to become part 
of U.N. mechanisms, only to block criticism and thwart consensus on the 
need for meaningful engagement and reform. It will be critical, moving 
forward, to take a serious look at reforming the functioning of U.N. 
mechanisms and, if confirmed, I would be honored to lead these efforts 
on behalf of the United States.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. Yes. I, too, believe that a diverse workforce is key to 
ensuring a productive and creative team. If confirmed, this is exactly 
the type of team I will aim to foster. To that end, I will endeavor to 
reflect the diversity of our great nation by striving to promote equal 
opportunity for our officers, including women and those from 
historically marginalized groups, if confirmed as Permanent 
Representative to the United Nations.

    Question. What steps will you take to ensure each of the 
supervisors in your staff are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will lead by example by fostering a culture 
of acceptance and inclusivity that ultimately reflects a whole-of-
mission commitment to diversity and inclusion. To achieve a diverse and 
inclusive workforce I will strive to implement appropriate procedures 
for support and mentoring of staff, fully comply with federal non-
discrimination laws and regulations in our throughout the entirety of 
the Mission, and clearly communicate the importance of complying with 
established protocols and procedures while also celebrating diversity 
and differences amongst the team.

    Question. Do you agree that principled engagement with the U.N. is 
beneficial to our country on the whole?

    Answer. Yes, I absolutely agree that principled engagement with the 
U.N. is beneficial to the United States and the American people.

    Question. How would you build on former Ambassador Haley's 
successes at the U.N., and what would you do differently in the role, 
if confirmed?

    Answer. If confirmed, I look forward to building upon Ambassador 
Haley's record of success. In particular, I believe it is crucially 
important for the United States to continue demanding accountability 
and performance by U.N. peacekeeping missions. Ambassador Haley's 
efforts in this regard resulted in cost savings, improved mission 
mandates, and sustained attention to unacceptable conduct issues.

    Question. How do you leverage U.S. commitments to achieving these 
Sustainable Development Goals with recent trends in U.S. funding for 
the U.N.?

    Answer. The 2030 Agenda is a voluntary framework for global 
development that has served as a guide for the U.N. development system 
in its support to Member States. If confirmed, I would work towards 
ensuring that our resources are used effectively and efficiently and 
that our contributions towards the U.N. development system continue to 
drive development outcomes and diminish the need for foreign assistance 
in the long run. The United States remains the largest single provider 
of Official Development Assistance. If confirmed, I would work with 
partners across the U.N. system to showcase U.S. global leadership 
through our policies, partnership, innovations, and calls to action.

    Question. If confirmed, do you pledge to encourage robust U.S. 
funding to help advance these goals?

    Answer. If confirmed, I would work towards ensuring that our 
resources are used effectively and efficiently and that our 
contributions towards the U.N. development system continue to drive 
development outcomes and diminish the need for foreign assistance in 
the long run. The 2030 Agenda calls for shared responsibility and the 
mobilization and effective use of domestic resources and strong 
partnerships with the private sector. I would continue to engage with 
both the international community and the private sector to address both 
the burdens and opportunities inherent in tackling global development 
challenges.

    Question. As U.S. Ambassador to the U.N., what will be your 
commitment to consulting with and engaging in dialogue with Congress 
and civil society on critical issues, especially on the SDGs and human 
rights?

    Answer. If confirmed, I look forward to benefitting from the wisdom 
and experience available from Members of Congress and civil society, 
and will look for frequent opportunities to engage with the widest 
range of available expertise.

    Question. Now that we've given up our seat at the table, what is 
your strategy for ensuring that we advance U.S. priorities and 
initiatives at the U.N.?

    Answer. If confirmed, I will firmly and vocally advance U.S. 
priorities and initiatives at the United Nations, in the Security 
Council and elsewhere. I do not believe that we have given up our seat, 
and will work hard to demonstrate continued U.S. leadership whenever 
and wherever possible.

    Question. In your view, has the U.S. been more effective at pushing 
back against anti-Israel bias since leaving the Human Rights Council?

    Answer. The United States has been consistent over many years in 
prioritizing effective efforts to push back against anti-Israel bias 
around the world, including at the Human Rights Council (HRC) in 
Geneva, and at the U.N. headquarters in New York. The U.S. withdrawal 
from the HRC in 2018 did not change that. The myriad problems with the 
HRC have been well documented, including its unconscionable bias 
against Israel. Since its creation, the Council has adopted more 
resolutions condemning Israel than against the rest of the world 
combined. Ambassador Haley spent more than a year trying to reform the 
HRC. Her team met with more than 125 member states to press vigorously 
for HRC reform. The U.S. withdrew from the HRC as promised after the 
numerous opponents of HRC reform ensconced on the Council, including 
some of the worst sources of anti-Israel rhetoric, blocked the reforms. 
Nevertheless, the U.S. withdrawal from the HRC was not a retreat from 
our human rights commitments, from Israel, or from combating anti-
Israel bias. U.S. diplomats remain in Geneva pushing back daily against 
anti-Israel bias at every opportunity, and we have redoubled our 
efforts to do so in New York as well. As I stated in my testimony, the 
United States will never accept such bias, and if confirmed I commit to 
seizing every opportunity to shine a light on this conduct, call it 
what it is, and demand that these outrageous practices finally come to 
an end. It is a core U.S. priority to counter anti-Israel bias and 
ensure that Israel, as with any other member state, is treated fairly 
at the U.N.

    Question. What is your strategy for being an effective advocate for 
U.S. human rights priorities and to support Israel from outside the 
Council?

    Answer. If confirmed, I will continue to support Israel and pursue 
a robust human rights agenda at the United Nations General Assembly's 
Third Committee as well as other U.N. bodies, as the United States did 
during the other periods when we were not a Human Rights Council 
member.
    We will also redouble our efforts to bring a balanced approach to 
human rights issues to the Security Council, as we did during our last 
presidency when we held the first ever session on the linkage between 
human rights abuses and threats to international peace and security.
    In addition to bilateral engagement on human rights, we will 
continue to work to advance human rights in regional forums, like the 
Organization for Security and Cooperation in Europe, the Organization 
of American States, and other bodies. Similarly, we will continue to 
consult closely with our allies on taking actions not only to address 
the most egregious country situations, but also to challenge the anti-
Israeli bias that has infected the U.N. system.

    Question. Following the U.S.' withdrawal from the Human Rights 
Council, states, especially China, have rushed in to fill the vacuum. 
It has already pushed through resolutions endorsing its vision of a 
human rights paradigm in which States refrain from criticizing one 
another. Now it is working to dissuade Council members from pursuing a 
resolution criticizing its persecution of Muslim Uighurs in Xinjiang. 
What is your approach to countering China's actions at the Human Rights 
Council?

    Answer. Following the U.S. principled withdrawal from the Human 
Rights Council (HRC) in June 2018, the United States no longer 
participates in HRC activities. This includes working, publicly or 
privately, to influence the language or direction of resolutions put 
before the HRC.
    However, the United States has not abandoned advocacy for global 
human rights. On China's persecution of Uighurs and other ethnic and 
religious minorities in Xinjiang, the United States and partner 
countries in Geneva hosted an event on this issue in March of this 
year. The widely attended event featured testimony from experts and a 
survivor that highlighted the magnitude and severity of the crisis. The 
State Department and the U.S. Mission to the U.N. have also been 
active, both publicly and privately in advocating for U.N. High 
Commissioner for Human Rights Michelle Bachelet to visit Xinjiang with 
unrestricted access.
    The United States is, and will remain, the strongest advocate for 
the promotion and protection of human rights and fundamental freedoms. 
If confirmed, I will continue in the path trodden by my esteemed 
predecessors, who understood how critical human rights protections are 
to the maintenance of global peace and security.

    Question. If confirmed, what is your strategy to more effectively 
engage with smaller nations whose votes are just as important on many 
issues before the U.N.?

    Answer. If confirmed, I will prioritize outreach to smaller nations 
who may not have frequent opportunity to interact with the U.S. 
Permanent Representative. Relationship-building will be a continuous 
objective, and while that doesn't guarantee support in U.N. venues, it 
does help ensure that American views and perspectives are known, 
respected, and understood.

    Question. Do you believe that the U.S. should play a leadership 
role in addressing climate change?

    Answer. Yes. If confirmed, I will work to ensure that the United 
States advances and protects U.S. economic and environmental interests, 
including by participating in ongoing international climate change 
negotiations to ensure a level playing field for the United States.

    Question. Do you have a specific strategy to engage smaller island 
nations facing the impacts of climate change? The Marshall Islands in 
particular?

    Answer. If confirmed, I will engage proactively with the small 
island states to learn more about the particular challenges they face 
as a result of the changing climate.

    Question. The U.N. is in financial crisis right now and a big 
reason is connected to U.S. shortfalls. In December, all Member States 
agreed at the U.N. to new peacekeeping rates. For the U.S., the new 
peacekeeping rate dropped to 27.8% The U.S. voted in support of these 
rates and the U.S. mission to the U.N. even put out a fact-sheet 
touting how we benefit from them. Over the past 25 years, Congress has 
lifted the cap many times. Will you pledge to work with Congress on 
this issue so we can pay at the rate that the US agreed to just a few 
months ago?

    Answer. If confirmed, I am committed to working with Congress on 
the issue of funding for U.N. peacekeeping operations.

    Question. If confirmed, how will you use the U.S.'s Security 
Council seat to support continued enforcement of sanctions to prevent 
international transfers of arms that could be used in the commission of 
war crimes, genocide, or terrorist attacks?

    Answer. Maintaining Security Council solidarity on these issues 
will be a key priority if I am confirmed. Inhibiting the flow of 
weapons to terrorists and rogue regimes should be a commitment around 
which the word can rally, and I will be attentive to any potential 
relaxation within the Council.

    Question. If confirmed, how will you use the U.S.'s Security 
Council seat to support continued enforcement of North Korea sanctions?

    Answer. If confirmed, I will continue to use the U.S. seat on the 
Security Council to hold the DPRK accountable for its continued 
violation of U.N. Security Council Resolutions through its unlawful 
nuclear and ballistic missile programs, and to press for the full 
implementation of U.N. Security Council Resolutions worldwide until the 
final, fully verified denuclearization of the DPRK, as committed to by 
Chairman Kim in Singapore. I will also work closely with my State 
Department colleagues to ensure strong bilateral engagement with 
countries to point out lapses in implementation of the sanctions, and 
press for strong and continued sanctions enforcement.

    Question. Do you support the work of the U.N. Panel of Experts on 
North Korea, who are tasked with assessing global compliance with these 
measures, investigating cases of sanctions busting, and providing 
information to help strengthen enforcement?

    Answer. We support the work of the U.N. Panel of Experts on the 
implementation of U.N. sanctions on the DPRK, as its public reporting 
helps governments around the world to stay informed and implement 
sanctions imposed on North Korea. The Panel of Experts' analyses expose 
ongoing violations of the sanctions regime, emphasize the obligation of 
all member states to implement U.N. sanctions, and demonstrate the need 
for continued vigilance against entities involved in DPRK sanctions-
evasion activity. The United States takes the Panel of Experts' 
allegations of U.N. sanctions violations seriously, and engages with 
countries around the world to pressure the DPRK and ensure global 
implementation of U.N. Security Council obligations.

    Question. Will you be an advocate for adequate funding and access 
of the International Atomic Energy Agency (IAEA) in North Korea in the 
event that a diplomatic agreement is reached on that country's nuclear 
program?

    Answer. The United States strongly supports the vital work of the 
International Atomic Energy Agency (IAEA), including its efforts to 
plan and prepare for a resumption of safeguards and verification 
activities in North Korea if called upon to do so. While matters 
related directly to IAEA funding are under the primary purview of 
Ambassador Jackie Wolcott, who heads the U.S. Mission to the 
International Organizations in Vienna (UNVIE), if confirmed, I will 
support Ambassador Wolcott and work to ensure that the IAEA has the 
resources it needs to carry out its mandate.

    Question. What concrete measures will you take to protect those 
individuals who are on the frontlines of defending human rights in 
Guatemala?

    Answer. If confirmed, I will work with my Department of State 
colleagues to advance the protection of human rights defenders in 
Guatemala, and elsewhere in the world, and hold human rights abusers to 
account. We will continue to promote the uses of accountability 
mechanisms such as the Global Magnitsky Act and section 7031(c) of the 
2018 Department of State, Foreign Operations, and Related Programs 
Appropriation Act, against the perpetrators of abuses. We will also 
continue speaking out to condemn the wave of violence against embattled 
human rights defenders and urge the Guatemalan government to prioritize 
the defense of human rights in the country.

    Question. This [in reference to the previous question which asked, 
``What concrete measures will you take to protect those individuals who 
are on the frontlines of defending human rights in Guatemala?''] is 
just one example of attacks unfolding globally against human rights 
defenders. If confirmed, do you commit to vocalize this broader issue 
both privately and publically?

    Answer. Protecting and supporting human rights defenders (HRDs) is 
a key priority of U.S. foreign policy. The United States supports HRDs 
as they work to protect human rights and fundamental freedoms, advocate 
for government transparency and accountability, promote rule of law, 
and expose corruption. HRDs, as well as their families, friends, and 
associates, are often harassed, detained, interrogated, imprisoned, 
tortured, and killed for doing the work of promoting accountability and 
protecting human rights. If confirmed, I will commit to supporting the 
efforts of HRDs to promote and defend human rights and fundamental 
freedoms without undue restriction and free from reprisals against them 
or their families.

    Question. What other specific actions do you pledge to take to help 
protect human rights defenders around the globe?

    Answer. The United States works to strengthen institutional 
frameworks for the promotion of human rights, protection systems for 
human rights defenders (HRDs), rule of law, and communications and 
collaboration between governments and civil society. At the U.N., the 
United States strongly supports resolutions that address the freedoms 
of expression and association and the right to peaceful assembly, as 
well as a biennial resolution on the situation of HRDs. The United 
States also uses foreign assistance, visa restrictions, and 
multilateral and bilateral engagement to promote accountability and 
support partners in implementing reforms. The United States partners 
with other donor governments to provide emergency financial assistance 
to embattled civil society around the world, with a goal of enabling 
these individuals and groups to return to their vital work of 
advocating for the advancement of human rights and fundamental freedoms 
in their countries. If confirmed, I will commit to supporting the 
efforts of HRDs to promote and defend human rights and fundamental 
freedoms without undue restriction and free from reprisals against them 
or their families.

    Question. Do you believe that the crimes in Burma amount to crimes 
against humanity or genocide?

    Answer. I am deeply concerned about and appalled by the Burmese 
military's ethnic cleansing of Rohingya and the ongoing humanitarian 
crisis, as well as the military's egregious human rights abuses 
throughout Burma. The process for deciding whether and when to make a 
determination that certain acts may amount to genocide, crimes against 
humanity, or ethnic cleansing, has historically been reserved within 
the Executive Branch to the Secretary of State. If confirmed, I will 
seek to advise the Secretary on such a determination as it fits into 
the Department's overarching objectives of easing the humanitarian 
crisis, seeking accountability for those that committed atrocities, 
deterring future such atrocities, and addressing root causes of 
violence.

    Question. Will you pledge to support international actions that 
seek to address the ongoing genocide in Burma in your position?

    Answer. If confirmed, I would use my position to work with like-
minded countries and regional partners to press the government of Burma 
to grant unhindered humanitarian and media access to Rakhine State and 
areas experiencing violence, pursue accountability for those 
responsible, and implement reforms that will prevent the recurrence of 
atrocities and other human rights violations and abuses. I would also 
continue to support established U.N. mechanisms, including the 
International Investigative Mechanism for Myanmar, the U.N. Special 
Rapporteur on Myanmar, and the U.N. Special Envoy to Myanmar. The 
United States has played a key role in creating and funding these 
mechanisms and has supported their efforts to seek justice for victims.

    Question. In what ways will you engage on the Security Council to 
promote this issue?

    Answer. If confirmed, I would support and lead efforts at the 
Security Council that advance the Department's overarching objectives 
of easing the humanitarian crisis, seeking accountability for those 
that committed atrocities, deterring future such atrocities, and 
addressing root causes of violence. Specifically, I would encourage 
other donors to give generously to humanitarian efforts; continue the 
United States' leadership on multilateral accountability efforts; and 
press the government of Burma to undertake overdue reforms in Rakhine 
State to enable the voluntary return of Rohingya and prevent future 
crises.

    Question. If confirmed, how do you propose to use your position to 
resolve the Rohingya refugee crisis?

    Answer. If confirmed, I will continue the Department's efforts to 
engage, influence and lead actions of the international community, 
including with like-minded states, non-traditional partners, and 
international organizations, to resolve the Rohingya crisis and advance 
U.S. interests and values in Burma. I will seek to support efforts and 
mechanisms at the United Nations to foster accountability for human 
rights abuses and violations in Rakhine State and other areas of Burma. 
These include the Independent Investigative Mechanism for Myanmar, the 
U.N. Special Envoy to Myanmar and the U.N. Special Rapporteur on the 
human rights situation in Myanmar.

    Question. What measures will you employ to ensure that the 
Government of Bangladesh and Burmese government are consulting with 
Rohingya refugees regarding their futures?

    Answer. Thanks to Congress's leadership and generosity, the United 
States is the leading contributor of humanitarian assistance in 
response to the Rohingya crisis, having provided nearly $542 million 
since the escalation of violence in August 2017. If confirmed, I would 
work to ensure that any repatriation of Rohingya is voluntary, safe, 
dignified, and sustainable. Further, I would use forums at the United 
Nations to highlight the ongoing plight of Rohingya refugees, the 
generosity of Bangladesh in hosting more than one million refugees, and 
the urgent need for Burma to address the root causes of the crisis to 
create the conditions that would allow for voluntary, safe, dignified, 
and sustainable returns.

    Question. A High-Level Commission on Health Employment and Economic 
Growth called by the U.N. Secretary-General in 2016 concluded that 
investments in health have a nine-fold return and accounted for about 
one quarter of economic growth between 2000 and 2011 in low- and 
middleincome countries, having an outsized impact for women, who make 
up about 70% of the health and social workforce worldwide. 
Simultaneously, the world faces a projected shortfall of 18 million 
health workers by 2030, which threatens to derail the tremendous 
progress the United States has spearheaded in saving lives around the 
world and also leaves us more vulnerable to infectious disease threats 
like Ebola. How will you prioritize U.S. leadership at the U.N. to help 
spur the investments needed in health employment to drive global 
economic growth and women's economic empowerment while simultaneously 
tackling our greatest global health challenges?

    Answer. The United States welcomed the Report of the High-Level 
Commission on Health Employment and Economic Growth; we continue to 
support its important recommendations regarding measures to address the 
global shortfall of trained health workers. The Commission's work has 
helped guide action that advances employment and economic growth in 
low- and middle-income countries. The U.N. action has been led by the 
World Health Organization.

    Answer. WHO's Global Health Workforce Network is a key mechanism to 
implement the Commission's recommendations through WHO's five-year 
action plan. We support these efforts to help countries grow their 
health workforce and share data on workforce issues for decision 
making.

    Question. Over the last two years, the United States has staked out 
positions on sexual and reproductive health and rights during 
negotiations on important resolutions and outcome documents that have 
alienated our allies. The most egregious example was during the 
Security Council resolution on Sexual Violence in Conflict that the 
United States almost vetoed until two last-minute changes. The first 
was removal of the mechanism that would have allowed women who had been 
victims of sexual violence in conflict access to health care and other 
forms of redress. The second was removal of the words "sexual and 
reproductive health and rights." As someone that has worked closely 
with our Canadian allies the past two years, you understand the time 
and commitment it takes to get consensus on diplomatic agreements. Can 
you commit to this committee that you will work closely with our allies 
to ensure these important resolutions and outcome documents will be 
given the appropriate attention and that you will protect the rights of 
women and girls around the world?

    Answer. The United States is committed to promoting the rights and 
well-being of women. In negotiating U.N. documents, U.S. delegation 
members often include senior officials and subject matter experts who 
seek to work constructively with other Member States toward achieving 
consensus.
    The administration has concerns about terminology related to sexual 
and reproductive health that do not enjoy international consensus. The 
use of these phrases by U.N. agencies and U.N. affiliates often implies 
abortion. The administration will do all it can do to protect and 
respect the sanctity of life around the globe.
    In its advocacy for women, the administration continues to hold to 
the commitments laid out in the 1995 Fourth World Conference on Women's 
Beijing Declaration and Platform for Action, as well as in the 1994 
International Conference on Population and Development'sProgram of 
Action. The United States moreover remains the largest bilateral donor 
of women's health and family planning assistance worldwide.

    Question. UNFPA has long counted on U.S. generosity and guidance in 
expanding its programs. From a maternal health clinic in the Za'atari 
refugee camp in Jordan that delivered 10,000 babies without a single 
maternal death, to leading the U.N. system's efforts to end child 
marriage, U.S. bilateral efforts are amplified by UNFPA, and the other 
way around. UNFPA has been on the forefront of working with the private 
sector to deliver on a world that ends obstetric fistulas and providing 
access to contraceptives for any woman who desires them. Will you 
commit to actually going to see the work of UNFPA as Ambassador to the 
U.N. and giving this committee a real answer as to why the U.S. has 
defunded a program that does not provide access to abortion and 
continues to call out forced abortions and female infanticide as human 
rights abuses?

    Answer. As we discussed in during our visit in your office, I am 
wholly committed to maternal and child health programs and 
organizations across the globe. If confirmed, I will look into the 
questions you posed and welcome further discussion.

    Question. A May 2019 report of the Safeguarding Health in Conflict 
Coalition documents at least 973 attacks on health workers, health 
facilities, health transports, and patients in 23 countries in conflict 
around the world in 2018--from the DRC to Yemen, Syria, to the 
Philippines. At least 167 health workers died and at least 710 were 
injured. This marks an increase in the number of documented attacks 
compared to 2017, when the Coalition reported 701 such attacks. What is 
the role of the United States in ensuring compliance of U.N. Security 
Council Resolution 2286 passed in May 2016 to document and conduct 
investigations of attacks on health workers and facilities?

    Answer. The United States has repeatedly urged member states to 
renew their commitment to the implementation of U.N. Security Council 
resolution 2286, which the Security Council passed unanimously in 2016. 
The Security Council demanded that the international community mobilize 
in an effort to prevent attacks on health services in armed conflict 
and hold those responsible for such attacks accountable. Three years 
later, however, a staggering number of attacks on health facilities, 
health workers, ambulances, and patients continue to take place across 
the globe. Impunity for such violations and abuses must come to an end. 
The United States strongly supports efforts to promote access to 
humanitarian relief, including medical care, for civilians in 
situations of armed conflict. If confirmed, I will work with other 
members of the U.N. Security Council to ensure the full implementation 
of resolution 2286.

    Question. What more can and should be done to ensure that health 
workers and the civilians they serve are protected in humanitarian 
emergencies?

    Answer. The United States is a leader in promoting the safety and 
security of humanitarian personnel as well as the protection of U.N. 
personnel. Last year we co-sponsored a General Assembly resolution on 
this matter, which we felt sent a message of concern and solidarity to 
the many courageous people who risk their lives to deliver humanitarian 
assistance to the millions of people across the world who suffer as a 
result of natural disasters and armed conflict, and other crises. 
Humanitarian health workers put their own lives in jeopardy to save the 
lives. The U.S. acknowledges that there have been far too many 
casualties and deaths among humanitarians who were working to reach 
people in need, in particular in Syria, Afghanistan, and South Sudan.
    To underline our message, the U.S. routinely calls on parties to 
armed conflict to comply with their obligations under international 
humanitarian law, and to take every action to provide unhindered access 
to humanitarian organizations and to respect their independence and 
neutrality. Humanitarian workers cannot be perceived as affiliated with 
any side of the political divide, as such perceptions present risks to 
workers, their beneficiaries, and life-saving programs. Respecting 
humanitarian principles of neutrality, impartiality, and independence 
are essential for the effectiveness of humanitarian aid, as well as for 
workers' personal security.

    Question. International Human Rights NGOs play a critical role in 
highlighting abuses and pressing for accountability in many forums 
including the United Nations. Will you commit to working closely with 
human rights and humanitarian civil society organizations and to 
briefing the NGO Working Group on the Security Council (as almost all 
your predecessors have done?)

    Answer. The United States strongly supports the participation of 
civil society organizations in the work of the U.N. and giving them a 
voice in the U.N. system. As a member of the U.N. Committee on Non-
Governmental Organizations, the United States works to ensure that NGOs 
that meet the applicable criteria gain U.N. accreditation to 
participate in U.N. fora and events and contribute to the U.N.'s work. 
Because of the membership and increasing politicization of the 
committee, obtaining U.N. accreditation has been particularly difficult 
for human rights and humanitarian organizations. The practice of some 
committee members of blocking certain organizations based on their 
political views restricts which NGOs obtain U.N. accreditation. 
Moreover, some U.N. member states block the participation of human 
rights and humanitarian organizations in highlevel U.N. meetings and 
summits by establishing a "no objection" procedure. If confirmed, I 
will support efforts to increase the participation of civil society, 
including human rights and humanitarian organizations, in the U.N.'s 
work and to eliminate the abusive "no objection" procedure. 
Additionally, the U.S. Mission to the U.N. has welcomed engagement with 
NGOs, including through the NGO Working Group on the Security Council, 
and I would look forward to continuing that productive relationship if 
confirmed.

    Question. Armed conflict, political instability, climate change, 
and other factors have led to an unprecedented growth in global 
humanitarian needs. U.N. agencies like the World Food Program (WFP), 
U.N. Refugee Agency (UNHCR), U.N. Children's Fund (UNICEF), and U.N. 
Population Fund (UNFPA) are leading the global response, providing 
food, shelter, medical care, education, maternal health care, and other 
forms of life-sustaining aid to tens of millions of people around the 
world. The U.S. helped create these agencies, and has long been the 
largest donor to U.N. humanitarian appeals. Do you believe that it is 
important for the U.S. to continue to work with the U.N. to address 
humanitarian crises around the world?

    Answer. I understand that the United States continues to be the 
single largest donor of humanitarian assistance, having provided more 
than $8 billion in FY 2018, and the preponderance of our humanitarian 
assistance is provided through multilateral channels--most of them U.N. 
agencies. With the U.N. High Commissioner for Refugees having reported 
this week that displacement has doubled in just the past 20 years, U.S. 
policy goals for humanitarian assistance increase in importance. These 
go beyond saving lives and easing suffering through efficient and 
effective humanitarian assistance, to include increasing burden-
sharing, driving reforms in the humanitarian system, and funding more 
activities and programs that demonstrate coherence between relief and 
development. The U.N. is a major focus of these efforts.

    Question. Due to the ever-increasing scale of needs in recent 
years-brought on by conflict in Yemen, Syria, Iraq, South Sudan, DR 
Congo, Myanmar, and Afghanistan, among other places-UN humanitarian 
appeals are chronically underfunded. If confirmed, will you press for 
the U.S. to continue to provide robust financial support to the work of 
these activities, and will you push other countries to do the same?

    Answer. Yes, I will. I understand that the United States continues 
to be the single largest donor of humanitarian assistance, having 
provided more than $8 billion in FY 2018. With the U.N. High 
Commissioner for Refugees having reported this week that displacement 
has doubled in just the past 20 years, U.S. policy goals for 
humanitarian assistance increase in importance. These go beyond saving 
lives and easing suffering through efficient and effective humanitarian 
assistance, to include increasing burden-sharing, driving reforms in 
the humanitarian system, and funding more activities and programs that 
demonstrate coherence between relief and development.

    Question. On December 19, 2018, the U.N. General Assembly voted to 
endorse the Global Compact on Migration (GCM). The U.S. was one of the 
few countries that voted against. The GCM paves the way for an ordered 
international response to migration and would serve as a template to 
ensure the rights and dignity of migrants around the world. Do you 
support U.S. opposition to the GCM?

    Answer. I understand that the United States does not support the 
Global Compact on Migration (GCM) or the process that led to it because 
they included goals and objectives inconsistent and incompatible with 
U.S. law, policy, and the interests of the American people. As the U.S. 
national statement on the GCM noted, "While the United States honors 
the contributions of the many immigrants who helped build our nation, 
we cannot support a `Compact' or process that imposes or has the 
potential to impose international guidelines, standards, expectations, 
or commitments that might constrain our ability to make decisions in 
the best interests of our nation and citizens." Further, I understand 
there is lack of consensus among U.N. member states regarding the GCM. 
When it came up for endorsement at the U.N. General Assembly on 
December 19, 2018, the United States, the Czech Republic, Hungary, 
Israel, and Poland voted against it, another 12 other countries 
abstained, and 24 did not vote.

    Question. The United Nations Office of the High Commissioner for 
Human Rights (OHCHR) is an important United Nations agency in the 
mainstreaming of human rights throughout the U.N. system, and is tasked 
with promoting and protecting human rights in all U.N. member states. 
The U.N. Special Procedures system plays a vital role in protecting 
human rights via the work of Special Rapporteurs, Independent Experts 
and Working Groups, among other such mechanisms. On January 4, the 
Guardian reported that the U.S. Department of State has quietly ended 
its cooperation with these experts. Will you commit to ensuring that 
the U.S. delegation collaborates and supports the work of the OHCHR and 
that of special procedures mandate holders, including in cases when 
they are investigating potential human rights violations in the United 
States?

    Answer. We continue to cooperate with U.N. special procedures. 
Given the broad range of mandates and requests, we prioritize our 
interactions to ensure that engagement maximizes the promotion of U.S. 
objectives. In February, the Department met twice with the 
SpecialRapporteur for extrajudicial, summary, or arbitrary executions, 
at her request, to discuss the Global Magnitsky sanctions program and 
her inquiry into the killing of Jamal Khashoggi. Over the past several 
months, Department officials and our Missions in New York and Geneva 
have also met with numerous mandate holders, including: the Independent 
Expert on the Central African Republic; the Special Rapporteurs on 
Burma as well as Freedom of Religion or Belief, among others.

    Question. All 193 U.N. member states are subject to a Universal 
Periodic Review (UPR) of their human rights record once every 4.5 years 
by the U.N. Human Rights Council. This presents a valuable opportunity 
to hold all member states accountable for their human rights track 
record. Will you champion continued participation in this process?

    Answer. Yes. The UPR process is a valuable tool: each of the 193 
U.N. member states reviewed has the opportunity to state actions taken 
to improve the human rights situations in their countries, and to 
provide an assessment of the human rights situation in other countries. 
We take this process seriously, as we view it as a powerful means to 
shine a spotlight on human rights violations and abuses, recommend 
concrete actions to prevent such violations and abuses, and to follow 
up on implementation of recommendations.

    Question. The U.S. is coming up for its third review under the UPR 
in April/May 2020 [the 36th session of the UPR working Group]. Will you 
commit to supporting U.S. cooperation with the review?

    Answer. Yes. The United States is rightfully proud of its human 
rights record. It has served and will continue to serve as a model for 
other nations. Our previous reports have discussed that record, 
including areas of strength, such our record on core freedoms of 
speech, association and belief. We have also previously addressed a 
range of challenges, including issues of discrimination and topics 
related to civil liberties in the context of national security. The 
U.S. UPR report is just one element of a broad U.S. effort to engage 
broadly, substantively, and constructively on human rights issues.

    Question. The U.S. has been a leader and important voice at the 
U.N. in support of the work of human rights defenders (HRDs) worldwide, 
publicly calling out states that violate their rights, including in the 
context of counter-terrorism. Currently we are witnessing increasing 
physical and legislative attacks on HRDs across the world--they are 
frequently detained, tortured and even killed because of their work. If 
confirmed, will you commit to increasing political support given by the 
U.S. Mission to HRDs, using opportunities at the U.N. to publicly 
denounce states for violations whenever and wherever they occur, and 
ensuring that HRDs have access themselves to U.N. mechanisms?

    Answer. The United States supports the U.N. Declaration on the 
Right and Responsibility of Individuals, Groups and Organs of Society 
to Promote and Protect Universally Recognized Human Rights and 
Fundamental Freedoms, more commonly called "The Declaration on Human 
Rights Defenders." To do their vital work, human rights defenders 
(HRDs) must be able to exercise their fundamental freedoms of 
expression, movement, and association, and their right to peaceful 
assembly. Their work is a critical safeguard against threats from 
repressive powers, corrupt actors, autocratic regimes, and backsliding 
democracies. An open, empowered, and fully functioning civil society, 
inclusive of all types of HRDs, is critical to healthy democracies. 
Where their ability to work freely is weakened, human rights abuses and 
violations, discrimination, and corruption flourish. If confirmed, I 
will commit to supporting the efforts of HRDs to promote and defend 
human rights and fundamental freedoms without undue restriction and 
free from reprisals against them or their families.

    Question. As Yemen is now the biggest humanitarian disaster in the 
world, a direct result of the three-year long Saudi and UAE coalition-
led war, it is imperative that the Security Council take immediate 
action to not only improve the situation on the ground but make sure 
that human rights violators are held to account. Resolution 2451 was 
adopted by the Council at the end of last year, but it did not mention 
accountability. If confirmed, will you push for a follow-up resolution 
that calls on those who committed gross human rights violations to be 
held to account?

    Answer. The United States encourages all parties to the conflict to 
adhere to international human rights law, and supports efforts to 
ensure that violators are held accountable, including by allowing media 
and NGOs access to Yemen to report on and document allegations of human 
rights abuses. The Department of State and USUN continue to support the 
efforts of U.N. Special Envoy for Yemen Martin Griffiths to mediate 
between the parties to reach a political settlement that will end the 
conflict and dire humanitarian crisis. In December, the United States 
shaped the language of and voted in favor of U.N. Security Council 
Resolution 2451 to endorse the agreements the parties reached in Sweden 
to build momentum for their implementation. The timing and content of 
follow-on Resolutions will be driven by the U.N. Special Envoy, and the 
United Kingdom, which is the penholder for Yemen in the Council. If 
confirmed, I will continue to support language that facilitates and 
supports the Special Envoy's efforts on the U.N.-led political track to 
end the conflict.

    Question. The conflict raging in Libya has shown blunt disrespect 
of International Humanitarian Law, with actions by parties that could 
amount to war crimes under international law. Would you commit to 
promoting the protection of the human rights of the civilian population 
affected by the current conflict even if that would mean criticizing 
actions by parties to which the President has recently expressed 
support?

    Answer. The ongoing fighting in Tripoli has exacerbated an already 
troubling situation for human rights in Libya. A ceasefire in Tripoli 
and a return to U.N. political mediation are necessary to address the 
deteriorating humanitarian situation, support human rights, and build 
democratic institutions. If confirmed, I will stand against impunity, 
and support efforts to bring to justice those responsible for 
atrocities in Libya. Accountability not only provides justice for 
victims of past violations and abuses, but also signals that future 
violations and abuses will not be tolerated.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Hon. Kelly Craft by Senator Jeanne Shaheen

    Question. Thank you for your commitment to look into the evidence 
used to underpin the determination against the U.N. Population Fund 
(UNFPA) under the Kemp-Kasten Amendment; I look forward to hearing more 
about the results of your examination. I also appreciate your 
commitment to meet with the Executive Director of UNFPA. Will you 
further commit to discussing with UNFPA leadership the ways in which 
UNFPA can change its programming in order to avoid another negative and 
devastating Kemp-Kasten determination? Will you also commit to meet 
with the Executive Director of U.N. Women expeditiously upon your 
arrival at the United Nations, should you be confirmed?

    Answer. I understand your deep concerns related to these issues and 
admire your leadership with regard to promoting women, girls, and 
families. If confirmed, I will look into the questions you posed 
regarding UNFPA. I would also welcome the opportunity to meet with the 
Executive Director of U.N. Women, if confirmed.

    Question. On March 30, 2017, the State Department made a negative 
Kemp-Kasten determination against UNFPA because UNFPA ``continues to 
partner with the [National Health and Family Planning Commission] on 
family planning.'' Unfortunately, UNFPA's work in conflict areas and 
places of instability has become more critical since the determination. 
UNFPA programs provide vital health services and protection services. 
If confirmed, will you look into ways that the U.S. government can work 
with UNFPA to continue to provide these services, even if the Kemp-
Kasten determination is sustained?

    Answer. As we discussed in during our visit in your office, I am 
wholly committed to maternal and child health programs and 
organizations across the globe. If confirmed, I will look into the 
question you posed and welcome further discussion.

    Question. Do you believe that climate change is a real and present 
threat to our health, environment, economy, and way of life?

    Answer. I believe that climate change needs to be addressed, as it 
does pose very real risks for our planet and all its living creatures.

    Question. On March 5, 2019, 58 intelligence leaders, combatant 
commanders and national security officials as well as former 
secretaries of Defense and State who served in Republican and 
Democratic administrations wrote a letter to President Trump concerning 
national security threats related to climate change. Do you agree with 
these military leaders and former officials that climate change is a 
threat to the national security of the United States?

    Answer. I am aware of this letter, including that it was signed by 
former intelligence leaders, combatant commanders, and national 
security officials. I agree with them that climate change poses very 
real risks and must be addressed.

    Question. Do you believe the United States should be working with 
the global community to address the economic, environmental and health 
impacts of climate change?

    Answer. I believe that there are numerous international venues 
where climate-related issues can and should be discussed. If confirmed, 
I look forward to participating in some of these discussions, where I 
will underscore American ingenuity and innovation as important tools to 
mitigate the impacts of climate change.

    Question. During your verbal testimony before the Senate Foreign 
Relations Committee on June 19, 2019, you said that if confirmed, you 
would be an advocate in addressing climate change. Please describe how, 
if confirmed as the United States Representative to the United Nations, 
you would advocate for effective climate change action.

    Answer. If confirmed, I will use important U.N. venues, including 
the Security Council, to highlight American leadership on climate-
related issues, underscoring a balanced approach that unlocks research 
and innovation while safeguarding the American economy. I believe this 
model offers the best hope for tackling climate change and its related 
challenges.

    Question. In 1992, the United States ratified the United Nations 
Framework Convention on Climate Change (UNFCCC), an international 
treaty with a global objective to ``stabilize greenhouse gas 
concentrations in the atmosphere at a level that would prevent 
dangerous anthropogenic interference with the climate system.'' In 
2015, members of the UNFCCC, including the United States, adopted by 
consensus the Paris Agreement, aimed at limiting global warming to less 
than two degrees Celsius, and pursue efforts to limit the rise to 1.5 
degrees Celsius. On April 22, 2016, the United States became a 
signatory to the Paris Agreement, and accepted it by executive order on 
September 3, 2016. Do you support the United States' involvement in the 
Paris Agreement? If not, how do you suggest the United States 
contribute to efforts to reduce global emissions contributing to 
climate change?

    Answer. I agree with the President, who examined the Paris climate 
agreement and determined that it was a bad deal for the United States. 
While the U.S. made a significant and serious commitment in that 
agreement, others, including China and India did not make similarly 
stringent commitments. The United States does not need to be a part of 
such an agreement to show real leadership on climate change, and if 
confirmed I will focus the U.N.'s attention on the power of American 
ingenuity and innovation to mitigate the impacts of climate change.

    Question. On June 1, 2017, President Trump announced his intention 
to withdraw the United States from the Paris Agreement. In accordance 
with Article 28 of the Paris Agreement, the earliest possible effective 
withdrawal date by the United States is November 4, 2020. The United 
States is still obligated to maintain certain commitments under the 
UNFCCC, such as continuing to report its emissions to the U.N. If 
confirmed, will you ensure that the United States continues to meet its 
obligations under the Paris Agreement?

    Answer. The President has made it clear that the United States will 
withdraw from the Paris Agreement, absent better terms for the United 
States. It is my understanding that while the United States remains a 
Party to the UNFCCC, the United States is not taking on burdens or 
financial pledges in support specific to the Paris Agreement.

    Question. During his June 2, 2017, President Trump also announced 
his intention to negotiate our way back into Paris or ``negotiate a new 
deal.'' If confirmed, would you support efforts to negotiate an 
agreement for the United States to remain in the Paris accords?

    Answer. As the U.S. Ambassador to Canada, I have not been engaged 
in internal U.S. deliberations on this matter, so I do not have further 
information to share on this subject at this time. Irrespective of our 
position on the Paris Agreement, the United States will continue to be 
a world leader in providing affordable, abundant, and secure energy to 
our citizens, while protecting the environment and reducing emissions 
through job-creating innovation.



                               __________


            Responses to Additional Questions for the Record
     Submitted to Hon. Kelly Craft by Senator Christopher A. Coons

    Question. What can and should the United States do to lead an 
international response to the outbreak of Ebola in the Democratic 
Republic of Congo? What role should the United Nations and MONUSCO play 
in that response?

    Answer. The U.S. is a leading donor and we are providing extensive 
technical support to responders in the DRC and neighboring countries. I 
firmly commit to continue our active engagement with our international 
partners to ensure sufficient financial resources are dedicated to the 
crisis, and also to ensure sufficient Ebola vaccine supply is available 
if the outbreak escalates. U.N. system-wide involvement is critical to 
address the complex humanitarian crisis in Ebola-affected areas of the 
DRC. MONUSCO secures routes for humanitarian access, provides escorts 
and some protection for humanitarian personnel, and operates security 
evaluation centers to assess threats along with a Tactical Operations 
Center to manage responses to violence.

    Question. Does the United States Government still support a two 
state solution to the Israeli-Palestinian conflict? Do you personally 
support Israeli annexation of the West Bank?

    Answer. This administration continues to work towards a 
comprehensive and lasting peace between Israel and the Palestinians 
that offers a brighter future for all. The President has said very 
clearly that the United States will support any solution that the 
parties can live with. That includes a two-state solution, if the two 
parties agree. I understand that no plan for annexation of the West 
Bank has been presented by Israel to the administration.

    Question. How does the United States' withdrawal from United 
Nations agencies and going deeper into arrears by not paying our 
assessed contribution help the United States maintain influence at the 
United Nations and push back on China's attempts to increase its own 
influence?

    Answer. The United States Government remains the largest 
contributor to the United Nations. Already this fiscal year, for 
example, the Department has contributed $550 million for the U.N. 
regular budget. China, the next largest contributor, has provided $335 
million. During the current U.N. peacekeeping financial year, the 
Department has provided nearly $2 billion for U.N. peacekeeping 
operations. China has provided approximately $900 million.
    If confirmed, I will work to ensure that U.S. national interests 
are well represented at the United Nations.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Hon. Kelly Craft by Senator Tom Udall

    Question. In January the Department of Defense stated, ``The 
effects of a changing climate are a national security issue with 
potential impacts to DoD missions, operational plans, and 
installations.''
    DoD followed up this conclusion with a lengthy discussion on 
possible impacts to almost two-thirds of military bases throughout the 
world, including Kirtland Air Force Base and White Sands Missile Range 
in New Mexico, and McConnell Air Force Base in Kansas.


   Do you disagree with Chairman of the Joint Chiefs of Staff General 
        Dunford that climate change is, ``in the category of sources of 
        conflict around the world and things we'd have to respond to?'' 
        Or with former Secretary Mattis who said, ``Climate change is 
        impacting stability in areas of the world where our troops are 
        operating today?'' If so, why do you disagree?

    Answer. I believe that climate change is a complex global 
challenge. If confirmed, I will continue to work to protect U.S. 
national security interests and address complex security and 
environmental challenges.

    Question. Will you recommend to the President, the Secretary of 
State, and the National Security Advisor, that they seek an 
authorization from Congress as required by the Constitution before 
entering into any hostilities with Iran?

    Answer. The administration does not seek war with Iran. The 
President, the National Security Advisor, and the Secretary of State 
have been clear about this. However, we have been equally clear that if 
American citizens or interests are threatened or attacked, we will 
respond in an appropriate fashion. Any action we take with respect to 
Iran will be lawful. As the situation with Iran continues to evolve, we 
are committed to engagement with Congress, especially regarding matters 
of national security.

    Question. Will you recommend to the President, the Secretary of 
State, and the National Security Advisor that the United States seek 
the approval of the U.N. Security Council prior to entering into any 
hostilities with Iran?

    Answer. The administration does not seek war with Iran. The 
President, the National Security Advisor, and the Secretary of State 
have been clear about this. However, we have been equally clear that if 
American citizens or interests are threatened or attacked, we will 
respond in an appropriate fashion. A key element to the 
administration's Iran policy is strong diplomatic engagement with our 
partners and allies, including via the U.N. Security Council. Iran's 
destructive actions will only serve to further isolate it on the 
international stage.

    Question. Do you agree with statements made by Secretary Pompeo in 
Poland that ``You can't achieve stability in the Middle East without 
confronting Iran.?'' Or would you endorse statements from Prime 
Minister Netanyahu in Poland that we're ``sitting down together with 
Israel in order to advance the common interest of war with Iran.''?

    Answer. Addressing Iran's malign behavior is a top priority of this 
administration and crucial to the stability of the region. During the 
``Ministerial to Promote a Future of Peace and Security in the Middle 
East,'' held in Warsaw, Poland February 13-14, foreign ministers and 
representatives from 62 nations and entities, including Israel, came 
together to advance common interests around terrorism, proliferation, 
and the escalation of conflicts in the region. The destabilizing 
activities of Iran were highlighted in all of these areas, and Warsaw 
participants discussed how we could respond to Iran's actions.

    Question. Do you believe that closing the southern border, as 
President Trump proposed, is a realistic option under any current 
circumstances?

    Answer. President Trump is committed to securing our southern 
border, as am I. There is an urgent border security and humanitarian 
crisis at our southern border. A comprehensive approach is necessary to 
further improve security on the border. I understand that the State 
Department is engaged in an ongoing dialogue with our Mexican partners 
to ensure coordination and to exchange information on joint efforts to 
secure and modernize the border, and if confirmed, I will prioritize 
efforts to address these issues to resolve the crisis.

    Question. Our southern border increasingly looks like a war zone, 
like Germany with the Berlin Wall or the DMZ on the Korean peninsula. 
We have border patrol agents harassing and separating families, and 
caging children. Members of the military supporting a made up 
emergency. When the reality is that U.S. border communities are just as 
safe--and often safer--than anywhere else in our country. This --is 
reminiscent of how enemies treat one another. Is Mexico the enemy of 
the United States? Do you believe our country is ``full'' as the 
President has said and that we should not accept any more asylum 
seekers or immigrants?

    Answer. Mexico is a vital and valued partner of the United States. 
We work together on a wide range of issues, including trade, border 
security, stemming the flow of illegal immigration and cooperation on 
counternarcotics. Illegal immigration is a challenge shared across the 
globe and, if confirmed, I will work with all our partners on this 
issue.
    The United States is a welcoming home for immigrants. In the last 
year alone, we welcomed more than 1.1 million legal immigrants to our 
country and our communities. The United States is proud of this legacy. 
We are also proud to be a nation of laws and a nation with recognized 
and respected borders.

    Question. Do you believe that the U.S. should separate children 
from their families when they arrive here seeking asylum, in order to 
deter them?

    Answer. Illegal immigration is a challenge shared across the globe. 
The Department of State promotes safe, well-managed, and legal 
immigration. If confirmed, I will work with all of our partners on this 
important issue. For more information on U.S. immigration enforcement 
policies, I would refer you to the Department of Homeland Security.

    Question. Do you agree with 5 former U.S. Southern Command generals 
who wrote a statement earlier this year saying, ``cutting aid to the 
region will only increase the drivers [of migration] and will be even 
more costly to deal with on our border''?

    Answer. The President has made it clear that he believes that 
Guatemala, Honduras, and El Salvador should do more to stop the flow of 
illegal immigrants to the United States. We expect the Northern 
Triangle governments to keep their commitments to stem illegal 
immigration to the United States. Political will and strong partnership 
are critical to ensuring the success of any foreign assistance program. 
We need to spend U.S. taxpayer dollars wisely and where they will be 
most effective.

    Question. Would you recommend to the President to cut Central 
American funding which is designed to stop the root causes of the 
problems in these countries that are leading to these asylum seekers?

    Answer. We are following the President's decision to stop 
obligations of new funding to the countries of El Salvador, Honduras, 
and Guatemala. He has made it clear that these countries need to do 
more to stop the flow of illegal immigrants to the United States. The 
governments of the Northern Triangle need to take immediate and 
concrete action to demonstrate their commitment to addressing the 
crisis at our southern border. The President has concluded that these 
programs have not effectively prevented illegal immigrants from coming 
to the UnitedStates.

    Question. In January the Department of Defense stated, ``The 
effects of a changing climate are a national security issue with 
potential impacts to DoD missions, operational plans, and 
installations.''

    Answer. DoD followed up this conclusion with a lengthy discussion 
on possible impacts to almost two-thirds of military bases throughout 
the world, including Kirtland Air Force Base and White Sands Missile 
Range in New Mexico, and McConnell Air Force Base in Kansas.

    Question. Do you disagree with Chairman of the Joint Chiefs of 
Staff General Dunford that climate change is ``in the category of 
sources of conflict around the world and things we'd have to respond 
to''? Or with former Secretary Mattis who said, ``Climate change is 
impacting stability in areas of the world where our troops are 
operating today''? If so, why do you disagree?

    Answer. I believe that climate change is a complex global 
challenge. If confirmed, I will continue to work to protect U.S. 
national security interests and address complex security and 
environmental challenges.

    Question. All of the IAEA inspectors who are in the field today 
receive training from our nuclear experts at the national labs on how 
to identify violations to the Nonproliferation Treaty. Will you engage 
with the national labs and the National Nuclear Security Administration 
to address key issues regarding nonproliferation and take a science 
based approach to countering would be proliferators in the future?

    Answer. Our national laboratories provide technical expertise and 
unique facilities and capabilities that are critical to strengthening 
the global nonproliferation regime and protecting our national 
security. If confirmed, I will work with Ambassador Wolcott at the U.S. 
Mission to the International Organizations in Vienna (UNVIE) and other 
colleagues at the Departments of State and Energy, the National Nuclear 
Security Administration, and other agencies to ensure that we leverage 
our national laboratories to advance strong nonproliferation policies 
and programs, including those that train IAEA inspectors.

    Question. What is your stance on key multilateral treaties that the 
United States is signatory to but has not ratified..for example: Would 
you support the ratification of the U.N. Convention on the Law of the 
Sea and do you agree that ratifying it would give the United States a 
stronger hand to address Chinese violations and illegal annexations of 
islands in the South China Sea? Would you support ratification of the 
Convention on the Rights of Persons with Disabilities. in order to 
ensure that U.S. standards for access by disabled individuals are 
adopted throughout the world?

    Answer. Whether particular multilateral treaties advance U.S. 
interests must be assessed on a case-by-case basis. During my tenure as 
Ambassador to Canada, I have not had occasion to review closely the Law 
of the Sea Convention or the Convention on the Rights of Persons with 
Disabilities. If confirmed, I would intend to consider these treaties 
in more detail in the context of any deliberations the administration 
might have regarding them. With regard to the rights of persons with 
disabilities, the United States remains a strong supporter of the 
rights of persons with disabilities, and was pleased to co-sponsor the 
June 19 U.N. Security Council resolution on the Protection of Persons 
with Disabilities in Conflict. With regard to the Law of the Sea 
Convention, I will support examination of the issue of U.S. accession 
to the Convention, bearing in mind the national interests of the United 
States, including in the context of challenging Chinese actions in the 
South China Sea, and taking into account concerns that have previously 
been raised.

    Question. During the Presidential campaign, President-elect Trump 
made several very troubling statements and comments indicating that in 
the context of counterterrorism he would support waterboarding and 
other types of torture. Do you think those practices violate 
international prohibitions on torture and war crimes, and if so, will 
you urge the administration to avoid such violations?

    Answer. This administration strives to comply with international 
law in all of its counterterrorism efforts. This includes adherence to 
the United Nations (U.N.) Convention against Torture and Other Cruel, 
Inhuman or Degrading Treatment or Punishment. The U.N. Security Council 
(UNSC) has affirmed through various resolutions that Member States must 
ensure measures taken to counter terrorism comply with all of their 
obligations under international law, and in particular international 
human rights law. In addition, the United Nations Global 
Counterterrorism Strategy (U.N. GCTS), a General Assembly resolution 
adopted by consensus in 2006 and reviewed every two years to guide U.N. 
counterterrorism work, emphasizes respect for human rights and the rule 
of law as one of its core pillars. These resolutions underscore that 
respect for human rights, fundamental freedoms, and the rule of law are 
complementary and mutually reinforcing with effective counterterrorism 
measures. If confirmed, I will work to ensure that the United States 
complies with all of its international law obligations and promotes 
full implementation of UNSC resolutions and the U.N. GCTS, especially 
their provisions on respect for human rights.

    Question. A bipartisan group of Senators, including Republicans and 
Democrats on this committee, have cosponsored legislation to remove 
restrictions on U.S. citizens' ability to travel to Cuba and to 
authorize U.S. companies to facilitate greater internet access inside 
Cuba. Do you believe that current restrictions on the rights of U.S. 
citizens to travel to Cuba enhances the cause of freedom for the Cuban 
people? If so, please explain how preventing interaction between U.S. 
and Cuban citizens, by banning U.S. citizens from the right to travel 
does so?

    Answer. On June 4, the administration took action to curtail non-
family travel, or ``veiled tourism,'' by U.S. travelers to Cuba through 
updates to regulations administered by the Departments of Treasury and 
Commerce. Specifically, these changes end group people-to-people travel 
and prohibit travel by passenger and recreational vessels like cruise 
ships, yachts, and private aircraft to Cuba.
    Unfortunately, U.S. travelers' money spent in Cuba under authorized 
people-to-people categories using the modes of travel mentioned above 
often benefitted the Cuban military, which owns enterprises that 
dominate the country's tourism sector and include many popular 
restaurants, hotels, and other sites. These are the same people 
supporting illegitimate dictator Nicolas Maduro in Venezuela and 
repressing the Cuban people on the island.
    This administration believes the best way to support the Cuban 
people's quest for freedom is to increase pressure on their government 
by cutting off its sources of funding, and we are determined to do so. 
Lest anyone forget, tourism to Cuba has long been prohibited by 
statute, as memorialized in the Trade Sanctions Reform and Export 
Enhancement Act of 2000. U.S. travelers wishing to travel to Cuba may 
do so for lawful purposes, such as visiting family, supporting the 
Cuban people, or undertaking humanitarian efforts, or participating in 
academic exchanges, and the changes announced earlier this month do not 
restrict their ability to do so.
    I would refer you to the Departments of Commerce and Treasury for 
further details.

    Question. Do you support allowing U.S. companies to expand internet 
access inside Cuba so that the Cuban people can have greater access to 
information that isn't currently available on the island?

    Answer. Yes. I share the administration's efforts to support the 
Cuban people through the expansion of internet services while 
discouraging changes that would only deepen the Cuban regime's control 
over the Cuban people's actions and access to information. If 
confirmed, I would encourage freedom of expression, independent media, 
and internet freedom so that the Cuban people can enjoy the free and 
unregulated flow of information.

    Question. Do you agree that the U.S. should help support private 
entrepreneurs in Cuba with training or other assistance, so they can 
build businesses, market their products and services, and compete with 
state-owned enterprises?

    Answer. It is the policy of this administration to amplify efforts 
to support the Cuban people, including through the expansion of free 
enterprise in Cuba. Given the statutory limitations on the provision of 
assistance for Cuba, the U.S. government currently provides such 
support through public diplomacy initiatives that facilitate 
cooperation and the exchange of information.
    For example, the U.S. government supports professional exchange 
programs like the International Visitor Leadership Program, to expose 
Cuban entrepreneurs to a variety of business models and networks that 
support small business growth.

    Question. Will you abstain when the U.N. General [Assembly] 
Resolution pertaining to the statutory U.S. embargo on Cuba is brought 
up for a vote?

    Answer. The United States has consistently voted against the U.N. 
General Assembly Resolution condemning our embargo on Cuba. The 
resolution distracts from the true problems facing the Cuban people and 
shifts blame away from the Cuban Government's own policy failures. I 
will continue to stand up for the human rights and fundamental freedoms 
of the Cuban people, even if it means standing alone at the United 
Nations.
    This annual resolution incorrectly singles out the United States as 
the cause of Cuba's economic, social, and political issues. The Cuban 
economy, however, will not thrive until the government permits a free 
labor market, empowers entrepreneurs, respects intellectual property 
rights, allows unfettered access to information via the internet, opens 
its state monopolies to private competition, and adopts sound macro-
economic policies.

    Question. Do you support the New START agreement with Russia and 
how will you work with Russia to ensure that the agreement is followed? 
Will you recommend to Secretary Pompeo and President Trump that the 
United States work to extend the New START treaty with Russia?

    Answer. The President has charged his national security team to 
think more broadly about arms control, to include additional countries 
and a broader range of weapon systems. New START's limits on Russia's 
strategic nuclear force, establishment of data exchanges, and its 
verification provisions contribute currently to U.S. national security. 
The administration is reviewing whether to seek an extension of the 
Treaty. Central to that review is evaluating whether extension is in 
the U.S. national interest in the evolving security environment, 
including considerations related to Russia's ongoing development of new 
strategic offensive arms, nonstrategic nuclear weapons, and serial 
noncompliance with its arms control obligations, as well as China's 
continuing nuclear modernization.

    Question. The NNSA has made tremendous progress with the stockpile 
stewardship program. In short, our science based efforts to confirm 
that our stockpile is safe, secure, and reliable have worked.and have 
negated the need for testing of nuclear weapons. During the debates to 
consider the Comprehensive Test Ban Treaty, this was a significant 
barrier because the science had not yet matured. Now that the science 
has matured, will you advocate to the Trump administration that they 
support the ratification of the Comprehensive Test Ban Treaty and will 
you visit with our experts at NNSA to learn more about the stockpile 
stewardship program?

    Answer. The administration has made clear that it does not intend 
to pursue ratification of the Comprehensive Nuclear Test Ban Treaty 
(CTBT). The administration will therefore not request reconsideration 
of the Treaty by the Senate. The Stockpile Stewardship Program is an 
essential tool in our efforts to maintain a safe, secure, and reliable 
stockpile. I am always prepared to learn more about this program and 
its accomplishments from NNSA and, if confirmed, will work closely with 
Ambassador Wolcott and her team at the U.S. Mission to International 
Organizations in Vienna (UNVIE) to support U.S. efforts and policy in 
this area.

    Question. Article 23 of the United Nations Declaration of Human 
Rights states that ``Everyone has the right to form and to join trade 
unions for the protection of his [or her] interests.'' The United 
States is a signatory to the declaration and has been an advocate for 
labor rights around the world. You were quoted as saying ``We 
discourage any companies that have unions from wanting to come to South 
Carolina because we don't want to taint the water'' and have been 
referred to as a ``union buster.'' Do you support the Declaration of 
Human Rights, and, more importantly, will you work to reinforce the 
United States' protection of labor rights around the world?

    Answer. The right to organize a labor union is part of the 
fundamental rights of assembly and association and expression. Ensuring 
U.S. trade partners respect internationally recognized worker rights 
and adhere to high labor standards promotes a level playing field for 
U.S. workers and helps create stronger trading partners for the United 
States. If confirmed, I will support workers' rights, including their 
ability to form and join independent trade unions of their choice.

    Question. Are settlements that break up the possibility of a future 
contiguous Palestinian state harmful to achieving a two state solution 
in your opinion? And, do you support Israel's legalization of 
previously illegal (under Israel law) Israeli settler outposts in the 
west bank and do you think this is harmful towards ultimately achieving 
a two state solution? Will you recommend to the President and Secretary 
Pompeo that the United States oppose further annexation of the West 
Bank and that the United States continue to support a two-state 
solution?

    Answer. As the President has said, while the existence of Israeli 
settlements in the West Bank is not in itself an impediment to peace, 
further unrestrained settlement activity does not help advance peace. 
With regard to West Bank annexation, as Special Representative 
Greenblatt said, we do not believe it is helpful to contemplate 
unilateral steps by any of the parties before theUnited States has 
presented our vision for a lasting and comprehensive peace. I 
understand that no such annexation plan has been presented by the 
Government of Israel to the administration.

    Question. Venezuela experts believe that the most likely positive 
outcome short of regime change would probably involve the Maduro regime 
coming to an agreement with the legitimately elected National Assembly 
in some sort of governing coalition to stabilize the freefall in 
Venezuela. Will you support such an effort at the U.N., and how will 
you work to bring this about?

    Answer. The goal of the administration is the restoration of 
democracy in Venezuela. This can only happen through free and fair 
elections. Maduro is incapable of overseeing a democratic transition, 
as we witnessed with the illegitimate 2018 elections. He and his 
associated undermine democratic institutions and harms those who 
support them. Maduro has used the promise of ``negotiation'' to delay 
real change time and again. Maduro's refusal to step down and let a 
transitional government take over is the only thing preventing the 
suspension of sanctions, preparations for free and fair elections, and 
the formation of a transitional government.
    During my tenure as U.S. Ambassador to Canada, I engaged frequently 
with Interim President Guiado's Ambassador-designee, including hosting 
a lunch in his honor with our regional counterparts to help legitimize 
him within the diplomatic community and provide a space where we all 
could better understand the situation on the ground in Venezuela as 
well as highlight the issues facing neighboring countries as they 
accept and support refugees fleeing the country. In addition, I 
continuously pressed the Canadian government to credential 
theAmbassador-designee so he could fully take up the mantle of 
leadership related to his duties.
    If confirmed, I intend to work with members of the Security Council 
and other member states to highlight the need for immediate and 
impartial humanitarian assistance, aid for Venezuelans who have fled to 
neighboring countries, and the protection of Venezuelans against abuses 
of their human rights by the Maduro regime. I will also work with any 
partners who share the desire to see the people of Venezuela get the 
government they want, as well as the opportunity to rebuild economic 
opportunity and prosperity.

    Question. India recently tested an anti-satellite weapon, creating 
debris throughout low earth orbit that could endanger the international 
space station and other assets in outer space. What is your plan to 
address the proliferation of various weapons that could pollute orbits 
with debris and cutoff access to space as a result? How will you work 
with the U.N. Committee on the Peaceful Uses of Outer Space to achieve 
this result?

    Answer. The United States is aware of Indian Government statements 
that its ASAT test was designed to mitigate space debris hazards, and 
that the test was conducted at a low altitude to limit resulting 
debris. We also note Indian Prime Minister Narendra Modi's statement 
that India remains against an arms race in space. We will continue to 
closely monitor the remaining debris from India's ASAT test to ensure 
the safety of assets on orbit and human spaceflight activities such as 
the International Space Station. The issue of orbital debris is an 
important concern because a safe and sustainable space environment 
allows current and future generations to reap the benefit that space 
provides.
    The United States remains committed to working in the U.N. 
Committee on the Peaceful Uses of Outer Space as well as in other 
bilateral and multilateral engagements such as the U.N. Office for 
Outer Space Affairs to mitigate the operational effects of orbital 
debris. As part of our strategic partnership, the United States will 
continue close engagements with India on shared interests in space, 
including collaboration on scientific and technical issues, safety and 
security, and human space exploration.

    Question. What is your assessment of current negotiations ongoing 
at the U.N. Committee on the Peaceful Uses of Outer Space? What are 
your proposals to improve our working relationship with this body?

    Answer. The U.S. believes that COPUOS should continue to remain a 
key multilateral forum for fostering constructive discussion which 
strengthens the safety, stability, and sustainability of outer space 
activities. In this regard, we welcome the committee's recent adoption 
at its 62nd session of 21 Guidelines for the Long-Term Sustainability 
of Outer Space Activities, which were agreed on the basis of consensus 
after eight years of extensive work by a wide range of delegations. 
American private sector and governmental experts took a leadership role 
in this work.
    The Trump a dministration is committed to taking a leadership role 
in follow-on work by COPUOS on the practical implementation of the 21 
voluntary, non-legally binding guidelines and will engage in additional 
bilateral and multilateral discussions with spacefaring nations to 
improve spaceflight safety. If confirmed, I will work closely with 
Ambassador Jackie Wolcott and her team at the U.S. Mission to 
International Organizations in Vienna (UNVIE) to support and advance 
U.S. priorities in this area.

    Question. How will you address the international threat of election 
interference from Russia with our allies at the United Nations, and 
will you utilize the U.N. Security Council to highlight Russian 
election interference before the 2020 election?

    Answer. Foreign efforts to undermine democratic processes are 
unacceptable and require a whole-of-government response. The Department 
of State works closely with other departments and agencies, as well as 
closely with Allies and partners, to protect our nation against 
potential interference in our election processes.
    As the lead foreign policy agency, we communicate to governments 
that their behavior is unacceptable, work with our interagency partners 
to impose costs in response, and build international coalitions to 
deter foreign interference activities and to share best practices.
    Wherever appropriate and necessary, the United States works with 
like-minded partners to push back against Russian efforts in the United 
Nations that run counter to our national interests.

    Question. What measures will you take to address Brazilian plans to 
deforest large areas of the rainforest, as well their efforts to reduce 
the rights of indigenous people who live in the Amazon region and its 
tributaries?

    Answer. If confirmed, I will seek to maintain U.S. leadership to 
advance and protect U.S. economic and environmental interests, 
including by participating in ongoing international climate change 
negotiations to ensure a level playing field for all countries. While I 
am by no means an expert on the deforestation issue you note, I pledge 
to explore the matter, including potential U.N. intersections.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Hon. Kelly Craft by Senator Tim Kaine

Saudi Arabia
    Question. During your nominations hearing, you committed to do 
everything possible to make sure that the investigations the U.N. 
called for into the murder of Saudi citizen and Virginia resident Jamal 
Khashoggi, and the accountability that would follow such 
investigations, are actively pursued by the U.S., no matter where the 
investigations lead or who is deemed culpable saying, ``We should 
definitely always request accountability. I have full faith in the 
special rapporteur. We will follow wherever this investigation leads us 
to.'' How specifically will you support the Special Rapporteur's 
recommendations to the Human Rights Council, the Security Council or 
the U.N. Secretary-General to conduct an international follow-up 
criminal investigation to determine individual liability and identify 
options towards judicial accountability on Khashoggi's execution? Do 
you agree with the report's conclusion that the State of Saudi Arabia 
is responsible for this murder? Will you commit to briefing me within 
six months, or following any significant U.N. action taken on this 
report, whichever comes first?

    Answer. The Department shares your conviction that those 
responsible for this horrific act must be held accountable. The United 
States was the first country to take action to promote accountability, 
when on October 23 the Department placed visa restrictions on those 
suspected of involvement in the murder. On November 15, the 
Administration imposed financial sanctions on Saudi officials who had a 
role in the murder under the Global Magnitsky sanctions program. On 
April 8, the Secretary further designated Saudi government officials 
under Section 7031(c) of the Department of State, Foreign Operations, 
and Related Programs Appropriations Act of 2019. The Department will 
continue to utilize these tools as appropriate. The United States 
supports U.N. Special Rapporteur Agnes Callamard's mandate to 
investigate extra-judicial, summary, or arbitrary executions. 
Department officials met with Callamard as she drafted her report on 
Jamal Khashoggi's killing, and we are reviewing her report closely. I 
would be pleased to brief you on any updates at the first appropriate 
moment.

    Question. In December 2017, the Trump administration pulled out of 
the Global Compact on Migration (GCM), a framework of best practices 
for nations to deal with the new reality of migration patterns, akin in 
its approach to the Universal Declaration of Human Rights. The U.S. 
became the sole nonparticipant in discussions to shape and finalize the 
compact. Since its adoption in December 2018, GCM signatories have been 
meeting and leveraging the convening power of the U.N. to apply 
pressure to put words into action. For example, in March, Ecuador, the 
Philippines, and Bahrain convened 89 U.N. member states, including the 
UK, Russia, Canada, Mexico, and Germany, focused on making the compact 
a reality at the local level. In January, Ethiopia, which hosts 
Africa's second-largest refugee population, changed its law to allow 
refugees to access primary education, health services, some job 
markets, and financial services. This is an example of the tangible 
outcomes that stem from U.N. norm-setting agreements/discussions like 
the Global Compact on Migration. Do you support the administration's 
decision to pull out of the Global Compact on Migration? Will a goal of 
yours be to have the U.S. rejoin the Global Compact on Migration?

    Answer. I understand that the United States does not support the 
Global Compact on Migration (GCM) or the process that led to it, 
because they included goals and objectives inconsistent and 
incompatible with U.S. law, policy, and the interests of the American 
people.As the U.S. national statement on the GCM noted, ``While the 
United States honors the contributions of the many immigrants who 
helped build our nation, we cannot support a `Compact' or process that 
imposes or has the potential to impose international guidelines, 
standards, expectations, or commitments that might constrain our 
ability to make decisions in the best interests of our nation and 
citizens.'' Further, I understand there is lack of consensus among U.N. 
member states regarding the GCM. When it came up for endorsement at the 
U.N. General Assembly on December 19, 2018, the United States, the 
Czech Republic, Hungary, Israel, and Poland voted against it, another 
12 other countries abstained, and 24 did not vote.

    Question. The administration pulled the U.S. out from the U.N. 
Human Rights Council (UNHRC) last June. While the UNHRC is not a 
perfect institution and complaints of anti-Israel bias are real, U.S. 
membership on the Council has delivered a number of positive results 
over the years such as: dispatching a team to investigate atrocities 
committed by ISIS in Iraq; bringing attention to the dire human rights 
situation in Iran; authorizing a groundbreaking investigation into 
human rights violations in North Korea; and taking action on a variety 
of other human rights crises in Myanmar, Yemen, South Sudan, Democratic 
Republic of Congo, Burundi, and Eritrea, to name a few. Will you commit 
to reassess the U.S. posture towards the UNHRC and to telling me if you 
would recommend the U.S. rejoin within six months of your tenure, if 
confirmed?

    Answer. The United States withdrew from the U.N. Human Rights 
Council (UNHRC) because of concerns related to its focus and 
composition, We noted then that ``Countries that aggressively violate 
human rights at home should not be in a position to guard the human 
rights of others'' and that the Council's persistent, unfair bias 
against Israel detracts attention and resources away from the HRC's 
mandate to promote universal respect for the protection of human rights 
and fundamental freedoms. If meaningful reforms are undertaken by 
member states that address our longstanding concerns with the Human 
Rights Council, we would consider the possibility of reengaging at that 
time.
    The United States has, for decades, led global efforts to promote 
human rights, including through multilateral institutions. We will 
continue to pursue a robust human rights agenda at the United Nations 
General Assembly's Third Committee as well as other U.N. bodies, as we 
did during other periods we were not a HRC member. We will also 
redouble our efforts to bring human rights issues to the attention of 
the Security Council, as we did during our 2018 presidency, when we 
held the first ever session on the linkage between human rights abuses 
and threats to international peace and security.

    Question. Do you support a two-state solution to the Israel-
Palestinian conflict and will you commit to working in support of such 
a solution if confirmed? Do you agree that the United States could not 
support a state that promotes different rights for different people be 
it ethnicity, religion or otherwise? Do you agree that the United 
States should always stand for and champion equal rights for every 
person?

    Answer. This administration continues to work towards a 
comprehensive and lasting peace between Israel and the Palestinians 
that offers a brighter future for all. The President has said very 
clearly that the United States will support any solution that the 
parties can live with. That includes a two-state solution, if the two 
parties agree. As a general matter, the Administration believes that 
all human beings are born free and equal in dignity and rights, as 
stated in the Universal Declaration of Human Rights. Promoting human 
dignity and liberty represents the very best of our traditions and 
values.

    Question. In 2018, the administration ended all U.S. funding for 
the U.N. Relief and Works Agency for Palestine Refugees (UNRWA), an 
organization that provides critical services including education, 
health care, and food aid to destitute Palestinian refugees in the West 
Bank, Gaza, Lebanon, and Jordan, with over 50% of its budget applied 
towards education. While other donor countries covered the shortfall, 
UNRWA has not had sufficient funds for emergency assistance to respond 
to the ongoing economic crisis in Gaza or to expand its lauded 
education program to reach more students. Do you support UNRWA's 
mandate to provide critical services to destitute Palestinian refugees? 
If so, do you support the Administration's decision to defund 
U.S.contributions to UNRWA?

    Answer. We made have made it clear that the United States will no 
longer bear a disproportionate share of UNRWA's costs. While several 
donors increased their contributions in 2018, including UAE, Kuwait, 
Qatar, and Saudi Arabia, UNRWA's business model--which is tied to an 
expanding community of beneficiaries--is unsustainable. Palestinians 
deserve better than a service provision model that operates in 
permanent crisis mode. We are ready to explore with key regional 
partners how the United States can assist in transitioning UNRWA 
services to host governments, or to other international or local non-
governmental organizations as appropriate.

    Question. One of the emblematic institutions created to address 
corruption and impunity in Guatemala is the U.N.-backed International 
Commission Against Impunity in Guatemala (CICIG). Since 2007, CICIG has 
identified more than 600 elected officials, businesspeople, and 
bureaucrats in corruption and broke up 60 criminals' networks in the 
country. On January 7, 2019, President Morales announced that his 
administration would unilaterally cancel the international agreement 
that established CICIG, defying Constitutional Court orders in what 
amounts to a technical coup. Do you agree that CICIG has contributed 
significantly to combating the culture of impunity and corruption in 
Guatemala in the last 12 years? Do you pledge to support the continued 
work of CICIG, and other justice and anti-corruption mechanisms in 
Guatemala at the U.N.? Will you raise concerns about attacks on CICIG 
or other mechanisms and support measures to defend these bodies?

    Answer. I understand that CICIG made contributions to anti-
corruption efforts in Guatemala, and that over time CICIG also showed 
both flaws and limitations. Rule of law, reduced corruption, an end to 
impunity, and respect for democratic principles are key to security, 
stability, and prosperity, not only in Guatemala, but throughout the 
region and the world. The United States will continue to work with the 
authorities and other partners in Guatemala on these and other matters 
of mutual importance.

    Question. Do you agree with the spirit and substance of the San 
Jose Action Statement? What action do you plan to take at the U.N. to 
address forcible displacement around the world, which currently affects 
nearly 71 million people?

    Answer. The United States supports regional actions to respond to 
mixed migratory movements.If confirmed, I am committed to working with 
governments and other partners, such as the U.N. High Commissioner for 
Refugees and International Organization for Migration, to increase the 
capacity of asylum systems in transit and destination countries and 
promote safe, well-managed, and legal migration.

    Question. UNHCR and other U.N. bodies face difficult choices in how 
they navigate the political landscape in Syria to reach vulnerable 
populations and deliver humanitarian assistance. Since 2016, some of 
these organizations have faced accusations that pro-regime bias affects 
the assistance they deliver and the information they provide 
beneficiaries, including refugees. Will you push for greater 
transparency on neutrality of U.N. operations in Syria?

    Answer. We are aware of these reports and follow them very closely. 
The State Department and USAID places the highest priority on ensuring 
that the funding it provided to partners is used wisely and effectively 
to reach millions people in need of humanitarian assistance each month 
in Syria, and that humanitarian agencies observe the principle of 
neutrality. The Syria context is extremely challenging and is subject 
to elevated risks. To mitigate risk and coordinate relief, State 
Department and USAID meet regularly with U.N. and other partners to 
discuss programming, issues that impede humanitarian activities, and 
partners' risk mitigation mechanisms.
    We continue to call on the Syrian regime to provide full, 
unhindered, and sustained humanitarian access throughout Syria for the 
nearly 12 million people in need of support, who make more than half of 
Syria's population.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Hon. Kelly Craft by Senator Edward J. Markey

    Question. As U.S. Ambassador to the U.N., what will be your 
commitment to consulting with and engaging in dialogue with Congress 
and civil society on critical issues?

    Answer. If confirmed, I look forward to benefitting from the wisdom 
and experience available from Members of Congress and civil society, 
and will look for frequent opportunities to engage with the widest 
range of available expertise.

    Question. How will you ensure that the U.S. retains its influence 
on the U.N. Security Council in the long term and doesn't risk 
alienating other member states that have traditionally been U.S. allies 
in the promotion of human rights, democracy, and peace and security?

    Answer. If confirmed, it will be a high priority will be to 
establish strong working relationships with the entire Security 
Council, with particular attention to my British and French 
counterparts, as well as sustained outreach to the elected membership 
to ensure that American influence remains central to the Council's 
activities.

    Question. The current administration has promoted a more 
transactional view of foreign aid. Jon Lerner, who served as Ambassador 
Haley's deputy, recently stated that by allowing member states to vote 
in opposition to the U.S. position sends the message there is no price 
to be paid for crossing us. Do you agree with his idea that foreign aid 
should be directly linked to whether nations supports us at the U.N.?

    Answer. I believe that cooperation with the United States, 
including support on important votes at the United Nations, should be a 
factor we consider when reviewing our foreign assistance commitments. I 
also believe that we should engage our counterparts to build 
relationships before votes take place. If confirmed, I am committed to 
fostering relationships with my counterparts at the United Nations and, 
when needed, will remind them that U.S. foreign assistance should not 
be taken for granted.

    Question. In countries around the world, there are criminal 
penalties associated with exercising sexual and reproductive health and 
rights. LGBTI people are criminalized for who they love and are 
regularly prosecuted or incarcerated for consensual same sex sexual 
conduct or in places like Indonesia, Chechnya, and Egypt. There are 
also women who are in jail in places like El Salvador and Senegal for 
having miscarriages or abortions. These are gross human rights 
violations.
    Meanwhile, in February, Ambassador Grenell announced an initiative 
to support the decriminalization of same sex conduct abroad. This was 
echoed by a tweet by the President just a few days ago ``honoring'' 
pride month. This appears to be inconsistent with the administration's 
posture towards LGBTI communities abroad. Just a few weeks ago, the 
Department had barred missions and embassies abroad from displaying the 
Pride flag alongside the American flag. Last month, the Secretary 
expanded the global gag rule, which has shuttered HIV clinics serving 
gay men and transgender people abroad. The United States continues to 
erase trans people in international agreements, substituting words like 
``gender equity'' with ``equality between girls and boys.''


   How can the administration claim to support LGBTI rights externally 
        while undermining the rights of LGBTI people through its policy 
        and diplomacy?


    Answer. The Department has been clear and consistent in affirming 
that human rights are universal, and that no one should face violence, 
criminalization, or severe official discrimination because of their 
LGBTI status or conduct. We will continue to stand up and speak out in 
support of the human rights and fundamental freedoms of LGBTI persons 
in all corners of the globe, including in Indonesia, Chechnya, Egypt 
and other contexts as well, and to press for perpetrators of human 
rights violations and abuses to be held accountable. Further, the 
Department will continue to provide strong U.S. programmatic and 
emergency support for LGBTI human rights defenders and civil society 
organizations working to counter violence, severe official 
discrimination, and criminalization of LGBTI conduct or status.

    Question. As U.S. Ambassador to the United Nations, would you raise 
concerns about laws that criminalize same-sex relationships and women's 
personal health decisions in public and private settings?

    Answer. Department policy focuses on deterring and responding to 
violence against LGBTI persons, supporting efforts to decriminalize 
LGBTI status or conduct, and working to prevent and combat severe 
official discrimination. President Trump's National Security Strategy 
explicitly states that the United States will support efforts to 
advance women's equality and protect the rights of women and girls. 
This administration will do all we can to protect and respect the 
sanctity of life all across the globe. As the world's largest bilateral 
donor of women's health and family planning assistance worldwide, the 
United States remains committed to helping women and their children 
thrive. If confirmed, I will continue to work to advance these policy 
issues at the U.N.

    Question. The Senate--particularly members of the Senate Foreign 
Relations Committee--have been very active in bringing attention to and 
calling for action to address the Rohingya crisis. There are now over 
900,000 Rohingya refugees in Bangladesh, including half a million 
children, who have fled horrific violence. In a joint statement last 
week, the U.S. and Bangladeshi governments made clear the need to 
``address the root causes of the crisis, and to create the conditions 
necessary for the voluntary, safe, dignified, and sustainable 
repatriation.'' Given the current environment in Burma, prospects for 
such returns seem a long way off.


   As we approach the two-year anniversary of the extreme violence 
        against the Rohingya that happened in August 2017, what will 
        you prioritize at the U.N. to support the needs of those who 
        have been displaced and to advance a sustainable, long-term 
        resolution to the crisis?

    Answer. If confirmed, I will continue to support U.S. efforts that 
will improve the situation for Bangladeshi host communities, Rohingya 
refugees, others internally displaced, and all people in Burma, 
including accountability for those responsible for the atrocities 
committed. If confirmed, I will continue to call on the government of 
Burma to fully implement the Annan Commission recommendations, 
including recommendations related to access to citizenship and freedom 
of movement. If confirmed, I will also support efforts and mechanisms 
at the United Nations to foster justice and accountability for human 
rights abuses and violations in Rakhine State and other areas of Burma. 
These include the Fact Finding Mission for Myanmar, the Independent 
Investigative Mechanism for Myanmar, the U.N. Special Envoy to Myanmar, 
and the U.N. Special Rapporteur on the human rights situation in 
Myanmar.

    Question. As ethnic cleansing does not have legal implications, nor 
does it seem to comport with the existing evidence documenting crimes 
against humanity or genocide, do you support a legal determination on 
the atrocities the Burmese military has committed against the Rohingya?

    Answer. Describing the circumstances of the Rohingya as ethnic 
cleansing does not prejudge any potential further analysis on whether 
other mass atrocities took place, including genocide or crimes against 
humanity. If confirmed, I will not let this matter fade from the global 
agenda.

    Question. Do you believe that these crimes amount to crimes against 
humanity or genocide?

    Answer. I believe there must be accountability for those 
responsible for the horrific treatment of the Rohingya population. I 
note that U.N. Secretary-General Guterres recently named American 
Nicholas Koumjian as the first head of the Independent Investigative 
Mechanism for Burma--an important step that if confirmed I will monitor 
closely.

    Question. Will you pledge to support international actions that 
seek to address the ongoing genocide in Burma in your position?

    Answer. I support the Secretary-General's attention to this issue, 
including by appointing a qualified American to lead the Investigative 
Mechanism. If confirmed, I pledge to follow this matter closely, and 
particularly the humanitarian condition of Rohingya refugees and the 
status of the ongoing investigation.

    Question. In what ways will you engage on the Security Council to 
promote this issue [violence against Rohingya in Burma]?

    Answer. If confirmed, I will work with Security Council partners to 
ensure that Burma remains on the agenda, and that meaningful sessions 
are used to return international attention to the ongoing suffering of 
the Rohingya people.

    Question. The United Nations Fact Finding Mission, the U.S. 
Government, and several non-governmental organizations have documented 
the Burmese military's killing of tens of thousands of Rohingya, cases 
of summary executions, mass rapes, and burnings of villages, which led 
to the displacement of over 700,000 to neighboring Bangladesh. Today, 
over 900,000 Rohingya refugees reside in makeshift camps in Bangladesh 
without access to formal education, employment, healthcare, or freedom 
of movement. Meanwhile, the absence of adequate lighting and lack of 
secure, gender-segregated latrines and washrooms have exacerbated the 
risks of gender-based violence, particularly for women and girls.


   In your position, how will you ensure that the basic human rights 
        of the Rohingya refugees in Bangladesh are met, including 
        rights to food, livelihood, health care, and freedom of 
        movement and education?

    Answer. Thanks to Congress's leadership and generosity, I 
understand the United States is the leading contributor of humanitarian 
assistance in response to the Rohingya crisis, having provided nearly 
$542 million since the escalation of violence in August 2017, of which 
nearly $464 million is for programs inside Bangladesh. This money funds 
programs that save lives. It helps provide protection; emergency 
shelter; water, sanitation, and hygiene; healthcare; psychosocial 
support; food and nutritional assistance; non-food items; site 
management and development; education, and access to livelihood 
opportunities to approximately one million beneficiaries in Bangladesh, 
most of whom are Rohingya women and children from Burma, and the 
related needs of Bangladeshi host communities. If confirmed, I will 
support efforts of the United Nations and its partners to ensure that 
human rights and humanitarian needs of Rohingya refugees are met, while 
durable solutions are being pursued, given that conditions in Rakhine 
State are not yet conducive for voluntary, safe, dignified, and 
sustainable returns.

    Question. Additionally, given that the most effective way to 
permanently resolve the Rohingya refugee crisis is by restoring their 
citizenship in Burma and ensuring safe, dignified and voluntary 
repatriation process, how do you propose to use your position to 
resolve the Rohingya refugee crisis in a more permanent manner?

    Answer. If confirmed, I will continue the Department's efforts to 
engage, influence, and lead actions of the international community, 
including with like-minded states, non-traditional partners, and 
international organizations, to resolve the Rohingya crisis and advance 
U.S. interests and values in Burma. I will support efforts and 
mechanisms at the United Nations to foster justice and accountability 
for human rights abuses and violations in Rakhine State and other areas 
of Burma. These include the Fact Finding Mission for Myanmar, the 
Independent Investigative Mechanism for Myanmar, the U.N. Special Envoy 
to Myanmar, and the U.N. Special Rapporteur on the human rights 
situation in Myanmar. If confirmed, I will also continue to call on the 
government of Burma to fully implement the Annan Commission 
recommendations, including recommendations related to access to 
citizenship and freedom of movement, and to create the conditions that 
would allow for voluntary, safe, dignified, and sustainable returns.

    Question. What measures will you employ to ensure that the 
Government of Bangladesh and Burmese government are consulting with 
Rohingya refugees regarding their futures?

    Answer. If confirmed, I will work with U.N. bodies, like-minded 
countries, and other partners to call upon the governments of 
Bangladesh and Burma take into account Rohingya refugees' views 
regarding their futures in the development of long-term plans. I will 
also work to ensure that any repatriation of Rohingya is voluntary, 
safe, dignified, and sustainable and would use my position to 
underscore this international tenet. If confirmed, I will highlight the 
ongoing plight of Rohingya refugees, the generosity of Bangladesh in 
hosting more than one million refugees, and the urgent need for Burma 
to address the root causes of the crisis to create the conditions that 
would allow for voluntary, safe, dignified, and sustainable returns.

    Question. What are your views on these two commissions for justice? 
As U.S. Ambassador to the United Nations, how would you imagine the 
U.S. Government should interact with the commissions? How would you 
ensure and support effective international measures for justice and 
accountability?

    Answer. If confirmed, I will support credible domestic and 
international mechanisms that genuinely hold accountable any 
individuals responsible for atrocities in Burma and that seek justice 
for victims of human rights abuses and violations. Those impartial 
investigations must prioritize the safety and security of victims and 
witnesses. In addition, I will work with allies and likeminded partners 
to support efforts and mechanisms at the United Nations to foster 
accountability for human rights abuses in Rakhine State and other areas 
of Burma.

    Question. How do you propose to protect and promote democratic 
norms and ideals in a country where the military is conducting human 
rights abuses with impunity and the space for civic engagement is 
shrinking?

    Answer. I believe the United States plays an irreplaceable role in 
partnering with the people of Burma in their quest to transition from 
military dictatorship to a civilian-led democracy. If confirmed, I will 
call for the establishment of civilian control of the military and 
support efforts to address the root causes of violence in all regions 
of Burma. As justice and accountability are essential for Burma's 
democratic transition, if confirmed, I will also support efforts aimed 
at holding accountable those responsible for the violence, atrocities, 
and crimes in Rakhine State as well as in other areas in Burma.

    Question. Do you support robust sanctions pressure to enhance our 
diplomacy with respect to North Korea?

    Answer. Yes. Sanctions on North Korea are indispensable to the 
effort to secure its final, fully verified denuclearization.

    Question. When other Security Council members say that new U.N. 
sanctions on North Korea aren't needed because the United States 
doesn't seem willing to enforce the current multilateral regime, how 
will you respond?

    Answer. If confirmed, I will take every opportunity to reinforce to 
my Security Council counterparts the continuing necessity for rigorous 
and enforced U.N. sanctions on North Korea.

    Question. Do you agree that CICIG has contributed significantly to 
combating the culture of impunity and corruption in Guatemala in the 
last 12 years?

    Answer. Yes, though over time CICIG showed both flaws and 
limitations.

    Question. Do you pledge to support the continued work of CICIG, or 
other justice and anti-corruption mechanisms, in Guatemala?

    Answer. Rule of law, reduced corruption, and an end to impunity are 
key to security, stability, and prosperity, not only in Guatemala, but 
throughout the region and the world, and the United States will 
continue to work with committed Guatemalan partners to build capacity 
to fight corruption

    Question. Will you raise concerns about Morales' attacks on CICIG 
or other mechanisms and support foreign policy measures to defend these 
bodies?

    Answer. It is important that the Guatemalan government respect 
democratic institutions, rule of law, and separation of powers as 
mandated by the Guatemalan constitution. The United States looks 
forward to working with the Government of Guatemala on these and other 
matters of mutual importance.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Hon. Kelly Craft by Senator Jeff Merkley

    Question. In your nomination hearing, you pledged to Senator Todd 
Young (R-IN) that the administration would ``consult'' with Congress 
prior to making a decision to use military force against Iran. You did 
not directly answer Senator Young's question on whether the 
administration would seek explicit authorization from Congress for the 
use of military force against Iran. Do you agree that the 2001 and 2002 
Authorizations for the Use of Military Force (AUMF) do not provide 
authorization for the use of military force against Iran? If so, will 
the administration consult with Congress and seek its explicit approval 
for the introduction of U.S. armed forces into hostilities with Iran?

    Answer. The administration has not to date interpreted either the 
2001 or 2002 AUMFs as authorizing military force against Iran, except 
as may be necessary to defend U.S. or partner forces engaged in 
counterterrorism operations. The President, the National Security 
Advisor, and the Secretary of State have been clear about this. 
However, we have been equally clear that if American citizens or 
interests are threatened or attacked, we will respond in an appropriate 
fashion. Any action we take with Iran will be lawful. As the situation 
with Iran continues to evolve, we are committed to engagement with 
Congress, especially regarding matters of national security.

    Question. If confirmed, will you advocate for the United States to 
make a genocide determination on the atrocities committed against the 
Rohingya?

    Answer. We are deeply concerned about and appalled by the Burmese 
military's ethnic cleansing of Rohingya and the ongoing humanitarian 
crisis that has ensued. The process for deciding whether and when to 
make a determination that certain acts may amount to genocide, crimes 
against humanity, or ethnic cleansing, has historically been reserved 
to the Secretary of State.
    Regardless, as Secretary Pompeo has said, ``the most important 
thing we can do is get both accountability and behavior change.'' If 
confirmed, I will continue to support the U.N. mechanisms designed to 
investigate and preserve evidence as part of our collective effort to 
get justice for the victims and their families.

    Question. In your nomination hearing, you stated that the United 
States is committed to human rights. In what specific U.N. forum or 
fora--outside of the U.N. Security Council--will you advocate for human 
rights now that the United States is no longer member of the Human 
Rights Council?

    Answer. The United States has, for many decades, led global efforts 
to promote human rights, often through multilateral institutions. We 
will continue to pursue a robust human rights agenda at the United 
Nations General Assembly's Third Committee as well as other U.N. 
bodies, as we did during the periods we were not a Human Rights Council 
member. We will also redouble our efforts to bring human rights issues 
to the attention of the Security Council, as we did during our 
presidency when we held the first ever session on the linkage between 
human rights abuses and threats to international peace and security.
    In addition to building on a history of bilateral human rights 
engagement, we will also continue to work to advance human rights in 
regional forums, like the Organization for Security and Cooperation in 
Europe, the Organization of American States, and other multinational 
and multi-stakeholder bodies. Similarly, we will continue to consult 
closely with our allies on taking actions to address the most egregious 
country situations.

    Question. If confirmed, will you pledge that the United States will 
maintain its voluntary contributions to the Comprehensive Test Ban 
Treaty Organization (CTBTO) and the Preparatory Committee (PrepCom) as 
well as refrain from any action to un-sign the Comprehensive Test Ban 
Treaty (CTBT)?

    Answer. The administration has made clear that it does not intend 
to pursue ratification of the Comprehensive Nuclear-Test-Ban Treaty 
(CTBT). The administration will therefore not request reconsideration 
of the Treaty by the Senate. However, we will continue to support the 
Comprehensive Nuclear-Test-Ban Treaty Organization Preparatory 
Commission (CTBTO PrepCom) and its development and operation of the 
International Monitoring System (IMS) and its supporting systems.
    The President's budget continues to fully fund our assessment to 
the PrepCom, and the U.S. assessed contribution far outweighs other 
State Signatories, many of which are chronically in arrears.

    Question. If confirmed, will you work to reverse State Department 
policy that interprets a child born of a married same-sex couple abroad 
as being ``out of wedlock'' under the Immigration and Naturalization 
Act (INA)? During your tenure as Ambassador to Canada, how many 
children born abroad in Canada, of legally married U.S. same-sex 
couples, have been denied in their applications for U.S. Passports at 
U.S. consulates in Canada?

    Answer. We are committed to treating every U.S. citizen who seeks 
our assistance overseas fairly and in accordance with U.S. law. There 
has never been and there is not now a Department of State policy that 
classifies children of same-sex couples differently for citizenship 
purposes than other children born abroad. In adjudicating citizenship 
acquisition for children born abroad, the Department treats any child 
who is biologically related to only one parent in a marriage as having 
been born out of wedlock. This interpretation is consistent with the 
Immigration and Nationality Act (INA) provisions regarding transmission 
of citizenship and definition of birth in wedlock and represents 
longstanding policy.
    Regarding the second part of the question, the Department does not 
track whether a child's parents are same-sex so we cannot provide that 
data. However, I can assure you that the Department applies the law 
consistently worldwide, including in Mission Canada during my tenure as 
ambassador. The Department makes citizenship determinations for all 
children born abroad using the same criteria under the INA, regardless 
of the sex or sexual orientation of their parents, and does not 
discriminate against same-sex couples or their children.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Hon. Kelly Craft by Senator Cory A. Booker

    Question. Given the volatile security environment due to the Ebola 
crisis, will you ensure that MONUSCO's mission budget is not cut?

    Answer. I share your concern about the Ebola crisis in the 
Democratic Republic of the Congo and am committed to maintaining a 
close and careful eye on the situation there. If confirmed, I will use 
the voice and influence of the U.S. Mission to the United Nations in 
the Fifth Committee of the General Assembly to support appropriate 
funding for the MONUSCO mission budget.

    Question. What additional should the U.S. take into consideration--
in concert with MONUSCO--to protect health workers and secure treatment 
facilities in the region?

    Answer. The United States is working closely with the U.N. and 
MONUSCO, the DRC, the WHO, and other partners to address the critical 
need to protect health workers and treatment facilities, while avoiding 
perceptions that could exacerbate community resistance. MONUSCO 
provides several types of security assistance to the Ebola response, 
including securing humanitarian access, protection for personnel, 
assessing threats, and operating a Tactical Operations Center to 
address security incidents. The United States also prioritizes local 
engagement to address community feedback, increase ownership of 
response activities, and address broader needs for community acceptance 
and ensure humanitarian access.

    Question. Do you believe that the U.S. should call for a suspension 
of the drawdown, given the current political crisis in Sudan? Do you 
believe UNAMID's exit plan for next year is still appropriate?

    Answer. The United States is closely following developments in 
Sudan. UNAMID's current mandate, which expires on June 30, expresses 
support for a joint recommendation by the Secretary-General and the 
African Commission Chairperson on drawdown provided there is no 
significant change in security and key indicators are met. The United 
States is closely engaged with Security Council members and considering 
all options that will bring long-term peace and stability to Darfur. If 
confirmed, I will work to ensure that U.N. peacekeeping missions are as 
effective and efficient as possible, and are working to advance U.S. 
peace and security interests in each case.

    Question. If security conditions in Darfur or Sudan more broadly 
deteriorate significantly, what would you do, as the U.S. 
representative at the U.N.?

    Answer. The United States' commitment to the people of Darfur and 
Sudan in general has remained steadfast since the outset of violence in 
the early 2000s, and we have played a leading role at the U.N. in 
bringing attention and coordinating international response to the 
crises there. We have consistently advocated for an end to violence, 
dialogue between the government and opposition groups, justice and 
accountability for civilians who have borne the brunt of violence, and 
solutions to the root causes of this protracted conflict. If confirmed, 
I will ensure the United States remains a leading voice in the U.N. for 
long-term peace, stability, and security, and use the tools at my 
disposal in the U.N. to press for positive change in Darfur and Sudan.

    Question. Do you think the U.S. has a lead role to play with 
respect to Sudan, as is it did during the height of the Darfur crisis 
or in facilitating the Comprehensive Peace Agreement?

    Answer. Yes, the United States continues its role as a leading 
nation in coordinating efforts to achieve peace in Sudan, working with 
its partners in the region, the Troika (U.S., UK and Norway) and with 
the U.N. and African Union (AU). In early June, the State Department 
appointed Ambassador Donald Booth as U.S. Special Envoy for Sudan to 
help lead U.S. efforts in support of long-term peace and stability in 
Sudan. We are working closely with the AU, Ethiopia, and other partners 
to support a mediated resolution to the current crisis in Sudan and the 
formation of a civilian-led interim government.

    Question. What do you believe to be the role of the United Nations 
in investigating the use of force against peaceful protestors in 
Khartoum? As ambassador, how would you approach the current situation 
in Sudan?

    Answer. Sudan's Transitional Military Council (TMC) is responsible 
for the safety and security of its citizens, and for the actions of its 
security forces. We call on the TMC to hold those responsible for the 
brutal attacks perpetrated by the security forces, led by the Rapid 
Support Forces, to account. We have called for a credible and 
independent investigation of the recent attacks against civilians in 
Sudan. Regrettably, the Sudanese Transitional Military Council has 
rejected offers for a multilateral investigation, and said that its 
Attorney General is investigating the attacks. While we await their 
findings, this rejection of an impartial multilateral support 
undermines the credibility of this effort. Separately, we have 
supported the deployment of U.N. monitoring teams to investigate 
allegations of human rights violations and abuses in Darfur.
    If confirmed, I would support the continuation of such efforts in 
Sudan and any other U.N. engagement that was consistent with U.S. 
approaches and policies.

    Question. What role should the U.S. play in promoting greater 
respect for ensuring the safety of humanitarian organizations and their 
workers?

    Answer. The United States is a leader in promoting the safety and 
security of humanitarian personnel as well as the protection of U.N. 
personnel. I believe the United States should continue to be a strong 
supporter of the U.N. Department of Safety and Security, which has 
enabled more than 1,000 high-risk humanitarian operations in active 
conflict zones. We will continue to press for more efficient, 
effective, transparent, and accountable humanitarian assistance, 
including through U.N. security management. In addition, in 2018 the 
United States was proud to cosponsor General Assembly resolution 73/137 
on the safety and security of humanitarian personnel and the protection 
of U.N. personnel. That resolution sent a message of concern and 
solidarity to the many courageous people who risk their lives to 
deliver humanitarian assistance to the millions of people across the 
world who suffer as a result of natural disasters, armed conflict, and 
other crises. I believe the United States should continue to play such 
a leadership role. That includes continuing to call on parties to armed 
conflict to comply with their obligations under international 
humanitarian law, and to take every action to provide unhindered access 
to humanitarian organizations and to respect their independence and 
neutrality.

    Question. What is your plan to reaffirm a U.S. commitment to 
international humanitarian law (IHL), including the protection of 
humanitarian action?

    Answer. The United States is a leader in promoting the safety and 
security of humanitarian personnel as well as the protection of U.N. 
personnel. We are also a leader in promoting compliance with 
international humanitarian law, and we will continue to reiterate our 
strongest condemnation of all violations of international humanitarian 
law. We will continue to insist that all States comply strictly with 
the obligations applicable to them under international humanitarian 
law, and emphasize the need for all parties to armed conflict to take 
all required measures to avoid civilian casualties and to protect 
civilian populations. In addition, the United States will continue to 
be a strong supporter of the U.N. Department of Safety and Security, 
which has enabled more than 1,000 high-risk humanitarian operations in 
active conflict zones. Finally, we will continue to use the U.N. as a 
forum for securing access for humanitarian organizations.

    Question. Do you agree that we must incorporate climate change into 
our national security strategy, and will you do so to the fullest 
extent of your ability if confirmed?

    Answer. I believe that climate change needs to be addressed, as it 
does pose very real risks for our planet and all its living creatures. 
If confirmed, I will promote the American ingenuity and technological 
innovation that for decades has made the United States a leader in 
tackling the challenges of our natural environment--all while 
safeguarding our nation's economic wellbeing.

    Question. Early in Ambassador Haley's tenure, USUN appointed a 
civil society delegate representing an organization (C-Fam) with a 
history of extreme anti-LGBTQ rhetoric and advocacy, and with a track 
record of making outrageous claims to justify efforts to restrict 
access to even the most basic reproductive health services globally. 
Can you assure me that you will not appoint representatives of 
organizations that promote harassment, discrimination, violence, or a 
nonrights based approach as U.S. civil society delegates at the U.N.?

    Answer. If confirmed, I will not tolerate harassment, 
discrimination, or violence of any kind. There is no place for that 
sort behavior in the workplace or any other setting.



                               __________

                 Correspondence Received in Support of 
                     Ambassador Craft's Nomination


Letter from J.D. Irving, Co-Chief Executive Officer, J.D. Irving, 
        Limited

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        


Letter supporting Amb. Craft's nomination, from Gordon D. Griffin, 
        Global Vice Chair, Denton's, U.S. LLP, Atlanta, GA

             


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  Letter Sent to Ambassador Craft by Senators Edward J. Markey, Jeff 
                   Merkley, and Sheldon Whitehouse\1\

---------------------------------------------------------------------------
    \1\ These questions and Ambassador Craft's responses are located in 
this transcripts section on Additional Questions Submitted for the 
Record.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                  <all>
</pre></body></html>
